<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, MARCH 10, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:29 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Stevens, Cochran, Allard, Dorgan, 
Leahy, and Feinstein.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. GALE A. NORTON, SECRETARY
ACCOMPANIED BY:
        P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY, MANAGEMENT 
            AND BUDGET
        JOHN D. TREZISE, DIRECTOR OF BUDGET

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. We will call the subcommittee to order.
    We have got a lot of work going on this morning. We have 
got a couple of members here who are in the middle of markups, 
and we have got markups along with those fellows over there.
    I am going to forego my opening statement right now. The 
chairman of the full committee is here. I guess not the full 
committee. But Mr. Stevens is here.
    Because he has a markup starting over in Commerce, where 
Senator Dorgan and I are supposed to be in a little bit, and 
then you have got a markup in Budget, and I understand that is 
taking up your time for Senator Allard.
    So I will call on Mr. Stevens, if you have an opening 
statement and want something for the record, you are free to do 
that at this time.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much. I accept your 
yielding to me on a matter of age. All right?
    Senator Burns. I was afraid to say that.
    Senator Stevens. Madam Secretary, I will see you later this 
afternoon, but I have come over to specifically put in the 
record some questions I would ask you to respond to. I am 
really very seriously worried about the budget and how it 
affects my State. As I told you, we had 703 fires totaling 6.5 
million acres that burned last year, and the effort to fight 
those fires was just absent. So I would hope that you respond 
to that.
    The other thing that worries me considerably is--you know, 
most of my friends here do not understand this, but I was one 
of the original co-sponsors of the Endangered Species Act. We 
have listed the spectacled eider and the Stellers eider. These 
two species have now been listed as threatened, but the money 
for dealing with endangered species and threatened species in 
Alaska is reduced by $1 million. I just do not understand that. 
I do not ask you to answer now, but I just hope you would 
answer for the record and work with us as we try to correct 
some of these things.
    We are besieged this year more than ever before with 
attacks because of our pork, the add-ons, the changes we make 
in the budget. I think we need to reprioritize the budget and I 
hope you will assist us in this regard to take care some of the 
meaningful problems in our States.
    I appreciate it, Mr. Chairman.
    Senator Burns. Senator Allard, you are in the middle of a 
markup upstairs right now, I guess.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. We are and actually we have moved it over 
to the Capitol because we have a lot of votes this morning too 
on the floor.
    I just want to personally welcome the Secretary here. We go 
back a ways in Colorado. I just want to state for the record I 
think she is doing a great job and have appreciated working on 
many issues very important to Colorado and the western States.
    There is no doubt, Mr. Chairman, that this is going to be a 
very tight budget year. While we go through this budget on 
Interior, I think we have to be very deliberative and very 
careful the way we move forward on that. I want to be a 
positive force in our efforts to make sure that we can restrain 
spending. We need to do that because of the deficit 
accumulation, but also we need to do it very thoughtfully.
    So I just wanted to welcome her briefly and thank you, Mr. 
Chairman. This is my first subcommittee and I am looking 
forward to working with you and the other members, Mr. 
Chairman, and I will submit my full statement for the record. 
Thank you very much.
    Senator Burns. Without objection, that statement will be 
made part of the record.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Mr. Chairman, Thank you for holding this hearing today. I am 
pleased to have a chance to discuss the projected budget for the 
Department of Interior. I'd like to extend a special welcome to 
Secretary Norton. Gale and I go way back, and I think that she has done 
an exceptional job in handling an agency that is very important to 
Colorado, and the nation.
    Specifically I want to thank you for the work that you, and the 
rest of the Administration, have done to protect state water rights, 
and to foster an atmosphere of cooperation--rather than oppressive 
mandates--with regard to the potential listing of ``endangered 
species.''
    We all know that this is going to be a tough budget year. The 
President had difficult decisions to make in his projected budget 
request. While I realize that difficult adjustments must be made, I 
think that we must be careful and deliberative when making these 
adjustments.
    I am going to have to leave early to participate in the Budget 
Committee mark-up, but I look forward to working with you, Mr. 
Chairman, and the rest of the Committee, to see that worthy projects 
and programs continue to be funded in a responsible manner.

    Senator Burns. I have got a short statement here that I 
will open up with this morning and I will turn to my friend 
from North Dakota.
    Good morning and welcome, Madam Secretary, to this 
subcommittee.
    The budget, it looks like, presents several challenges, as 
you have heard from two members of this committee. Like most 
agencies in Government, you have been charged by your President 
and his eyeshades over at OMB to write a budget that helps 
reduce the size of the deficit. I do not envy your task, even 
though it is an important one. Neither do I envy the task that 
lies before this subcommittee, as we begin to put the 
appropriations bill together.
    The bottom line is that the request under this 
subcommittee's jurisdiction is about $600 million below last 
year's discretionary spending, and that is without factoring in 
hundreds of millions of dollars that it takes just to keep pace 
with pay increases and other fixed costs. Maybe we better start 
looking down there and see how much dead wood you have got 
around the Department of the Interior to find some savings. If 
you can find some, I would appreciate any information that you 
could forward to this subcommittee. But our fixed costs total 
about $159 million in the Department of the Interior alone.
    All of this translates into some pretty stark math within 
your request. You have elected to zero out the Land and Water 
Conservation Fund State assistance program for a savings of 
around $90 million. You have reduced Payments in Lieu of Taxes 
by $27 million. You have reduced funding for a variety of 
Indian education programs, such as Tribally Controlled 
Community Colleges and the Johnson-O'Malley grants. And you 
have proposed to terminate the rural fire assistance program, 
cut in half the Save America's Treasures program, and reduce by 
$28 million the Mineral Resource programs within the U.S. 
Geological Survey.
    I do not say all this to imply that cutting or terminating 
programs is necessarily bad. Obviously, we have to make some 
tough choices in order to control Federal spending and weed out 
the programs that are not working so well. I think what we are 
interested in is what is behind the choices that you have made.
    Your budget also made room for a number of significant 
increases. Funding for historical accounting of Indian trust 
accounts is up $78 million. Let me sort of have a little word 
about this. I do not know whether we are getting anywhere or 
not. This looks like we are just pouring money down a black 
hole, and between you and judges and everything else, it has 
got most of us up here on the Hill sort of confused.
    You have asked for an additional $21 million for Private 
Stewardship and Landowner Incentive programs, $58 million for 
abandoned mine lands, and $20 million for the troubled LANDSAT 
program. You have requested $12.5 million for a new Preserve 
America program.
    What we hope to achieve today is a better understanding of 
why some of these items were viewed as higher priorities than 
those that were cut. I do not anticipate that the budget 
resolution that Congress will soon adopt will provide any great 
relief to this committee. So I will have to wrestle with many 
of these same questions and tradeoffs. We hope that you can 
help us with your testimony and as we work in the weeks ahead 
to come down with a budget and appropriation that we can live 
with. So I would appreciate your being as candid as you 
possibly can in this area.
    I want to thank you again because I certainly appreciate in 
the past that we have worked together on many programs and we 
have worked our way through them. I appreciate that 
cooperation. But we seriously have a huge challenge ahead of us 
today.
    By the way, I will give you some idea of what is ahead of 
us today from a time standpoint. These are the questions. There 
are four questions on each page. So I hope you have maybe 
packed a lunch or something. We will work our way through it.
    Now I would turn to my good friend and ranking member on 
this committee, Senator Dorgan.

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, thank you very much.
    Madam Secretary, welcome.
    The chairman has raised a number of issues that I would 
also echo. I think funding for tribal colleges, the 
recommendation really just retracts the last 2 years of 
progress that we have made, zeroing out the funding for the 
United Tribes Technical College, a college which you visited in 
Bismarck, and also Crownpoint in New Mexico is something I 
certainly do not support.
    The cuts in funding in a number of areas. Payments in Lieu 
of Taxes, for example, I think is difficult and troublesome. 
There are just a number of areas I think that we need to work 
through.
    I do not understand this historic preservation fund called 
Preserve America. You are cutting heritage area funding. You 
are cutting Save America's Treasures funding, and then to 
create a new essentially non-Federal program with Federal money 
to accomplish the same goals. My guess is, my hope is that we 
will strike that as we did last year.
    We want the Agency to do well. I notice in your testimony 
you anticipate opening ANWR to drilling. Let me just make an 
observation about that. Every 25 years or so we go through this 
angst about an energy plan and our response to it is to dig and 
drill. So every 25 years, we will select some other pristine 
spot and drill there and dig someplace else, and we will not 
have enhanced our country's energy future at all. We need to 
move to a different construct for energy.
    But I think, as you know, the issue of drilling in ANWR is 
controversial. I respect those who support drilling in ANWR, 
but I personally think all that does is just repeats the same 
old, tired arguments that we do every 25 years that never 
actually makes America less vulnerable. We are more vulnerable 
than ever. Now 60 percent of our oil comes from off our shores, 
much of it from troubled parts of the world. The solution is 
not to drill in ANWR. The solution is to go to a hydrogen fuel 
cell economy and stop running gasoline through carburetors. The 
President has taken a baby step in that direction which I 
support. I would support a much more aggressive and bold step.
    There is a lot in this budget to chew on, as the chairman 
indicated. We want to work with you. We want the Department of 
the Interior to do well, to function effectively and 
efficiently. I hope that perhaps we can spend a little time 
talking about our trust responsibility with respect to Indian 
education as well at this hearing.
    But as the chairman indicated, we are going to have 
probably an abbreviated hearing because of a markup going on in 
the Commerce Committee.
    But, Madam Secretary, you have been doing this now for some 
long while. We are glad you are back with us and look forward 
to talking to you about these issues. Ms. Scarlett, and is it 
Mr. Trezise?
    Mr. Trezise. Yes.
    Senator Dorgan. Thank you for being with us as well.
    Senator Burns. Thank you very much.
    Senator Leahy.

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Mr. Chairman, I will have questions. I could 
not help but think when Senator Dorgan was talking about 
opening up the Arctic Refuge, they are assuming $2.4 billion 
from lease sales. I will be interested in hearing how much you 
are going to sell it for. We did a quick calculation. To make 
that, you would have to be selling these leases for around 
$4,000 to $6,000 an acre on the North Slope. I think they have 
averaged around $50 per acre. So I will ask the specific 
question just how you reach that amount.
    Also I will have questions on the fisheries budget because 
I notice that, notwithstanding a very clear congressional 
requirement, you have cut back very considerably from what the 
Republicans and Democrats on this committee and the Congress 
had voted for. But I will hold those for the questions, Mr. 
Chairman.
    Senator Burns. Thank you, Senator Leahy.
    Madam Secretary, we look forward to hearing your statement 
and, once again, welcome to the subcommittee.

                SUMMARY STATEMENT OF HON. GALE A. NORTON

    Secretary Norton. Thank you very much, Mr. Chairman and 
members of the committee. I am happy to be here this morning 
along with Lynn Scarlett who is our Assistant Secretary for 
Policy, Management and Budget and our nominee for Deputy 
Secretary, as well as John Trezise who heads our budget 
operations.

                           COBELL LITIGATION

    Before highlighting our priorities, I would like to provide 
some information about the Cobell litigation. We received a 
ruling on February 23 from Judge Royce Lamberth. He 
reinstituted the injunction that he issued in September 2003. 
It ordered the Department of the Interior to perform an 
expansive accounting of individual Indian trust accounts and 
assets. This order requires us to go back to 1887 to verify 
every single transaction that has taken place since that time. 
This undertaking involves finding and indexing millions of 
canceled checks, invoices, leases, ledgers, and other 
documents. It is the equivalent of going back to your great 
grandfather's financial accounts and trying to find every piece 
of paper that underlies those transactions.
    Many of the necessary documents are currently housed in 
Federal archive facilities. Many other records are held by 
those who have leased Indian lands like oil and gas companies, 
timber companies, farmers, and ranchers. The judge has ordered 
us to develop a plan for subpoenaing these records from the 
private sector.
    Other records are held by Indian tribes or individual 
Indians. These records will presumably also need to be 
acquired.
    We would need to index and electronically image these 
documents so they can be effectively used by the accountants. 
The Department has estimated that the total cost of this 
accounting work would be $10 billion to $12 billion. That 
includes no payments to anyone. That is just purely for the 
accounting work. To put that in perspective, the entire annual 
budget for the Bureau of Indian Affairs is $2.2 billion. Though 
our budget contains an increase to carry out the Department's 
plan for historical accounting, the Department's budget was 
obviously not constructed to address these requirements for 
2005 or 2006.
    As you may recall, the September 2003 order from Judge 
Lamberth was stayed by the Court of Appeals and by a 
congressional appropriations rider. The Court of Appeals later 
held that the congressional action invalidated Judge Lamberth's 
2003 order, but it declined to address the underlying merits of 
Judge Lamberth's order.
    We are working with the Department of Justice on the 
courses of action that are available to us. It is my 
understanding that we have filed a motion for stay with the 
Court of Appeals.

               TRUST MANAGEMENT AND HISTORICAL ACCOUNTING

    Our efforts to improve trust management and to do 
historical accounting have necessarily been a high priority. We 
have a chart that shows the Department's combined 
appropriations for the Bureau of Indian Affairs and the Office 
of Special Trustee which have increased 8 percent during our 
term, compared to 2 percent growth in the Department's overall 
budget. Within these agencies, programs directly related to 
trust have increased by 97 percent.
    The chart we have here shows that the unified trust budget 
is now 24 percent of the combined spending in Indian country, 
as compared to 1996 when it was 9 percent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The 2006 budget proposes $591 million for Indian trust 
management. Interior is aggressively pursuing historical 
accounting activities. Our results to date indicate that there 
are differences involving both overpayments and underpayments, 
but they tend to be infrequent and small. A net of about $1.5 
million in differences has been found, involving a throughput 
of over $15 billion, which includes both tribal and individual 
funds. That is considerably less than the amount of funding we 
have spent to identify those discrepancies.
    There is a vast gap between our findings in looking at the 
historical accounting and our legal positions about what types 
of accounts and how far back in history we should go, compared 
to the plaintiffs' allegations that we owe $176 billion. The 
vast difference has made ordinary settlement elusive.
    The litigation focuses to a large degree on what 
instructions Congress gave Interior in the 1994 Indian Trust 
Fund Management Reform Act and earlier statutes. This situation 
perhaps presents an historic opportunity to address this 
problem by fixing some longstanding problems in Indian country 
like fractionated land ownership that hampers economic 
development. We perhaps have the opportunity to modernize 
antiquated arrangements that cause us to spend over $100 to 
manage an account with 50 cents or spend an average of $5,000 
per probate for probate accounts with as little as 11 cents.
    I am pleased that Chairmen McCain and Pombo are making this 
a high priority and I hope that the appropriators will also 
continue their interest so that we can reach a bipartisan 
solution.

                            BUDGET OVERVIEW

    Beyond Indian trust responsibilities, Interior's mission is 
multi-faceted and complex. Our overall 2006 request for 
programs is slightly less than 1 percent below the 2005 level. 
Our proposed budget continues the funding provided for park 
operations in 2005 and funds fixed costs. At the level proposed 
in our 2006 budget, park operations funding will be 25 percent 
higher than in 2001.

               HISTORIC PRESERVATION AND HERITAGE TOURISM

    In addition to enjoying outdoor recreation on public lands, 
more and more Americans are visiting historical and cultural 
sites. The National Park Service offers several programs that 
focus on historic preservation and heritage tourism. The 2006 
budget contains $66 million for historic preservation and 
heritage tourism including $12.5 million for Preserve America. 
Initiated by the President and First Lady, Preserve America 
recognizes community efforts to develop sustainable uses for 
their sites and to develop economic and educational 
opportunities related to heritage tourism. To date, over 200 
communities in 34 States have been designated as Preserve 
America communities.

                           ENERGY DEVELOPMENT

    Interior is one of the few Federal agencies that takes in 
more money than it spends. The key generator of revenue is 
responsible energy development. In 2006, Interior will help 
meet America's energy needs by providing appropriate access for 
exploration and development on Federal lands and portions of 
the Outer Continental Shelf, expediting permitting and rights-
of-way processing and encouraging development and use of clean, 
renewable energy. The 2006 budget provides $530 million for 
energy programs through appropriations and user fees, an 
increase of $22 million.
    The budget assumes enactment of legislation to open the 
1002 area of the coastal plain in the Arctic National Wildlife 
Refuge to oil and gas exploration and development. The U.S. 
Geological Survey estimates that the entire ANWR assessment 
area contains a mean of 10.4 billion barrels of technically 
recoverable oil. That is a very significant amount.
    We have a chart that shows the estimate for the ANWR area 
in comparison with other onshore areas. The ANWR area is the 
column that is furthest to the left. It is far larger than any 
of the other areas, and yet the geographic area is far, far 
smaller. The potential daily production from this area alone is 
larger than the current daily onshore oil production of any 
other State. The currently available estimates project that 
$2.4 billion in revenue will come from the first bonus bid 
lease sale in 2007. The Congressional Budget Office recently 
did its own calculations and estimated that sales would produce 
bonus bids of $5 billion between 2007 and 2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               USER FEES

    Consistent with the Government's policy to charge for 
Government services where the direct beneficiaries can be 
identified, the 2006 budget for the Minerals Management Service 
includes $19 million in new fees charged to offshore energy 
producers.
    The Bureau of Land Management will also increase its fees 
to energy companies for onshore permit processing from $2 
million in 2005 to $11 million in 2006. The proposed BLM energy 
budget would enable them to reduce the backlog of applications 
for permits to drill pending over 60 days from nearly 1,700 to 
120 by the end of 2006.

                        COOPERATIVE CONSERVATION

    Protecting wildlife and habitat is one of Interior's most 
important functions. Over the past 4 years, Interior has 
promoted cooperative conservation by joining with citizen 
stewards to conserve open space, restore habitat for wildlife, 
and protect endangered and at-risk species. We are supporting 
these conservation efforts through grant and cost-sharing 
programs that emphasize local initiatives and partnerships. 
From 2002 through 2005, our conservation partnership programs 
have provided $1.7 billion for conservation investments, and 
that is shown on this chart. As you can see, we have 
significantly increased the grant programs for conservation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the first 3 years of President Bush's administration, 
for example, we restored, protected, or enhanced over 1.4 
million acres of prairie and upland habitat through just two of 
these conservation programs: our Partners for Fish and Wildlife 
program and our Coastal program.
    The 2006 budget includes $379 million for cooperative 
conservation grant and challenge cost-share programs. These 
grant programs help us protect wildlife and habitat alongside 
productive farming and ranching. They support conservation 
efforts that help avoid the need to list species as endangered 
or find cooperative ways to recover endangered species.

                    ABANDONED MINE LAND RECLAMATION

    The Department of the Interior also does restoration work 
to reclaim abandoned mine lands. Today more than 3 million 
Americans still live less than 1 mile from dangerous abandoned 
coal mines. We want to work with Congress to update the Surface 
Mining Act. Our 2006 budget facilitates congressional action by 
providing money to expedite cleanup of high priority sites, but 
also providing $58 million to fairly address longstanding 
commitments to States and tribes that have already achieved 
their reclamation goals. The administration's approach would 
remove risk to 140,000 people annually.

                             WILDLAND FIRE

    Interior is also reducing risks to communities adjacent to 
public forests and rangelands that face potential for 
catastrophic wildfires. Through the President's Healthy Forests 
Initiative and the bipartisan Healthy Forests Restoration Act, 
we are reducing hazardous fuels, thinning trees and brush, and 
removing dead wood and invasive plants. Over the past 4 years, 
together with the Forest Service, we have thinned about 12 
million acres of public lands. The 2006 budget provides an 
increase of $10 million for hazardous fuel reduction projects. 
Working with the Forest Service, we expect to complete more 
than 4 million acres of projects in 2006.

                        STEWARDSHIP CONTRACTING

    Stewardship contracting provides a new kind of partnership 
enabling those working with us to retain wood products in 
exchange for the service of thinning trees, underbrush, and 
other vegetation. This public/private partnership helps us 
expand our ability to address hazardous fuels.

                                SCIENCE

    Science is a foundation for the Department's land 
management decisions, supporting all of our activities. The 
U.S. Geological Survey budget includes an increase of $20 
million in land remote sensing to continue to collect and 
archive satellite imagery of the United States. The 2006 budget 
proposes $5 million for the USGS to work in partnership with 
the National Oceanic and Atmospheric Administration to enhance 
our tsunami early warning system to protect U.S. coastal 
residents in the States and territories.

                         MANAGEMENT EXCELLENCE

    I want to conclude my discussion by briefly addressing our 
efforts to manage Interior more effectively and efficiently. 
Behind all of our programs, out of the limelight, rests a 
management foundation through which we strive to improve 
program efficiency. The Financial Business and Management 
System will integrate financial management, procurement, 
property management, and other systems. Today we have over 120 
different property databases and 26 different financial 
management systems. Our managers often operate with dozens of 
different information management systems, each needing 
different passwords and training. The 2006 budget includes $24 
million for the new system, an increase of $10 million. 
Ultimately we anticipate being able to eliminate some 80 
different information systems, saving us time and money. 
Through this and other innovations, our bureaus work hard to 
achieve management excellence.

                           PREPARED STATEMENT

    Our 2006 budget supports our vision of healthy lands and 
waters, thriving communities, and dynamic economies. We look 
forward to working with Congress to advance these goals. Thank 
you.
    [The statement follows:]

               Prepared Statement of Hon. Gale A. Norton

    Good morning. I am pleased to be here to discuss the fiscal year 
2006 budget for the Department of the Interior. I appreciate the 
opportunity to highlight our priorities and key goals.
    The Department of the Interior's mission is complex and 
multifaceted. Our 70,000 employees contribute to the Nation's 
environmental quality, economic vitality, and the well being of 
communities. Our mission encompasses resource protection, resource use, 
recreation, and scientific, educational, and other services to 
communities.
    The Department's geographically dispersed responsibilities are 
inspiring and sometimes challenging. Through our programs, we have 
close connections to America's lands and people. We protect some of the 
Nation's most significant cultural, historic, and natural places. We 
provide access to resources to help meet the Nation's energy and water 
needs, while protecting natural and cultural resources. We provide 
recreation opportunities to over 477 million people annually on our 
parks, refuges, and other public lands. We serve communities through 
science, wildland firefighting, and law enforcement. We fulfill trust 
and other responsibilities to American Indians, Alaska natives, and the 
Nation's affiliated island communities.
    Four principles shape our 2006 budget. First is the power of 
partnerships to leverage resources and achieve results. Second is the 
imperative of fiscal constraint to maintain a dynamic economic context. 
Third is an emphasis on investments that will help Interior work 
smarter, more efficiently, and more effectively. Fourth is the 
importance of funding activities and programs linked to core 
Departmental responsibilities.

                            BUDGET OVERVIEW

    Performance lies at the center of the President's 2006 budget 
request. The President's proposal also demonstrates the fiscal 
restraint necessary to halve the deficit by 2009 and maintain the 
Nation's dynamic economy.
    The 2006 budget request for current appropriations is $10.8 
billion. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress will 
provide an additional $4.2 billion, for a total 2006 Interior budget of 
$15 billion.
    For programs funded by this Subcommittee, the 2006 request includes 
$9.8 billion, a decrease of $69.7 million, or 0.7 percent below the 
2005 level. Excluding contingent emergency fire funding provided in 
2005, the 2006 request is an increase of $28.9 million or 0.3 percent 
over 2005.
    The budget projects receipts collected by the Department in 2006 to 
be $13.8 billion, an increase of $914 million and equivalent to 141 
percent of the Department's current appropriations request to this 
Subcommittee.
    Interior manages over 500 million acres and some 40,000 facilities 
at 2,400 locations. These responsibilities engage Interior as a 
principal manager of real property and other assets that require 
ongoing maintenance, direct services to public lands visitors, and 
ongoing activities to ensure public access, use, and enjoyment. As a 
result, a key goal of the Department's 2006 budget is to fund pay 
increases and other nondiscretionary cost increases for health 
benefits, workers and unemployment compensation payments, rental 
payments for leased space, and operation of centralized administrative 
and business systems. Providing for these costs will allow the 
Department to maintain basic services while continuing to improve 
efficiency and effectiveness to better serve the public.
    The budget includes $158.6 million for nondiscretionary, fixed-cost 
increases. Of this total, nearly three-quarters, or $115.7 million, 
funds higher pay costs. The budget assumes a January 2006 pay increase 
of 2.3 percent.
    Our budget also includes a number of key initiatives that will help 
us achieve our goals. Key activities include our efforts to:
  --Pursue responsible energy development;
  --Expand opportunities for cooperative conservation;
  --Enhance recreation opportunities on Interior lands;
  --Increase forest and rangeland health;
  --Continue the clean up of abandoned mine lands;
  --Advance trust reform; and
  --Reduce risks resulting from natural disasters.
    In his February 2 State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the 2006 budget. The budget savings and reforms in the 
budget are important components of achieving the President's goal of 
cutting the budget deficit in half by 2009 and we urge the Congress to 
support these reforms. The 2006 budget includes more than 150 
reductions, reforms, and terminations in non-defense discretionary 
programs, of which four involve Interior programs. The Department wants 
to work with the Congress to achieve these savings.

                           ENERGY DEVELOPMENT

    ANWR Exploration and Development.--Our 2006 budget continues our 
quest to achieve healthy lands and water, thriving communities, and a 
dynamic economy. Predictable, readily available supplies of energy at 
reasonable costs underlie both community well-being and economic 
action.
    In 2006, with Congress' assistance, Interior will help meet energy 
needs by providing appropriate access for exploration and development 
of the coastal plain of the Arctic National Wildlife Refuge and 
portions of the Outer Continental Shelf; expediting permitting and 
rights-of-way processing; and encouraging development and use of clean, 
renewable energy.
    Interior's 2006 budget provides $530 million for energy programs 
through annual appropriations and user fees, an increase of $22 
million.
    The budget assumes enactment of legislation to open a portion of 
the coastal plain in the ANWR to oil and gas exploration and 
development, with the first lease sale planned for 2007. The U.S. 
Geological Survey estimates that a mean expected volume of 10.4 billion 
barrels of technically recoverable oil can be expected if Congress 
lifts the ban on development in ANWR. At peak production, daily 
production from this area could be larger than the current daily 
onshore oil production of Texas.
    The budget assumes the first ANWR lease sale would produce an 
estimated $2.4 billion in bonus bids in 2007, the same estimate we have 
used for several years. It is based on conservative assumptions. The 
Congressional Budget Office recently estimated the first lease sale 
would produce bonus bids of $4 billion.
    ANWR exploration and development would occur within a 1.5 million-
acre area of the 19 million-acre refuge. Actual energy development 
would occur on no more than 2,000 acres, or one-hundredth of one 
percent of the refuge. Through increased knowledge, experience, and 
technological advances, the footprint of energy development will be 
dramatically reduced from older development sites on the North Slope. 
For example, use of seasonal ice pads for exploration will limit site 
disturbance, and extended-reach drilling will reduce the number of 
sites by allowing development of over 50 square miles of subsurface 
resources from one single point on the surface.
    The budget includes $1.6 billion for resource use to better meet 
the increasing demands for water resources, to carry out the National 
Energy Policy, and to maintain appropriate access to other resources on 
public lands. Key initiatives include:
    Minerals Management Service.--The 2006 budget proposes $290 million 
for MMS, a $12.6 million increase over 2005. This total includes a 
request for $167.4 million in annual appropriations and $122.7 million 
in offsetting collections. The proposed budget will enhance services 
and programs that protect the environment and offshore workers. It will 
also enhance methods to collect, account for, and disburse revenue from 
Federal and American Indian lands. The $12.6 million net increase 
compared to 2005 includes a $19.0 million increase in offsetting 
collections and a $6.4 million decrease in annual appropriations.
    BLM Oil and Gas Processing.--The 2006 budget will increase the 
Bureau of Land Management energy and minerals program from an estimated 
2005 funding level of $108.5 million in appropriations and user fees to 
a 2006 funding level of approximately $117.6 million. This net increase 
will enable BLM to accelerate the processing time for applications-for-
permits-to-drill and reduce the permit application backlog pending for 
over 60 days from 1,681 to 120 by the end of 2006.

                          RESOURCE PROTECTION

    The 2006 budget calls for $2.6 billion for resource protection 
programs that improve the health of landscapes and watersheds, sustain 
biological communities, and protect cultural and natural heritage 
resources. In August 2004, President Bush signed an Executive Order on 
Cooperative Conservation requesting that agencies strengthen efforts to 
work cooperatively with States, Tribes, local governments, and others 
to achieve conservation goals.
    Over the past four years, the Interior Department has encouraged 
cooperative conservation through various grant programs, administrative 
actions, and policies. These efforts emphasize innovation, local 
action, and private stewardship. They achieve conservation goals while 
maintaining private and local land ownership. They foster species 
protection through land management and cooperative, on-the-ground 
habitat improvements, complementing traditional funding of ESA 
regulatory programs.
    Key initiatives in resource protection include:
    Cooperative Conservation Programs.--Through partnerships, Interior 
works with landowners and others to achieve conservation goals across 
the Nation and to benefit America's national parks, wildlife refuges, 
and other public lands. The 2006 budget includes $381.3 million for the 
Department's cooperative conservation programs. These programs leverage 
limited Federal funding, typically providing a non-Federal match of 50 
percent or more. They provide a foundation for cooperative efforts to 
protect endangered and at-risk species; engage local communities, 
organizations, and citizens in conservation; foster innovation; and 
achieve conservation goals while maintaining working landscapes.
    Our budget proposes funding for the Landowner Incentive and Private 
Stewardship programs at a total of $50.0 million, an increase of $21.4 
million from 2005. Through these programs, our agencies work with 
States, Tribes, communities, and landowners to provide incentives to 
conserve sensitive habitats in concert with traditional land management 
practices such as farming and ranching, thus maintaining the social and 
economic fabric of local communities.
    Our budget proposes to fund challenge cost-share programs in BLM, 
FWS and NPS at $44.8 million. These cost-share programs better enable 
Interior's land management agencies to work together and with adjacent 
communities, landowners, and other citizens to achieve common 
conservation goals. The 2006 proposal represents an increase of $25.7 
million.
    The challenge cost-share program includes $21.5 million for 
projects that are targeted to natural resource conservation. In 2004, 
the Congress provided $21.2 million for these cost-share grants. 
Leveraged with matching funds this provided a total of $52 million for 
on-the-ground projects including more than $19 million for projects to 
eradicate and control invasives and weeds.
    For example, in New Mexico, the Bosque del Apache refuge is working 
with the local community to restore riparian habitat along the Rio 
Grande River by eliminating tamarisk on over 1,100 acres.
    We also propose level or increased funding for a suite of other FWS 
cooperative programs: the Partners for Fish and Wildlife program, the 
Coastal program, the Migratory Bird Joint Ventures program, the North 
American Wetlands Conservation Fund, the State and Tribal Wildlife 
grants program, and the Cooperative Endangered Species Conservation 
Fund. These programs support a cooperative approach to conservation 
that emphasizes voluntary partnerships with private landowners, local 
governments, Tribes, and community organizations.
    Sustaining Biological Communities.--Targeted increases in FWS and 
BLM will focus new resources on the recovery of endangered, threatened, 
and at-risk species and increase interagency efforts to curtail harmful 
invasive species. We propose a programmatic increase of $1.9 million 
for general activities in the Fish and Wildlife Service ESA recovery 
program and $7.0 million in BLM to strengthen and expand efforts to 
conserve and restore sagebrush habitat to maintain sage-grouse 
populations. An increase of $2.3 million in FWS, BLM, and USGS will 
support invasive species work on an eco-regional basis.
    Klamath River Basin.--The 2006 budget commits $62.9 million toward 
finding long-term solutions to water issues in the Klamath Basin and 
proposes an 8.4 percent increase for Interior Department programs in 
the basin. In the short-term, water-supply shortages will continue to 
present challenges. As of mid-February, the snow pack in the upper 
Klamath River basin was 47 percent below average. With depleted 
groundwater supplies and expected continued drought conditions, the 
risks to endangered and threatened fish in the basin persist. We also 
anticipate impacts to the people and communities dependent on the 
river, including upper basin irrigators and downstream Indian and 
commercial fishermen.
    The Bureau of Reclamation is currently putting together a water 
bank of over 100,000 acre-feet to help meet water needs this calendar 
year for coho salmon. Efforts are also underway to recover listed 
species and improve conditions by restoring the water-retention 
capability of the riparian and adjacent habitat. The budget request 
includes $7.5 million for the FWS Partners for Fish and Wildlife 
program for these efforts; $6.0 million for land acquisition to acquire 
the Barnes Tract, which will provide nursery and other habitat for the 
endangered fish and increase water in Upper Klamath Lake in most years; 
and $1.2 million to fund pumping necessitated by the removal of 
Chiloquin Dam, which will improve fish migration and spawning. To move 
this project forward, a reprogramming letter proposing to construct the 
replacement water system for Chiloquin Dam will be submitted to the 
Subcommittee soon.
    Finally, the budget request includes $500,000 for a FWS prototype 
program to acquire and transfer water rights to the wetlands in the 
Klamath Basin refuges. These key wetlands on the Pacific Flyway depend 
entirely on return flows from the Klamath Irrigation Project. The 
wetlands need a reliable source of clean water as a hedge against 
droughts and to provide a base amount of water to which the return 
flows can be added.
    Everglades Restoration.--Within the 2006 request for NPS 
construction is $25 million for the Modified Water Deliveries Project, 
a key to restoring natural flows in the Everglades. Under a new 
agreement between the Department and the Corps of Engineers, the cost 
to complete the project will be shared by NPS and the Corps. The 2006 
budget for the Corps includes $35.0 million for the Mod Water project. 
Over the period 2007 to 2009, the Corps will contribute an estimated 
additional $88.0 million and the NPS an additional $41.0 million. The 
2006 NPS contribution consists of $8.0 million in new funding and $17.0 
million redirected from unobligated balances for Everglades land 
acquisition not currently needed for high-priority acquisitions.
    Abandoned Mine Lands.--Today, more than 3 million Americans live 
less than 1 mile from dangerous abandoned coalmines. Consistent with 
the Administration's 2005 reauthorization proposal for the 1977 Surface 
Mining Control and Reclamation Act, the 2006 budget supports the 
Administration's vision to reauthorize the AML program. The 
Administration's approach would remove risk to 140,000 people annually.
    Our budget provides $147.5 million in AML grants to expedite clean 
up of high-priority sites and another $58.0 million in AML grants to 
fairly address long-standing commitments to States and Tribes that have 
already achieved their reclamation goals. Under the funding formulas in 
the 1977 Act, AML funding is increasingly directed to States with 
significant coal production, but few, if any, abandoned mines. The 
Administration's approach would direct new AML funding to reclaim 
unhealthy and unsafe abandoned mines and provide to States that have 
already completed mine reclamation repayment of their statutory share 
of AML fees collected under the 1977 law.

                  RECREATION AND HISTORIC PRESERVATION

    Lands and waters managed by Interior offer unparalleled outdoor 
recreational opportunities. The bureaus of Land Management, 
Reclamation, Fish and Wildlife Service, and the National Park Service 
manage an inspiring and diverse collection of natural wonders. For 
example, in 2003 our National Wildlife Refuges attracted 2.2 million 
hunting visits and 6.6 million fishing visits. The FWS looks for 
opportunities to add new or expand existing public hunting and fishing 
programs. There are currently 308 national wildlife refuges that are 
open to hunting and 270 refuges that are open to sport fishing.
    Overall, the budget includes $1.3 billion in investments for 
recreation programs that will improve visitor services and access to 
recreation opportunities.
    This total includes an increase of $33 million to respond to 
growing demands for recreational activities on public lands, to provide 
a safer environment for refuge visitors, and to ensure continuous 
enhancements to visitor services at parks. In addition, the budget 
provides $82 million in the operating accounts of BLM, FWS, and NPS to 
cover increased pay and other fixed costs and maintain existing 
performance and service levels to the public.
    The Federal Lands Enhancement Recreation Act.--Passed by the 108th 
Congress and signed into law by the President on December 8, 2004, the 
Federal Lands Recreation Enhancement Act will enable Interior land 
management agencies to improve recreation and visitor amenities on 
public lands. The Act provides a 10-year extension of the recreation 
fee program piloted with the Recreation Fee Demonstration program. The 
Act establishes important parameters for the program to ensure that 
fees are charged only in appropriate locations and revenues are 
appropriately spent on infrastructure and services that directly 
benefit the public.
    The Department is working closely with the U.S. Department of 
Agriculture on key implementation issues, such as development of long-
term, multi-agency fee guidance, and the creation of the new ``America 
the Beautiful Pass,'' which will cover entrance and standard amenity 
fees for the five agencies authorized under the Act. The Departments 
are committed to creating a dynamic program responsive to the public 
and Congress during the implementation process.
    In 2006, the Department will continue to transition from the 
Recreational Demonstration Program to the provisions of the new Act. 
Working with the Congress, the Department has established a set of 
principles to guide the program during the transition period. 
Specifically:
  --No new fee areas will be created.
  --Agencies will conduct an interim evaluation of existing fee sites 
        based on the new criteria and prohibitions.
  --The Golden Eagle, Golden Age, and Golden Access Passes, and the 
        National Park Pass will continue to be sold until the America 
        the Beautiful Pass is available.
  --Existing Golden Eagle, Golden Age, and Golden Access passes and 
        National Park passes will be ``grandfathered in'' under their 
        existing benefits and will remain valid until expired.
  --Specific site, forest and regional passes, such as southern 
        California's Forest Service Adventure Pass, will continue to be 
        available.
    The Act includes criteria and directions that address issues raised 
by the public and members of Congress regarding recreation fees. For 
example, the Act prohibits fees for BLM and the Forest Service for 
general access to national forests and grasslands, access to overlooks 
and scenic pullouts, and areas with low or no expenditures for 
facilities or services. The use of Recreation Resource Advisory 
Committees required by the Act will ensure public input on decisions 
about expanding the fee program by providing the public and local 
communities an opportunity to make recommendations to the BLM or the 
Forest Service on specific recreation fee sites and fees. Public notice 
and participation provisions will guide the Department's efforts to 
conduct a program that is accountable and transparent. Under the Act, 
the vast majority of recreation sites will continue to be free.
    Park Maintenance Backlog.--Through President Bush's commitment to 
address the maintenance backlog in parks, over the past four years more 
than 4,000 projects were undertaken to maintain, repair or replace park 
facilities. The 2006 budget includes $716.6 million for construction 
and park facility maintenance, an increase of $29.0 million. Included 
within the increase are an additional $22.2 million for NPS 
construction and $3.4 million in the repair and rehabilitation program 
to repair high-priority historic buildings. Including funds in the 
President's proposal for reauthorization of the Transportation Equity 
Act for the 21st Century, total NPS deferred maintenance funding will 
exceed $1.1 billion in 2006. The 2006 request will bring funding for 
park maintenance over five years to $4.9 billion, as pledged by then-
Governor Bush in 2000.
    Preserving Cultural Landscapes.--More and more Americans are 
visiting historic and cultural sites across the Nation. In 2002, 81 
percent of adults in the United States included at least one cultural, 
historic, or heritage activity in their vacation plans. Linking 
historic preservation to educational and economic opportunities ensures 
sustained commitment to those places that bring alive our nation's 
cultures and history.
    Through its Preserve America initiative, the Administration is 
recognizing and encouraging heritage tourism as a significant economic 
development and educational activity. Over 220 localities have been 
designated Preserve America Communities, serving as a focus for civic 
pride and a catalyst for preservation. The Administration proposes 
$12.5 million in competitive grants to encourage community preservation 
of our cultural, historic, and natural heritage through education and 
heritage tourism.
    Overall, the budget proposes $66.2 million for the Historic 
Preservation Fund, which includes funding for Preserve America, as well 
as $15.0 million for Save America's Treasures, and $38.7 million for 
grants to States and Tribes. The budget includes an additional $5.0 
million for National Heritage Areas.

                          SERVING COMMUNITIES

    With its broad-ranging responsibilities, Interior's activities 
touch the lives of all Americans. For example:
  --Interior's U.S. Geological Survey, the nation's premier earth 
        sciences agency, generates scientific information that helps 
        inform decisions about land and water management. Its hazards 
        monitoring helps reduce risks to communities associated with 
        earthquakes, tsunamis, floods, mudslides, and volcanoes.
  --Through performing its responsibilities to Native Americans, Alaska 
        natives, and other communities, Interior helps educate children 
        and enhance the economic well being of these communities.
  --Interior's implementation of the President's Healthy Forests 
        Initiative and the Healthy Forests Restoration Act is enhancing 
        forest and rangeland health and reducing risks to communities 
        from catastrophic fires.
    Interior's budget includes $5.1 billion to serve communities by 
improving Indian trust management and services to Tribes and individual 
Indians; providing resources for Indian education and other social 
services, advancing the Healthy Forests Initiative and related wildland 
fire activities; strengthening law enforcement; and enhancing 
scientific and hazards warning information for our agencies and the 
public. Key initiatives include:
    Trust Programs.--The budget provides $591.4 million to continue the 
Department's ongoing efforts to reform management of its fiduciary 
obligations to Tribes and individual Indians, to continue historical 
accounting efforts for trust funds, and to reduce the exponentially 
growing costs of maintaining fractionated interests of Indian lands. 
Within this total, the President's budget proposes to increase funding 
for historical accounting from $57.2 million to $135.0 million. An 
increase of $9.6 million would strengthen efforts to address the 
current backlog of unresolved probate cases.
    On February 23, the Cobell court issued an order reinstating the 
historic accounting structural injunction previously issued on 
September 23, 2003, directing the Department to conduct a far more 
expansive accounting and requiring that it be completed under even more 
constrained time lines than the Department had planned. Preliminary 
estimates developed by the Department estimate the costs to comply with 
the order at between $10 to $12 billion. The new injunction requires 
extensive work beyond what is currently budgeted in 2005 or proposed in 
2006 to be completed by January 6, 2006. In addition to the completion 
of accounting for all judgment and per capita accounts back to 1887 and 
the completion of the accounting for all transactions in land-based 
accounts back to 1985, the court order directs the indexing of all 
trust-related records located at federal facilities in Albuquerque, New 
Mexico, and Lee's Summit, Missouri, the collection of all relevant 
trust records held by third parties, the systems tests related to 
electronic data gaps, and the systems conversion from the Integrated 
Records Management System to the Trust Funds Accounting System. The 
Department's budget for 2005 or 2006 is not constructed to address 
these requirements. The Department is in continuing discussion with the 
Department of Justice on the course of action available to the 
Department.
    BIA Detention Centers.--The budget includes increases of $16.7 
million for detention centers in Indian country. Of the total, $7.3 
million will support detention operations at four new centers currently 
under construction with Department of Justice funding and for facility 
operations and maintenance at 19 detention centers built with DOJ 
grants since 2001. The balance of the increase addresses substandard 
facility conditions in older BIA detention facilities highlighted in a 
recent report by Interior's Inspector General. The budget for detention 
center improvement and repair will nearly double, with an additional 
$4.4 million. An increase of $5.0 million will support contracts to 
place arrested and convicted persons in non-BIA detention facilities 
that meet national standards when adequate BIA facilities are 
unavailable.
    Indian Education.--To complement BIA efforts to implement the No 
Child Left Behind Act, the 2006 budget proposes $2.0 million to pilot 
leadership academies at four BIA schools. Leadership academies in 
public school systems have been successful in raising the academic 
performance of school children and motivating them to continue their 
education.
    To continue improving facility conditions at BIA schools, the 
budget includes $173.9 million for education construction. This amount 
will fund replacement of the Porcupine Day School in South Dakota and 
the first replacement phase of the Crownpoint Community School in New 
Mexico. It will also fund four major facilities improvement and repair 
projects. In order to allow focus on the 34 school replacement projects 
funded in prior years that are in design phases or under construction, 
the education construction budget reflects a reduction of $89.5 million 
from 2005.
    Healthy Forests.--The 2006 budget supports the President's Healthy 
Forests Initiative with a $211.2 million budget for hazardous fuels 
reduction in the wildland fire program, a net increase of $9.8 million 
over the 2005 enacted level. The hazardous fuels budget includes a 
program increase of $10.3 million for fuels projects, partially offset 
by a scheduled $2.5 million reduction in funding for development of the 
LANDFIRE vegetative mapping and imaging system.
    Funding in the wildland fire program, together with funds for 
forest and range improvement in the land management agencies and the 
Bureau of Indian Affairs, will provide approximately $313.0 million in 
2006 to reduce the build-up of hazardous fuels in the Nation's forests 
and rangelands, reduce the risk of catastrophic fire to communities, 
protect threatened and endangered species, and support other activities 
under the Healthy Forest Restoration Act of 2003.
    Wildland Fire.--In addition to funding additional hazardous fuels 
reduction projects, the 2006 wildland fire budget includes increases of 
$15.7 million to fund suppression operations at the 10-year average and 
$5.0 million to maintain the 2004 aviation fleet reconfiguration. In 
total, the 2006 budget for wildland fire management is $756.6 million, 
a net increase of $23.9 million over 2005, not including $98.6 million 
in 2005 contingent emergency funding.
    Rural Fire Assistance.--The 2006 budget for Wildland Fire continues 
partnerships with local fire departments, proposing an increase in the 
Preparedness program to provide advance training to local fire fighters 
to help build a ready reserve of local firefighters that can support 
extended attack and thereby improve the effectiveness of Federal 
cooperation with local firefighting agencies. Rural fire assistance 
grants, which provided funds to local fire departments for equipment 
and basic training, are eliminated as a separate funding source in 
anticipation that equipment and training needs of local fire 
departments will be met through the much larger Forest Service and FEMA 
fire assistance programs.
    Tsunami Warning System.--As part of a $37.5 million, two-year 
commitment by the Administration to expand U.S. tsunami detection and 
monitoring capabilities, the 2006 budget includes $5.4 million for USGS 
facilities and operations to provide more robust detection and 
notification of earthquakes that could trigger tsunamis. The President 
has submitted a 2005 budget supplemental request proposing $8.1 million 
for USGS to begin work on these enhancements. The balance of the 
funding for the tsunami warning system is in the National Oceanic and 
Atmospheric Administration's budget.
    Landsat.--The 2006 budget requests $7.5 million for USGS to begin 
work on an upgraded ground-processing system to acquire, process, 
archive, and distribute data from a new generation of satellite-based 
land image sensors. The first of two Landsat Data Continuity Mission 
sensors will be flown on a NOAA polar orbiting satellite scheduled for 
operation in 2009. To continue the 30-year unbroken record of data on 
the Earth's continental surface collected by the Landsat program, the 
budget also contains a $12 million increase to support continued 
operation of the Landsat 7 satellite in 2006 and to repay a planned 
reprogramming for 2005 Landsat 7 operations. Although Landsat 7 data 
remain valuable and usable, revenue from commercial sale of the data 
that normally supports the Landsat program has sharply decreased as a 
result of the failure of the satellite's scan line corrector.
    Payments in Lieu of Taxes.--PILT payments are made to local 
governments in lieu of tax payments on Federal lands within their 
boundaries and to supplement other Federal land receipts shared with 
local governments. The 2006 budget proposes $200.0 million for these 
payments. The 2006 request is 60 to 97 percent higher than the PILT 
payments during the 1990s, but is a reduction of $26.8 million from the 
record high 2005 payment level.

                  PROGRAM TERMINATIONS AND REDUCTIONS

    As part of the President's effort to halve the budget deficit by 
2009, the 2006 budget for the Department makes difficult choices to 
terminate or reduce funding for programs that are less central to the 
Department's core missions, have ambiguous goals, duplicate activities 
of other agencies, or require a lower level of effort because key goals 
have been achieved. Terminations and reductions include lower priority 
and one-time earmarks enacted in 2005. Other terminations and 
reductions include:
    LWCF State Grants.--The 2006 budget terminates funding for Land and 
Water Conservation Fund State grants, a reduction of $89.6 million from 
the 2005 level. LWCF State grants support State and local parks that 
have alternate sources of funding through State revenues and bonds. As 
the nation strives to trim the Federal deficit, focusing on core 
Federal agency responsibilities is imperative. A 2003 PART review found 
the program could not adequately measure performance. The 2006 budget 
continues funding for the administrative portion of the grant program 
at $1.6 million, which will be used to review the accountability and 
performance of grants provided in previous years.
    Jobs-in-the-Woods.--The budget proposes to discontinue BLM's Jobs-
in-the-Woods program, which was created in the early 1990s as a 
temporary program to assist displaced timber workers in the Pacific 
Northwest by offering resource-based job opportunities to improve water 
quality and restore Oregon's coastal salmon populations. As most 
workers have transitioned and timber sales are increasing, the budget 
proposes to focus resources on programmatic priorities, including 
offering the full allowable sale quantity under the Northwest Forest 
Plan and supporting the Plan's requirement that late-succession 
reserves be managed to stimulate old growth characteristics.
    USGS Minerals Resources Program.--The budget reduces funding for 
the USGS Minerals Resources program by $28.5 million. The budget 
continues funding for minerals surveys and studies relevant to ongoing 
Federal energy, land management, regulatory, and remediation 
activities. Funding is reduced for studies and information gathering 
for regional and local activities more oriented to the interests of 
States, local governments, and universities, all of whom are 
significant users of information generated by the Minerals Resources 
program.
    Johnson-O'Malley.--The budget includes a reduction of $8.8 million 
for the Johnson O'Malley grant program. These grants for Indian 
children attending public schools do not currently address a focused 
goal for academic achievement and duplicate similar funding made 
available by the Department of Education. The budget provides $7.8 
million for grants to continue the highest-priority components of this 
program.
    NPS Statutory and Contractual Aid.--The budget does not continue 
funding for $11.2 million in Statutory and Contractual Aid activities 
that are secondary to the primary mission of the National Park Service.

                          MANDATORY PROPOSALS

    Accompanying the 2006 budget are several legislative proposals that 
affect receipt or spending levels in 2006 or in future years. These 
proposals, which will be transmitted separately from the budget for 
consideration by the Congress, include:
    Southern Nevada Public Lands Management Act.--The budget proposes 
to amend the Southern Nevada Public Land Management Act of 1998 to 
return 70 percent of the receipts from land sales under the Act to the 
Treasury, where receipts from land sales have historically been 
deposited. The Act, as amended by Public Law 107-282, authorizes the 
disposal through sale of approximately 49,000 acres of federal land in 
Clark County, Nevada. Five percent of the proceeds are provided to the 
State of Nevada for use in the State's general education program and 10 
percent are provided to the Southern Nevada Water Authority for water 
treatment and transmission facility infrastructure in Clark County. The 
remaining 85 percent of funds are deposited in a special account to 
acquire environmentally sensitive lands in Nevada; make capital 
improvements to areas administered by NPS, FWS and BLM in Clark County; 
develop a multi-species habitat plan for Clark County; develop parks, 
trails and natural areas and implement other conservation initiatives 
in the county; and reimburse BLM for costs incurred in arranging sales 
and exchanges under the Act.
    The receipts generated by these land sales so far have been nearly 
eight times higher than anticipated, with future revenue projections of 
almost $1 billion per year. When SNPLMA was originally passed, proceeds 
from land sales under the bill were estimated at roughly $70 million 
per year. Sale proceeds were $530.5 million in 2004 and are estimated 
to be $1.2 billion in 2005.
    When the law was enacted, there was general agreement that a 
substantial portion of the revenues generated would be spent to acquire 
and conserve other lands around Nevada. However, as land sale receipts 
under the Act have increased in the last few years, the available 
funding has outpaced land acquisition needs. These funds are 
increasingly being dedicated to local projects--and many more projects 
than originally anticipated are being formulated without the 
accountability of further consideration by the Congress.
    The budget proposes that, beginning in 2006, 70 percent of all 
revenues from these lands sales would be returned to the Treasury, with 
the percent of receipts deposited in the special account set at 15 
percent. The amount of revenue currently provided to the State and to 
the water and airport authorities would not change. Total combined 
revenues retained in the State would total 30 percent, with revenues 
for 2006 for these purposes projected at $292.3 million, an amount four 
times larger than original projections in 1998 at time of enactment of 
the legislation.
    BLM Range Improvement.--The budget for BLM proposes to discontinue 
mandatory appropriations from the Range Improvement Fund totaling $10.0 
million annually. Instead, revenues will be deposited to the Treasury. 
To address rangeland improvement needs, the discretionary budget 
request for BLM includes $6.0 million to focus on projects to improve 
rangeland health conditions, such as weed control, essentially 
replacing funding provided through the Fund. These projects are part of 
the Department's cooperative conservation request and will be matched 
by partners. Other operational increases for BLM, including $7.0 
million for sagebrush habitat and sage grouse protection and $1.3 
million for invasive weed control, will also support rangeland 
improvement goals.

                         MANAGEMENT EXCELLENCE

    As public demands for Interior services increase--from Indian 
children who need schools to visitors who seek more outdoor 
recreational opportunities on our public lands--Interior must continue 
to enhance service and spend dollars wisely. Behind all our programs, 
out of the limelight, rests a management foundation through which we 
strive to improve program efficiency and effectiveness. The Departments 
and its bureaus continue to implement performance improvements.
    Our 2006 budget includes investments in tools to enable our 
employees to do their jobs more efficiently and generate cost savings 
by implementing standardized systems.
    The Department currently uses 26 different financial management 
systems and over 100 different property systems. Employees must enter 
procurement transactions multiple times in different systems so that 
the data are captured in real property inventories, financial systems, 
and acquisition systems. This fractured approach is both costly and 
burdensome to manage. We have underway an integration of our financial 
and business management systems to streamline and modernize basic 
administrative activities.
    Our budget proposes an increase of $9.5 million to support 
continued implementation of the Financial and Business Management 
System that will integrate financial management, procurement, property 
management and other systems. Through this effort, we will reengineer 
administrative processes throughout the Department. As the new system 
becomes fully operational, we will retire over 80 legacy systems and 
replace their functions with standardized business processes within the 
new, integrated system. In 2006, the National Park Service and Fish and 
Wildlife Service are scheduled to transition to the new system.
    The 2006 budget includes a $7.0 million increase for continued 
implementation of the Enterprise Services Network. The network 
leverages the existing BIA Trustnet, expanding it Department-wide, to 
provide secure, state-of-the-art internet and intranet connections and 
a fully functional operational center for data communications. In 
addition to providing better services for many Interior offices, the 
system will provide a uniformly secure environment, standardized and 
efficient 24-hour/7-day operations, and improved technical support.

                               CONCLUSION

    The budget plays a key role in advancing our vision of healthy 
lands, thriving communities, and dynamic economies. Behind these 
numbers lie people, places, and partnerships. Our goals become reality 
through the energy and creativity efforts of our employees, volunteers, 
and partners. They provide the foundation for achieving the goals 
highlighted in our 2006 budget.
    This concludes my overview of the 2006 budget proposal for the 
Department of the Interior and my written statement. I will be happy to 
answer any questions that you may have.

    Senator Burns. Thank you, Madam Secretary. Now we have been 
joined by the chairman of the full committee. Senator Cochran, 
do you have any statement or anything that you want to add to 
this illustrious group?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Thank you, Mr. Chairman. I am pleased to 
join you this morning and greet the Secretary of Interior, 
commending her for her strong leadership at the Department and 
congratulating her for her continued service as Secretary. We 
appreciate your willingness to do this very difficult but 
important job.
    I look forward to hearing more about the budget request and 
also any requests that you want to tell us about in connection 
with the supplemental request that is coming up. I understand 
there may be supplemental funds in the 2005 year needed by the 
Department of the Interior, and since that is coming up pretty 
soon, I would like to know what the specifics are about that 
request.
    Senator Burns. Thank you, Mr. Chairman.
    We have been joined by Senator Feinstein, a valuable member 
of this panel, and we welcome you this morning.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
have a number of questions. I will hold for my turn, but I just 
wanted to say two things.
    The first is I want to thank the Secretary for her help 
with CALFED and particularly Jason Peltier. I want to thank him 
for his help and Bennett for his help as well. It is very much 
appreciated. Thanks to members of this committee and other 
places, we got the bill through both houses and signed. I am 
really quite delighted. So thank you.
    I also want to welcome Lynn Scarlett and I want her to know 
because she is soon to be Deputy Secretary, that I would have 
introduced you yesterday if I could have. You are from a great 
city in my State, and I certainly want to welcome you and look 
forward to working with you.
    Those are my comments. Thank you, Mr. Chairman.
    Senator Burns. Thank you.
    We will probably never make it through all these questions.
    Secretary Norton. I think I am glad to hear that.
    Senator Burns. By the time we do that, we will all be 
vested if you just walked into the Congress, I will tell you 
this.

                      WILD HORSE AND BURRO PROGRAM

    But there is something that has been sort of my topic here 
and the source of many of my phone calls is the Wild Horse and 
Burro program. As you know, we have grappled with this program 
many, many years. I know there were a lot of people who had 
their reservations about this. Could you update us on the sale 
program? Because I understand you have been through one now, I 
think, maybe more. You might update us.
    The Department has taken great steps and has worked very 
hard that these horses be sold under the right circumstances 
and for the right reasons. Could you bring us up to date on 
what is happening in that particular program?
    Secretary Norton. Mr. Chairman, we have been working hard 
with the Wild Horse and Burro program to find creative ways to 
address our wild horse population. Obviously,we have the horses 
that are on the range and we are looking at things like birth 
control for those, as well as trying to keep to appropriate 
management levels.
    For those that are in our adoption program or long-term 
care, we are doing things like, for example, working with 
Indian tribes to see if some of those would be interested in 
having some horses for their lands. We are working with 
ranchers. There was one that recently, it is my understanding, 
took about 200 wild horses with the idea of working on further 
adoptions through his own initiative.
    We believe that there are people who would be interested in 
horses both in expanded attempts to try and get the young 
horses for gentling; as well as some people that just have open 
lands and would be happy to welcome these horses.
    We are working with some additional flexibility we have, 
because of your actions, to see that the horses go to good 
locations. We do recognize the sale authority that you have 
provided. Our activities right now are focusing on trying to 
find creative ways to avoid having those horses be in long-term 
Federal care, which is very expensive.
    Senator Burns. Well, it was my intention all along. I think 
America's imagination will get these horses taken care of. This 
old business of everybody thought they would all go to 
slaughter was crazy. I know better than that. Those people who 
would proclaim that know very little about the livestock 
business, to be right honest with you.

                         RECREATION FEE PROGRAM

    Recreation Fee program. Let us shift gears here a little 
bit. Last year in the omnibus appropriation bill, the Congress 
extended the Recreation Fee program on a long-term basis. I 
fought this move along with other members of the subcommittee 
because I believe authorizing committees of jurisdiction were 
the appropriate bodies to deal with this legislation, but we 
did not prevail.
    You are aware, Madam Secretary, that there is still some 
disagreement out in the land about whether these fees are 
appropriate, on what activities they should be collected, and 
how the collection should be spent.
    Are there things in last year's authorizing bill that will 
help address some of these concerns, and how will the new 
program be different than the fee program that has existed for 
the past several years?
    Secretary Norton. We certainly, Mr. Chairman, did recognize 
the concerns that were raised by a number of people about fees 
being charged in inappropriate places or having fees be used 
for things that were not really providing the visitor services 
that we need. We learned from the demonstration project what 
things work and what things do not.
    In the new authorizing legislation, there are specific 
requirements about what kinds of facilities need to be provided 
to people to justify the charging of fees. I know we are going 
through our specific areas to make sure that they are in 
compliance with the new legislation. I understand the Forest 
Service is also going through that exercise.
    In addition to that, the legislation establishes recreation 
resource advisory councils so that we have members of the 
public reviewing any new fees being charged in new areas and 
providing us direct feedback on whether those were a good ideas 
or not. We would have to report if we wanted to charge a fee 
despite the recommendation of that advisory committee.
    This is a work in progress and we understand that public 
support for fees can be very good if people feel like they are 
getting their money's worth. It is very, very rare for this to 
happen, I think anywhere in life for people to say you ought to 
charge more. But I have had people stand up in public meetings 
that we have done and say, ``you do not charge enough for your 
public lands. I pay a whole lot more for any other form of 
recreation for my family than when going to visit a national 
park.''
    We want to be sure, though, when we do that, to see that 
the fees are being used for appropriate activities and to 
demonstrate to people that they are being used appropriately. 
We want to continue working with you, with Members of Congress 
that might have complaints on a local level about fees to see 
that we are carrying forward this very important management 
tool in a responsible way.
    Senator Burns. Well, I thank you. I will just answer, not 
as a Senator but as an auctioneer, take the money.
    For those who want to give more, let them spend more.

                          BLACKFOOT CHALLENGE

    I will have one more question, and this is really important 
in my State. This is probably one of the largest actions that I 
have had the privilege of working on. The Blackfoot River 
watershed is an extraordinary place up in Montana. If you have 
not been there, I would certainly invite you, along with Ms. 
Scarlett, to join me up there this summer.
    The great strength of this valley is its community of 
citizen stewards led by the Blackfoot Challenge. It exemplifies 
the spirit of cooperation and conservation that you, the 
President, and I are working to encourage and we support. We 
have been working hard to help the challenge achieve its goal 
of conserving this remarkable place and the community that 
lives there. I have been pleased the President requested 
funding to support this community-led initiative in both the 
2005 and 2006 Forest Service budget.
    I am concerned, however, that your Department has not been 
supportive of this project as it should have been, despite the 
participation of the local BLM and Fish and Wildlife officials 
from the get-go. Can you explain to me why the Department has 
yet to recognize the conservation opportunities that the local 
community, the Forest Service, and the Congress have clearly 
recognized? I am particularly concerned that the BLM, an agency 
whose mission I strongly support, has not been acting in 
support of this project?
    Secretary Norton. I would be happy to look into that. It 
sounds like an ideal project for many of our cooperative 
conservation grants. So there may be some opportunities for 
them to apply for competitive grants.
    [The information follows:]

                          Blackfoot Challenge

    Secretary Norton. The Blackfoot River Watershed Land and Water 
Conservation Fund LWCF project is part of a multi-phase land 
acquisition project. In order to implement the project, BLM is 
conducting appraisals, land use planning, and environmental clearances 
for the project. During fiscal year 2004, the Bureau carried over $2.9 
million in funding appropriated for the project. The Phase I 
Acquisition was completed in February 2005 with the acquisition of 
2,500 acres. During fiscal year 2005, an additional $4.9 million was 
appropriated for the purchase of approximately 4,000 acres. The BLM 
will complete the appraisal on the Phase II Acquisition by the end of 
fiscal year 2005, and has completed the appraisal on the Phase III 
Acquisition.

    Secretary Norton. Also, the Bureau of Land Management, the 
Fish and Wildlife Service, and National Park Service have 
challenge grant programs that are essentially available to our 
managers to apply for assistance to help fund projects that are 
working in cooperation with local communities. We very strongly 
support that type of multi-agency, public/private, Federal, 
State, local kind of approach, and our grant programs are 
really designed to encourage and facilitate those activities.
    Senator Burns. Well, as you know, this was a homegrown 
agreement and it has got a lot of moving parts to it. There is 
no doubt about that.

                     CONSERVATION EASEMENT PROGRAMS

    Last fall your Fish and Wildlife Service Director, Steve 
Williams, announced the start of planning for the conservation 
easement programs to protect working landscapes and natural 
resources along the Rocky Mountain front and also in this 
particular place. I hope this program will be a fine example of 
cooperative conservation by ranchers, conservationists, and the 
Service.
    When do you expect this long-delayed planning effort to be 
completed? Do you have any idea?
    Secretary Norton. I am sorry. We do not have that 
information with us, but we will be happy to provide it.
    [The information follows:]

      Proposed Rocky Mountain Front Conservation Easement Program

    The U.S. Fish and Wildlife Service proposed to expand its existing 
conservation easement program to include a new project area along the 
Rocky Mountain Front, in north-central Montana. The proposed Rocky 
Mountain Front Conservation Easement Program would authorize the 
Service to use Land and Water Conservation Fund monies to purchase 
easements from willing sellers on up to 170,000 acres of private land. 
The goal of the Program is to work proactively with private landowners 
to protect important habitat and maintain connectivity between core 
blocks (``biological anchors'') of public and private conservation 
lands.
    The Program would not authorize any fee title acquisition. A local 
landowner advisory council, consisting of ranchers, business owners and 
government officials from Lewis & Clark, Teton, and Pondera Counties, 
strongly support a conservation easement approach as a means of 
conserving the historic ranching heritage on the Front.
    The Front is a high-priority conservation area for the Service and 
its partners in the conservation community, including the State of 
Montana, the Boone and Crockett Club, and The Nature Conservancy, 
because it is the only remaining landscape in the Continental United 
States with a complete, intact and functional assemblage of large 
mammalian carnivores, including the grizzly bear, gray wolf, wolverine, 
and lynx.
    The Preliminary Project Proposal for the Program was approved by 
the Service's Mountain-Prairie Regional Office in April, 2002 and 
forwarded to the Director's office for approval. The Director approved 
the PPP in October, 2004. This approval provided the Service's Regional 
Office with the authority to proceed with detailed planning to consider 
the establishment of the easement program. Since October, the regional 
planning team has met with the Montana Congressional delegation, 
conservation and sportsmen's groups, federal agencies, state and local 
governments, tribes, and various local business interests. The team has 
also held three public scoping meetings at various locations near the 
project area.
    The Regional Office is currently developing an Environmental 
Assessment, pursuant to the National Environmental Policy Act, to 
analyze the effects of establishing an easement program on the Front. 
The Region's goal is to complete the EA in the Spring of 2005. Per 
current Service policy, the EA, FONSI and associated documents will 
then be submitted to the Director for his concurrence.

    Senator Burns. Oh, good. That is that big packet that is 
going to show up on your doorstep.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.

                            TRIBAL COLLEGES

    Madam Secretary, let me ask, as you might expect me to ask, 
about tribal colleges. As I indicated, the proposed cut in 
funding for tribal colleges really will wipe out the 2 years of 
progress that Senator Burns and I and other Members of the 
Congress have made on tribal college funding. Can you describe 
why these cuts are being proposed?
    Secretary Norton. We have had to make some tough choices, 
as we have looked through our Department for ways to handle our 
Indian trust responsibilities, as well as to meet the overall 
needs with a tight budget. What we have done is to look to 
other Departments, in part, and the cooperation that we can do 
with other Departments to see how those issues can be 
addressed.
    Since 1996, the student count at tribal community colleges 
has increased by 41 percent. At the same time, our funding will 
have increased by 61 percent through the 2006 budget. The 
President's budget provides about $9,500 per student at 
tribally controlled universities, funded by the BIA and the 
Department of Education, and the average community college 
receives about $6,600 in revenue from all sources.
    We are working, first of all, with the Department of Labor. 
They have a jobs program that provides about $250 million to 
community colleges across the country. We met with them and 
talked about how we can make sure that the colleges that we are 
involved with are eligible for that and involved in that. The 
Assistant Secretary that deals with those programs has agreed 
to have our Assistant Secretary for Indian Affairs, or the 
person acting in that capacity, to be on the selection 
committee as grants are being made for those programs.
    We also have talked with the people at United Tribes 
Technical College to see if there are some opportunities for 
using their facilities and working together on training that we 
need for our employees in the Bureau of Indian Affairs and 
Office of Special Trustee; and to see if there are ways we can 
work with their graduates because I think they have some skills 
that we need.
    Senator Dorgan. Madam Secretary, I wonder if my staff could 
work with your staff. We have a very different view of support 
of these students. You are suggesting the support is nearly 
double the support of students in community colleges. My 
figures show it is about 50 percent, half. So there is a very 
wide disagreement here. I would like my staff to engage with 
your budget folks and see if we can understand what the facts 
are there.
    Secretary Norton. I would appreciate that.
    [The information follows:]

                         Tribal College Funding

    The Department has provided information to the Senator's staff on 
the per-student funding at tribal colleges. Additional information can 
be provided upon request.

                        STATESIDE GRANTS PROGRAM

    Senator Dorgan. Land and Water Conservation grants. Your 
budget would eliminate the State-side assistance grants through 
the LWCF. The Senate budget actually includes slightly over $1 
billion for those same grants, but that is paid for by the ANWR 
revenues. On the other hand, your recommendation for 
eliminating the grants, I believe, is saying that that money is 
more appropriately funded through State revenues or bonding I 
guess. Is that correct?
    Secretary Norton. Actually a variety of our conservation 
grants that are funded through the Land and Water Conservation 
Fund. The State grants are just one aspect of that. We strongly 
support having various programs that are funded through the 
Land and Water Conservation Fund that all go toward open space, 
environmental protection, and so forth.
    As to the State assistance grants, there was a study done 
by the Office of Management and Budget that reviewed that 
program.
    Senator Dorgan. Is this PART?
    Secretary Norton. Yes, it is.
    Senator Dorgan. The infamous PART study.
    Secretary Norton. Yes. It is the PART study.
    We have been enthusiastic about that program, but as we 
looked at it more closely, we found that it did not do as good 
a job in having clearly defined goals and in meeting those 
goals as some other programs. Our other programs allow us to 
see that environmental needs are really prioritized. It has 
allowed us to deal with endangered species such as sage grouse. 
It has allowed us to restore wetlands, things that are not 
really captured within that State-side program.
    Senator Dorgan. As you know, the PART studies have been 
very controversial. Would you think maybe we should have a PART 
study of the Office of Management and Budget?
    Secretary Norton. I will let you all decide that.

                     BIA SCHOOL REPLACEMENT FUNDING

    Senator Dorgan. Let me ask about BIA school replacement 
funding. As you know, that is another situation that many of us 
care deeply about. 184 schools are operated by the BIA, 48,000 
kids. There is a very substantial cut in replacement funding. 
My understanding is that it is because there are carryover 
funds, and yet, for example, in the National Park Service there 
are much greater carryover funds. Yet, their construction 
funding is actually up when, in fact, BIA school construction 
funding is cut rather dramatically. Can you describe the reason 
for that?
    Secretary Norton. Over the last 4 years, we have obtained a 
total of over $1.1 billion in funding for construction of 
Indian schools and have been working to see that those schools 
are actually constructed. We now have 34 schools that have been 
funded through our programs. Only nine have been completed. Our 
focus right now is really working with the tribes on getting 
the construction completed.
    We, nevertheless, are continuing funding at a level that is 
nearly three times as high as it was in the late 1990's. We are 
providing very substantial funding for repair work at the 
schools. It is not quite $1 million per school on average but 
it is a very high level of funding. So we are going to be 
working through time to address this issue and to try to be 
sure that we continue to work towards better quality schools 
for our Indian children.
    Senator Dorgan. You know, one-third of those schools are 
defined as in ``poor quality.'' So my concern, Mr. Chairman, is 
that cutting the construction funding at a time when fully one-
third of those schools for young Indian children run by the BIA 
are poor quality schools. I really think we need to try to 
continue that funding process.
    Well, Madam Secretary, my colleagues I know want to ask 
questions. Senator McCain and I have a bill over in Commerce 
that is being marked up, and I need to go over there.
    I would like to submit some additional questions. Again, 
while we might disagree from time to time on some issues, I 
appreciate your service to our country, and I hope that you 
will accept the questions that I will just submit in writing in 
order to save some time this morning.
    Senator Burns. Thank you, Senator Dorgan.
    Senator Leahy.
    Senator Leahy. Thank you very much, Mr. Chairman.

              ARCTIC NATIONAL WILDLIFE REFUGE LEASE SALES

    Secretary Norton, I had mentioned the Budget Committee's 
language which says that we will get $2.4 billion in revenues 
in 2007 from lease sales on the Arctic Refuge. How much will 
the leases have to sell for to reach that $2.4 billion?
    Secretary Norton. I do not have that number handy. I assume 
your calculation is fairly correct.
    If I can explain the process that we would go through and 
also that resource.
    Senator Leahy. And if you might also point out, if they 
would have to sell for between $4,000 and $6,000 per acre, when 
the average has been around $50 per acre, why that sudden jump, 
or is it kind of smoke and mirrors as a way to use the budget 
resolution as a way to get through ANWR in a way it might not 
get through otherwise?
    Secretary Norton. The figures you are using for comparison 
are from the National Petroleum Reserve. There we have an area 
of 23 million acres that has a resource estimated amount that 
is smaller than the amount of oil that is predicted to be in 
the 1.5 million acres of ANWR that would be considered for 
energy exploration. So, in effect, you have more oil in one-
twentieth of the acreage than you have in the National 
Petroleum Reserve.
    Senator Leahy. Even if you made it 20 times, it still does 
not get anywhere near the $4,000 to $6,000.
    Secretary Norton. Actually we have areas in the National 
Petroleum Reserve where we have received about $1,000 an acre.
    Senator Leahy. Here you would have to get $4,000 to $6,000, 
and a number of the companies have pulled out of the industry 
lobbying firm that is pushing for this drilling. I just wonder 
how these figures come. I really would like a very clear 
answer. In doing that, what kind of a split does that assume 
with Alaska?
    Secretary Norton. First of all, the Congressional Budget 
Office did its own analysis and their analysis reached a higher 
number than ours did. My understanding is the split with Alaska 
would be the 50/50 split that is the arrangement through the 
Mineral Leasing Act with all of the other States in which----
    Senator Leahy. Governor Murkowski said Alaska will sue the 
Federal Government if they do not get 90 percent.
    Secretary Norton. I understand that the 90/10 split is a 
popular position in Alaska, but certainly everything I have 
heard from the Congress is a 50/50 split.
    Senator Leahy. Would the administration fight Governor 
Murkowski on that?
    Secretary Norton. Yes. Our understanding is the appropriate 
approach is a 50/50 split, or whatever Congress designates in 
the legislation, but that is what we assume it would be.

                          FWS FISH HATCHERIES

    Senator Leahy. Well, I am glad to hear you say whatever we 
designate in the legislation.
    It raises another area. I am thinking back at the beginning 
of the administration, one of the catch phrases your Department 
used was it put the fish back in the Fish and Wildlife Service, 
something I certainly agree with and I expect most of us would. 
I was informed last year that region 5 faced such severe budget 
shortfalls that the Pittsford Hatchery on the New Hampshire-
Vermont border would close. Salmon production at the White 
River Hatchery in my State would be cut by more than 60 
percent. Similar cuts are proposed for other hatcheries in the 
region. It decimated efforts to restore Atlantic salmon to the 
Connecticut River.
    Now, Chairman Burns and Senator Dorgan put in extra funds, 
and reprogramming language allowed the Service to avoid these 
cuts, and I appreciate that. Then the Department ignored 
congressional direction in the 2005 appropriations bill to 
increase the base fisheries budget in 2006.
    So do we have a commitment to keep these facilities running 
at the 2005 level, as the appropriations bill had said?
    Secretary Norton. Our overall approach on the fisheries 
budget has been an increase. There was a $4 million increase 
last year, and our budget for 2006 includes an additional 
increase of $2.7 million for hatchery operations and 
maintenance. The reductions in the fisheries program were in 
congressional earmarks. Offsetting these reductions, we also 
have significant increases in competitive wildlife grant 
programs of $38 million and in partnership cost-share programs 
of $37 million.
    Senator Leahy. Does that mean you will or will not ignore 
the congressional direction in the 2005 appropriations to 
increase the base fishery budget in 2006?
    Secretary Norton. I believe we have increased the base 
fisheries budget, and I believe the answer I just gave you is 
indicative of an increase.
    Senator Leahy. So your commitment is these facilities will 
keep running at the 2005 level?
    Secretary Norton. I do not have information about specific 
facilities and how the Fish and Wildlife Service is allocating 
that.
    Senator Leahy. Would you answer for the record then whether 
they will be kept at the 2005 level, which is basically what 
the congressional directive was?
    Secretary Norton. Do we have information about the Vermont 
facilities?
    Mr. Trezise. Senator Leahy, we will have to submit specific 
numbers for the record. A portion of the 2006 increase that we 
have requested has not been allocated to individual hatcheries. 
It is certainly, though, as I understand it, the intention of 
the Fish and Wildlife Service to use that increase across the 
system to maintain hatchery operations at least at the 2005 
level.
    Senator Leahy. So they would be kept running at the 2005 
level?
    Mr. Trezise. It is my understanding that is the Service's 
intention, yes.
    [The information follows:]

               New England National Fish Hatchery Funding

    Final fiscal year 2006 allocations to both Pittsford and White 
River NFH's will be dependent on actual appropriation amounts received, 
but assuming the Service receives the same level of base funding in 
fiscal year 2006 as was received in fiscal year 2005, plus requested 
pay uncontrollable funding, the Service intends to fund both Pittsford 
and White River NFH's at the same levels as in fiscal year 2005.
    The fiscal year 2006 President's Budget request includes a net 
increase of $2.111 million in Hatchery Operations; within this amount, 
$44,000 is requested to partially restore the across-the-board 
rescissions received in the fiscal year 2005 appropriations, and $2.231 
million is requested to implement 34 high priority FONS projects which 
are identified in the budget request. Offsetting reductions include a 
technical adjustment to shift $158,000 to Fish and Wildlife Management 
Assistance and $6,000 in expected savings through improved vehicle 
management. An additional $796,000 is also requested for pay and 
uncontrollables. The funds requested to offset the fiscal year 2005 
rescissions and for pay and uncontrollables will be used across the 
system to maintain hatchery operations at the 2005 level to the extent 
possible. The funds requested to implement the 34 high priority FONS 
projects will be allocated to the specific stations implementing those 
projects. Neither Pittsford nor White River National Fish Hatcheries 
have been identified as receiving any of these funds.

    Senator Leahy. Then we have the potential effects of cuts 
to the fishery budget at the Lake Champlain management office. 
One of the things they do is control sea lampreys in the lake, 
something Vermont and New York have worked on. We have finally 
turned the corner in controlling the invasive species that is 
devastating our salmon and lake trout population. Vermont, 
Governor Pataki, and others have worked hard on this. Governor 
Douglas in Vermont, Governor Pataki in New York. Can we assure 
them that the Department will not cut its support for this 
program?
    Mr. Trezise. Senator Leahy, base funding for the operation 
of the office is continued in the 2006 budget at the same level 
as in 2005.
    Senator Leahy. And can you answer specifically for the 
record whether there will not be cuts in this critical program?
    Mr. Trezise. We will have to answer for the record.
    [The information follows:]

                        Lake Champlain Fisheries

    The Service is committed to its partnership with New York State 
Department of Environmental Conservation and Vermont Fish and Wildlife 
Department in the Lake Champlain Fish and Wildlife Management 
Cooperative, which manages the fish and wildlife resources of Lake 
Champlain. Sea lamprey management is central to the Cooperative's long-
term effort to restore native species and improve recreational 
fisheries worth an estimated $200 million annually.
    The Service and its State partners implement a multifaceted 
approach to controlling parasitic sea lamprey populations by installing 
barriers to spawning migrations, trapping migrating adults and applying 
target-specific pesticides, known as lampricides. To guide these 
control efforts, the Service conducts quantitative sea lamprey 
assessment surveys and numerous presence/absence surveys in tributaries 
and delta areas throughout the basin. In addition, the Service supports 
extensive regulatory/permit requirements and places high priority on 
the development and investigation of sea lamprey control techniques 
that may provide useful alternatives to lampricides, engaging a variety 
of stakeholders to further the science of sea lamprey management.
    Approximately 70 percent of the Service's Fish and Wildlife 
Management Assistance program budget on Lake Champlain is focused on 
sea lamprey management and associated restoration of native fish 
species. Direct management of sea lamprey accounts for approximately 50 
percent of the Service's Fish and Wildlife Management Assistance 
program budget, while related salmonid assessment and restoration 
activities account for an additional 20 percent.
    Final fiscal year 2006 allocations to the Lake Champlain Fish and 
Wildlife Resources Office will be dependent on actual appropriation 
amounts received, but assuming the Service receives the same level of 
base funding in fiscal year 2006 as was received in fiscal year 2005, 
plus requested pay uncontrollable funding, the Service intends to fund 
this office and its sea lamprey management activities at the same 
levels as in fiscal year 2005.

                            ANWR LEASE SALES

    Senator Leahy. Madam Secretary, I am not trying to play 
games on the lease sales and the amount. Obviously, your 
Department is going to have to have specific figures of what 
those lease sales are going to be. Can you supply for the 
record, as soon as possible, specifically what your Department 
estimates the lease sales will be?
    Secretary Norton. That information is included within the 
budget.
    The other point that I should make is that before lease 
sales would occur, there would be additional very high-tech 
seismic work done in that area. So everyone would have a much 
better understanding of exactly what resources are there and 
where they are located. So that could make a difference either 
positively or negatively.
    Senator Leahy. And I understand that, and that is fair. But 
somebody had to make some estimates to get to $2.4 billion.
    Secretary Norton. Those are the same figures that have been 
used for about a decade and have not been adjusted upward with 
the new increases in the price of oil.
    Senator Leahy. I understand. But you will keep us posted if 
those figures are changing or if those figures are still valid 
in your Department? Maybe I should ask the question this way. 
Are those figures still valid in your Department today and will 
you let us know if they change?
    Secretary Norton. We believe those are valid figures, and 
we would let you know if those change, but I do not anticipate 
any change during this current year.
    Senator Leahy. Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Leahy.
    Senator Cochran.

                         NATCHEZ TRACE PARKWAY

    Senator Cochran. Madam Secretary, we are very pleased that 
in May we are going to celebrate the completion of the Natchez 
Trace Parkway, which spans the distance between Natchez, 
Mississippi and Nashville, Tennessee. There are a lot of living 
history sites along the way, and it is a beautiful parkway. I 
mention that in hopes that you may be able to come to the 
celebration. There are going to be two events in Mississippi: 
one in Clinton, Mississippi very near Jackson, which is one of 
the areas that was last completed along the parkway; and at 
Natchez, which, of course, is the southern terminus of the 
parkway, but is also the site of the Natchez Historical Park, 
which enhances the pleasure of those who visit that area of our 
State. It is a great achievement.
    It was started by authorizing legislation 67 years ago. I 
remember it because that is the year I was born. It has taken 
that long to finish the parkway. But it is due to the hard work 
of a lot of people along through the years and many in the 
administration have taken an active part in it.
    I was just thinking about one of the highlights, the 
establishment of the National Historical Park at Natchez. 
Manuel Lujan was the Secretary of Interior at that time. He 
came to Natchez and spoke at the dedication of one of the 
facilities that had been included in the parkway, one of the 
antebellum homes, Melrose, which provides visitors an 
opportunity to understand a little bit about the way of life 
back in the early days of that region of the country, one of 
the earliest settled areas of the new United States, as a 
matter of fact.
    I bring that up to mention that the Department's continued 
support for maintenance and the pleasure of visitors who come 
to see that area would be deeply appreciated. The 
superintendent of the parkway, Wendall Simpson, is an 
outstanding individual whose has devoted a lot of time and 
effort and hard work to the completion of the project, but also 
to the enhancement of the beauty, maintaining the parkway. It 
has really been a great thing to observe over the years, and it 
is culminating in the final completion of the parkway.
    I will get you the dates. So you will have a look at your 
calendar. I hope you will be able to come down and help us 
celebrate this great occasion.
    One of the interesting things too about the northern area 
of the parkway is, as you get up into Tennessee, you come to a 
site where Meriwether Lewis, from the famous Lewis and Clark 
Expedition, died. There is a marker there to commemorate his 
death and his life, and his contribution to the exploration of 
the new United States at the request of Thomas Jefferson. This 
is an area that is rich in history and significance for many 
reasons, and I am sure that at some point we will probably see 
a request coming in for a facility to be located up there in 
the Tennessee area so people can enjoy the significance of that 
part of the parkway as well.
    Well, that is enough of the parochial interests. I wanted 
to bring that to your attention and let you know about how 
proud we are of the work of the Department in that area. And 
thank you and your colleagues at the Department for their help 
in making this a reality.
    Secretary Norton. Thank you very much. I recently read a 
book that was set in that area, and I do look forward to seeing 
it. I have heard so much about how beautiful that is.

                 MIGRATORY BIRD CONSERVATION COMMISSION

    Also, I want to personally thank you for your work on the 
Migratory Bird Conservation Commission. You are a very 
dedicated member of the Commission and have put a lot of your 
personal time into seeing the success of the work of that 
commission. I appreciate that.
    Senator Cochran. Thank you. It is a pleasure working with 
you on that Commission. You chair it. You are the chairwoman.

                      HOLT COLLIER WILDLIFE REFUGE

    We are also happy that recently we celebrated a new opening 
of a wildlife refuge. We dedicated the Holt Collier Wildlife 
Refuge, the first wildlife refuge to be named for an African 
American. He is the fellow who took Theodore Roosevelt on the 
bear hunt down in the Mississippi Delta where the bear was 
lassoed because he was about to get away, and they said, shoot 
the bear, Mr. President, and he would not shoot the bear 
because they had a rope around his neck. Some cartoonist in New 
York put that in the newspaper in a story about it, and hence, 
the teddy bear. An enterprising toy store owner decided to 
capitalize on the notoriety of Teddy Roosevelt.
    So we had a great celebration the other day at the 
Mississippi Museum of Natural History where we dedicated this 
new refuge. But it is one of many throughout the country that 
help serve the purpose of wildlife habitat protection, and part 
of the funds that people pay for duck stamps and the privilege 
of hunting migratory birds is to go into a fund where we set 
aside certain amounts to protect wildlife habitat. This is one 
of the newest areas in our State that joins the refuge system. 
Fittingly enough, it is a part of the Theodore Roosevelt 
Wildlife Refuge system in our State. We are very proud of that 
connection with the former President.

                     TSUNAMI WARNING SYSTEM FUNDING

    Let me ask you a question about the supplemental. I had 
some notes from my staff indicating that there would be a 
request for additional funds for supplemental funding for a 
tsunami warning system, and that involves the USGS, U.S. 
Geological Survey, and the National Oceanic and Atmospheric 
Administration. Is that something that the Department is 
involved in in some way? Could you tell us what your needs are 
in connection with this supplemental request?
    Secretary Norton. The U.S. Geological Survey provides half 
of the equation in trying to determine tsunamis. We are the 
ones that monitor earthquakes all over the world and are able 
to quickly determine the size, intensity, and location of the 
earthquakes, and then that information is given to the National 
Oceanic and Atmospheric Administration that has wave monitors 
and so forth that then can provide tsunami warnings.
    Since the very tragic situation in the Indian Ocean, we 
have focused on our activities, as well as those of NOAA, to 
determine how we can be most effective both internationally but 
also in protecting our own coastline.
    From the Department of the Interior perspective, we want to 
make sure that our National Earthquake Center, which is in 
Golden, Colorado, is staffed 24 hours a day, 7 days a week, and 
that we are able to quickly provide information. We are also 
looking at other enhancements to our system.
    Lynn, would you like to add something on that?
    Ms. Scarlett. Yes. As part of that effort, I believe in the 
supplemental there is a proposal for the Department of the 
Interior and USGS for about $8 million, with an additional $5 
million in our 2006 budget request that would amplify that.
    Senator Cochran. Is that fund that you are requesting the 
$8.1 million--that is consistent with my information as well. 
Is that needed in this fiscal year or should it be made a part 
of the next year's appropriation? What is the urgency? How will 
the money be spent if it is provided in the supplemental?
    Mr. Trezise. Senator Cochran, most of that money is for 
technology upgrades, both hardware and software, that need to 
be initiated now so that we can get them in place as soon as 
possible, and certainly in 2006, to have a higher level of 
ability to monitor and disseminate information on earthquakes.
    Senator Cochran. Will this protect the United States and 
its territories, or will it protect other areas such as in the 
Indian Ocean?
    Secretary Norton. There are protections that will assist 
with both. In many parts of the world, there are earthquake 
monitors that exist that provide information to our system, but 
they are not directly wired into our system to get information 
in real time. You have to have somebody go out and check and 
send in the information. So being able to have immediate access 
to that will help worldwide.
    We also want to look more closely at our own coasts and 
especially in the Gulf of Mexico area to see that we are 
enhancing our ability in those areas. The most vulnerable areas 
are actually our territories as opposed to the U.S. coastline, 
but we want to see that we are looking at the Gulf of Mexico.

                    HEALTHY FORESTS RESTORATION ACT

    Senator Cochran. My final comment is about your cooperation 
and leadership in the implementation of the Healthy Forests 
Restoration Act, which we passed here in Congress. We thank you 
for your leadership in implementing that legislation. We hope 
that you will let us know about the levels of funding that you 
may need to help ensure that we continue to do a good job of 
stewardship not only with our U.S. forest lands but also to 
assist private landowners in helping to protect their lands, 
and that is part of this restoration act as well. Thank you 
very much.
    Secretary Norton. Thank you.
    Senator Burns. Thank you, Senator Cochran.

                         CONTRACT SUPPORT COSTS

    In the area of contract support costs in the recent court 
decision, the court ruled that tribes have not been fully 
reimbursed for self-determination contracts that they have 
entered into with the Indian Health Service and the Bureau of 
Indian Affairs. Can you give us a short synopsis of the Supreme 
Court decision and how that impacts the Department of the 
Interior?
    Secretary Norton. As you mentioned, that is a very recent 
decision. Our lawyers in the Solicitor's Office are taking a 
close look at that decision. Their preliminary analysis is that 
the decision will not require significant retroactive payments 
by the Bureau of Indian Affairs.
    As the subcommittee is aware, for a number of years, the 
Interior Appropriations Act has contained bill language that 
caps the amount of funding available for contract support for 
both BIA and the Indian Health Service. The Cherokee Nation 
case involved claims for contract support from IHS for a period 
before the legislative cap was put in place. The Office of the 
Solicitor indicates that there are no pending cases against BIA 
involving claims for contract support for years prior to the 
legislative cap.
    Senator Burns. Will this budget that we are talking about 
here impact this 2006 fiscal year? And should there be any left 
for the 2005?
    Ms. Scarlett. I do not believe we anticipate an impact for 
2006 nor for 2005.

                        PRESERVE AMERICA PROGRAM

    Senator Burns. I, like Senator Dorgan, am concerned about 
Preserve America. We have several programs out there right now, 
as you well know, that deal with American heritage spots, and 
now we have added another one here. Give me your idea. How come 
we cannot assume that there is a lot of redundancy here, and 
how will this new program be different than the ones that we 
already have in existence?
    Secretary Norton. Preserve America differs from our other 
programs in a couple of ways.
    First of all, the Save America's Treasures Program is a 
very good program and we do continue that program, although we 
would propose reducing funding. That program focuses on bricks 
and mortar.
    We also have the heritage area program which is somewhat 
more akin to Preserve America in focusing on heritage tourism 
and on local efforts to try to incorporate historic 
preservation into tourism and into commercial activities.
    The Preserve America program is a competitive grant 
program. It does not create the kind of ongoing Federal funding 
relationship that is created by the heritage area program. It 
is something that is available to more communities and is more 
focused on assisting community efforts. It does more to really 
bring in a public/private partnership for protection of our 
historic heritage.
    Senator Burns. We may have a little discussion about that 
later on, but we will try and work our way through it.

                         RURAL FIRE ASSISTANCE

    In the Bureau of Land Management, rural fire assistance. I 
am very concerned about this. You have proposed an elimination 
of that program administered by the BLM. The budget justifies 
this cut by arguing that the Forest Service and FEMA have 
similar programs. I must point out to you that the Forest 
Service account for State and local fire assistance was cut by 
$22 million. We just had the chief up here the other day and 
talked about that. The FEMA assistance grant has been cut by 
almost $100 million. So what you have done here sort of impacts 
this whole thing. So can you explain the rationale for 
eliminating your program?
    Secretary Norton. Our program was yet another grant 
program, a very small one in comparison with the other 
programs. It seemed like a duplication of effort with what the 
other larger programs were already doing. We work very closely 
with the Forest Service on all aspects of our forest fire 
activities.
    We are also working with FEMA very closely. As you know, a 
lot of their program funds originally went to things that were 
related to homeland security and they have put in place a lot 
of activities and funding for that. We also have an MOU with 
them and we are working to refine that to have their much 
larger funding--this year the program is funded at $500 
million--to have some of that be available for rural fire 
assistance. So we felt like overall from the Federal 
Government, it was a more efficient way to deliver those grant 
funds.
    Senator Burns. If you--I am sorry, Ms. Scarlett. Would you 
like to comment?
    Ms. Scarlett. I might add to that. We also have $1.9 
million within the preparedness program that would also go 
towards rural fire assistance directly from the Department of 
the Interior, and then we would be augmenting that by working 
with the funds that the Secretary noted from FEMA.
    Senator Burns. If you could do a report on how you think 
interacting with the other agencies such as FEMA and the Forest 
Service and sort of lay that out for the concerns of the 
committee. We are looking at probably the lowest snowpack that 
I have ever seen in the State of Montana, and we are not any 
better off in the plains where most of the BLM land is. And of 
course, in Montana most of the forests are with the Forest 
Service. If we do not have a very good April, May, and June, I 
fear we are in deep trouble. So that is why I am concerned 
about this. If you could give us some idea on how you will 
interact, understanding the conditions of the northern high 
plains.
    I realize down in Colorado that is your home country, that 
jet stream just went south this year and it stayed down there, 
and when it does not whip up and down in your weather patterns, 
some places get caught off about that. But if you could have 
some sort of a report to us on how that interaction is going to 
happen and the dollars involved, I think it would allay a lot 
of concerns that this committee might have.
    [The information follows:]

                         Rural Fire Assistance

    The requested information on how the Department of the Interior's 
Wildland Fire Management program will work with FEMA and the Forest 
Service so that RFDs continue to receive federal assistance follows.
    The National Fire Plan represents a long-term commitment and 
investment to help protect communities, natural resources, and most 
importantly, the lives of firefighters and the public from the risks of 
wildland fire. Rural fire departments are a vital resource in assisting 
the Department in meeting its fire management responsibilities. The 
program will continue to support these critical relationships through a 
variety of means.
    The Rural Fire Assistance program was authorized in the Department 
of the Interior and Related Agencies Appropriations Act, 2001, Public 
Law 106-291, to enhance the fire protection capability of rural fire 
departments (RFDs). The program provides funds to rural/volunteer fire 
departments that serve small, rural communities to purchase training, 
equipment, and fire prevention activities. Funds are provided on a 
cost-shared basis. Participating bureaus include Bureau of Indian 
Affairs, National Park Service, Bureau of Land Management and U.S. Fish 
and Wildlife Service. Since 2001, the program has provided $50 million 
in grants that have been used to train more than 12,000 firefighters, 
provide PPE to more than 100,000 firefighters, and conduct over 1,000 
workshops in small communities.
    The Department is committed to continuing to enhance RFDs' capacity 
to protect communities from wildfire while increasing their level of 
safety. The 2006 budget request includes $1.9 million in new 
preparedness funding to further wildland fire training for RFDs. The 
ready reserve proposal would strengthen initial attack and develop 
extended attack capabilities by training 1,000-2000 firefighters each 
year and equipping them with personal protective equipment (PPE). 
Communities will benefit by having skilled cadres of local firefighters 
available to reduce loss of property and natural resources.
    The Wildland Fire Leadership Council (WFLC) was established in 
April 2002 to implement and coordinate the National Fire Plan and 
provide leadership to address interagency differences to ensure 
seamless delivery of a coordinated fire protection program. Members 
include senior officials from the federal fire agencies, bureau heads, 
and state, tribal and county representatives. In January 2003, WFLC 
members from DOI, USDA, FEMA and the National Association of State 
Foresters signed a Memorandum of Understanding (MOU) to promote 
consistent and systematic federal assistance to fire departments and 
support national efforts to improve firefighter safety, protect 
property, and save lives with respect to catastrophic wildland fire.
    Under this agreement, partnering agencies developed a collaborative 
approach to review competitive applications for grant awards as well as 
discuss the various program parameters. While our relationship has been 
enhanced, the partnering agencies have also provided the public better 
information about our collaborative work.
    The next step in furthering this collaboration is to enhance the 
existing MOU. Talks between the partnering agencies are underway, and 
have focused on means to emphasize the small rural departments that are 
vital to wildland fire initial attack success. In particular, the large 
FEMA Assistance to Firefighters Grant (AFG) program has a number of 
components that would be suitable to serve RFDs that perform wildland 
firefighting duties. This program seeks to support organizations that 
lack the tools and resources necessary to protect the health and safety 
of the public and their emergency response personnel with respect to 
fire and other hazards. Grants may also be used for training, 
equipment, and PPE, as well as fitness and wellness, and structure 
modifications not funded by RFA.
    Discussions for MOU revision have included the following points:
  --Provide additional information to FEMA on wildland firefighting 
        priorities and needs. This information could possibly be 
        incorporated into annual guidance issued for prospective grant 
        applicants or as website links.
  --Further formalize DOI, Forest Service and FEMA peer review of FEMA 
        awards. The existing MOU encourages sharing information about 
        pending grant applications among the various partnering 
        agencies, as well as coordinating application reviews. Efforts 
        to further integrate all partners in the peer review process in 
        some cases are restricted by authorizing statutes. For example, 
        federal employees are prohibited from participating with 
        members of fire service organizations for the purpose of 
        determining criteria for awards. However, peer review panel 
        chairs must be federal employees. Final language refining the 
        level of federal participation appropriate in the criteria 
        development process will be carefully considered.
  --Share additional website information. This exchange will likely 
        take the form of additional links between partners' websites, 
        and should be readily accomplished.
  --Coordinate educational efforts for grant workshops. These efforts 
        will further ``one-stop- shopping'' so that grant workshops 
        provide more information about the breadth of resources 
        available to RFDs.
    Within the larger AFG program are several smaller components that 
could be suitable for RFDs seeking assistance for wildland fire 
training and equipment. Fire Prevention and Firefighter Safety (FPS) 
grant applications will be accepted in September 2005. This 5 percent 
set-aside could be used for things like planning, coordinating, 
community awareness and Community Wildfire Protection Plans (CWPPs). 
The Staffing for Adequate Fire and Emergency Response (SAFER) grant 
program (new in 2005) will be open in June: guidance is still pending.
    The Department recognizes constraints on the various federal grant 
programs. Efforts to best utilize scarce resources, further community 
protection and safety, and enhance RFDs' capacity to reduce the loss of 
property and natural resources provide the opportunity to evaluate the 
effectiveness of our overall interagency program delivery. We look 
forward to continued discussions with partnering agencies and expect to 
finalize an enhanced MOU by summer.
    The following table summarizes agency fire grant appropriations 
from fiscal year 2001-fiscal year 2005. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Burns. This is going to be my last question and 
then I am going to send this whole thing down to you.

                         RANGE IMPROVEMENT FUND

    In the area of range improvement funds, I noticed you 
eliminate those monies. As you know, we work very closely in 
range improvement with the Society of Range Management, which 
is a rancher-funded organization, and use that. We still have 
work to do in habitat and riparian areas. That is how we really 
averted the sage grouse controversy because a lot of people 
took it at its word up front and went to work on that. A lot of 
States did, anyway, working with our grazers and our recreation 
people. I have some concern about that.
    Also, I know this is hard to understand here in Washington, 
D.C., but you ought to go to some of these glitzy kind of 
receptions and somebody walks up to you and says what are you 
working on today, and you say weeds. See how fast you are 
standing there by yourself.
    A lot of folks do not know the invasive weeds or noxious 
weeds that we have to contend with. That was part of this fund. 
So I am kind of concerned about that because we still have a 
weed problem.
    Secretary Norton. Mr. Chairman, our proposal is one that 
would continue our funding for those programs at the current 
level, working through our challenge cost-share program and 
deferred maintenance funding. What our proposal does is move 
away from mandatory funding for those purposes. We certainly 
recognize the importance of invasive weeds. I have my own share 
of understanding about cheat grass and things like that. We do 
recognize that is important. This is just a change in the way 
in which the funding is structured.
    Senator Burns. For years and years and years, groups have 
sought to eliminate grazing on public lands. The other day we 
saw where they actually paid a sheepman to come in and mob off 
the side of the mountain in order to get rid of weeds. That is 
the best control we have. They were so glad that they had come 
up with that idea, that grazing those things off is better than 
using chemicals or spray or hand eradication or anything like 
that. They came up with this idea they were going to use sheep 
to do it. Gosh, I wish I had thought of that.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.

                    RURAL AND COMMUNITY FIRE FUNDING

    Madam Secretary, I want you to know that I share the 
chairman's concerns about the rural and community fire funding. 
I too would like to see that report. I think we have got big 
problems, not having to do with your Department, but certainly 
the other Department with respect to seeing that those 
hazardous fuels monies could really go where the need is, 
particularly in the urban interface areas, which are more 
expensive to treat. That is really not your problem, but it is 
my problem.

                           LESLIE SALT PONDS

    I wanted to talk with you about something you said, and 
that is the subject of private/public partnerships. In my 
State, I think one of the best private/public partnerships was 
something that I had something to do with, and that was the 
private/public partnership that we hope will result in the 
largest wetlands restoration in our State. That is the 
conversion of the Leslie Salt Ponds in San Francisco Bay back 
into wetlands. The bay has lost 90 percent of its wetlands
    We put together a private/public partnership of $100 
million to buy those salt ponds from Cargill. My understanding 
is that the conversion is going rather well. As a matter of 
fact, as I fly home and we fly on the landing pattern over the 
salt ponds, I see them bit by bit changing back into wetlands 
and bay waters. It is indeed very exciting. We have had great 
cooperation from the Hewlett, the Packard, the Gordon Moore 
Foundation, the Richard Goldman Foundation, the State in 
putting up the money, and the Federal Government put in $8 
million of that $100 million.

                  DON EDWARDS NATIONAL WILDLIFE REFUGE

    A problem has arisen with the Don Edwards National Wildlife 
Refuge with the addition of 9,600 acres to that refuge. It is 
my understanding that Fish and Wildlife has said that that 
would cost another $540,000 in O&M. It is also my understanding 
that the President's budget proposes to remove $532,000 fiscal 
year 2005 appropriations for conservation work on the refuge. I 
think these are important dollars.
    So my question is, how will the Fish and Wildlife Service 
make up this $532,000 cut?
    Secretary Norton. I am enthused about the Don Edwards 
Wildlife Refuge, having once been a resident of the San 
Francisco Bay area.
    Senator Feinstein. You have been out there and you have 
seen what we are doing.
    Secretary Norton. Yes. That is a spectacular piece of 
property.
    We view that as a prime place for the Partners in Fish and 
Wildlife program and for some of our other conservation 
programs. We are requesting a $12 million increase for the 
general program activities in the partners program and believe 
that the Don Edwards Wildlife Refuge restoration would be a 
great example of the kinds of things that we could do with that 
program.
    We also have funding that we are working through with the 
U.S. Geological Survey for some research at the wildlife 
refuge. So what we would propose to do is work with our 
existing, funded programs to address the work in that area.
    Senator Feinstein. So far you are batting 1,000. Let us see 
if it continues.

                       USGS ASSISTANCE TO REFUGES

    I also understand that two important sources of 2005 
funding for USGS assistance to refuges totals about $900,000, 
and that will no longer be available in fiscal year 2006. Now, 
it is my understanding that these monies are used really to do 
critical studies on mercury and other pollutants in refuge 
areas. To be specific, this is $195,000 in USGS science support 
funds and $750,000 from the California Coastal Conservancy. 
Now, that is not your problem, but I understand those monies 
are no longer going to be available.
    So my question is, what will happen with some of those 
critical studies that need to be done?
    Ms. Scarlett. Senator, with the USGS we have what is called 
a Priority Ecosystems program from which monies went to this 
work. Also the State of California funded the research that you 
are identifying. That program is funded in 2006 at the same 
level as 2005, and we would anticipate that the science 
projects at Don Edwards would, likewise, in 2006 be eligible 
for funding.
    The other portion of funds came from what is called a USGS 
Quick Response program. That is funded at $350,000 in 2006. The 
distinction there, we would need to look at whether the Don 
Edwards Refuge would be eligible for the criteria set under 
that Quick Response program.
    Senator Feinstein. May I ask, Madam Secretary, then that 
you work with us so that we know?
    Secretary Norton. We would be happy to do that. I would 
also point out that we have significantly increased the 
operations funding for the Fish and Wildlife Service over the 
last several years and view that also as being available to 
help with that Don Edwards Refuge.
    Senator Feinstein. Thanks very much.

                        LWCF FUNDS REPROGRAMMING

    Now a question on the reprogramming of Land and Water 
Conservation funds. It is my understanding that last year's 
omnibus included a provision that rescinded $10 million in 
unobligated BLM Land and Water Conservation funds. I am 
concerned that an Interior plan to allocate to California a 
disproportionate share of the rescinded funds, and by that I 
mean that $7 million out of the $10 million would be taken out 
of California projects. That could make acquisitions very 
difficult, and specifically the Cathton property near Palm 
Springs, which Representative Bono and I wrote to you about. I 
do not know if you saw the letter but we wrote very recently.
    So my question is, how does the Department plan to ensure 
that these cuts are made fairly and the burden is shared 
equally across other States?
    Secretary Norton. I would like to ask Lynn Scarlett to 
address that in some detail.
    Senator Feinstein. Thank you.
    Ms. Scarlett. Yes. Thank you, Senator.
    At issue was $16.8 million in specific projects earmarked 
by the Congress but for which $6.8 million were provided. My 
understanding is that the Bureau of Land Management looked at 
its unobligated acquisitions across the Nation and looked at 
its existing priorities and determined which of the $10 million 
in unobligated balances it would then utilize for those 
programs authorized in the 2005 budget.
    I believe that reprogramming actually has already been 
undertaken. I think it has already been approved, if I am not 
mistaken.
    Mr. Trezise. Notification has been submitted to the 
subcommittees, yes.
    Ms. Scarlett. With the particular property that you have 
mentioned and the distribution of those unobligated balances 
for the State of California. If, as Congress reviews our 
reprogramming request, we need to go back and look at that, we 
certainly would do so.
    Senator Feinstein. I appreciate that. And you remember 
where you are from.
    Senator Burns. I will remind her.
    Senator Feinstein. Good.

                         DESERT PROTECTION ACT

    I am glad the chairman is here because I want to talk to 
you just for a minute about the Desert Protection Act. That is 
a bill that I wrote. We were intimately familiar with it. It is 
a big park and wilderness bill. When the bill was written, we 
were aware that there were certain grazing operations on 
national park land. I went down and I looked at them.
    This was really kind of the old West still existing in the 
desert. I remember visiting the Blair family. They live 50 
miles from the nearest school, 75 miles from the nearest store. 
Kathy Blair took her children to school both ways. That is 100 
miles a day driving. They had their own generator way out in 
the middle of the desert. They had about 500 head of cattle. 
His father, his grandfather had worked that.
    I wrote the bill specifically with the intent that the 
existing grazing would continue at the existing level. What I 
have noticed now are efforts to do away with the water, make it 
more difficult. There were only five ranchers left. Rob Blair 
wants to move out. It is just too hard now. Senator Burns 
helped me with some language on, one, to make it even clearer 
as to what the intent was.
    I believe that the Park Service should make every effort to 
allow the existing ranchers who wish to do so to continue to 
ranch within the confines of the bill's language.
    Now, this language can come into conflict with the 
Endangered Species Act involving the desert tortoise. I 
recognize that.
    But I guess what I want to ask you, offering a grazing 
permit, but withholding water facilities is an empty gesture. 
Will you commit to allowing the return of the previous water 
facilities under this temporary grazing permit?
    Secretary Norton. Senator Feinstein, I appreciate you 
bringing this to my attention. I have a prepared response from 
my staff, but I am concerned, as you are, about some of the 
questions that are raised. I want to find out some more about 
this and how much of this is necessitated by endangered species 
requirements and how much might be just not having an 
appreciation for the grazing heritage of the area. I do 
understand that there is one particular permit that has--not 
the individual you mentioned--that has some specific problems. 
But I would like to take a look a little more closely myself at 
the issues that you have raised.
    Senator Feinstein. Yes. So you know the legislative 
history, this was a tough bill to do. It was filibustered on 
the floor. The desert is not like Yellowstone. It is not like 
Yosemite. It is totally different. I mean, we have got millions 
of acres in this bill, at least 7-8 million acres. It has got 
everything there. The thrust of the bill was that no private 
property owner be displaced, no eminent domain. Everything 
would be willing seller/willing buyer. And existing grazing 
could continue sort of in the tradition of the old West.
    I know what happens. I understand it. I know the 
environmental thrust is, well, get these grazers, make it more 
difficult so they will move out, and there will be just 
wilderness with nothing else. But that has not been its 
history. I think there is a richness in its history. So the 
bill was written to protect that historic richness, and that is 
really what I want to share directly and publicly with you.
    Secretary Norton. Thank you very much. I will look into it 
some more.
    Senator Feinstein. Thank you, and would you let me know?
    Secretary Norton. All right.
    Senator Feinstein. Great. Thank you.
    CALFED. One part of the CALFED water program----
    Senator Burns. Will the Senator yield just for a comment?
    Senator Feinstein. Certainly.
    Senator Burns. I can remember that issue. I would advise 
the Secretary that there are some things that go on out there 
that you are unaware of. Using the endangered species, I think 
it is a weak answer. I think those people just come up with 
reasons to make it tough. I will tell you, if you find somebody 
that is doing that and they cannot substantiate it, fire them 
because some of these people in the Park Service are just 
absolutely dedicated to a different idea of what makes this 
country work than Senator Feinstein and I. So do not look at 
nothing. Just do what the legislation says. I mean it. I get 
upset when these people come up and give some damned 
bureaucratic answer that does not mean a thing. Maybe I get 
really upset about that.
    I know what she was trying to do and we tried to do it just 
exactly the way it should have been done in the first place. 
Now we find other reasons. That is weak. Enough said.
    Senator Feinstein. Thank you, Senator. I appreciate your 
support very, very much.

                                 CALFED

    Let me speak about CALFED. The one program that is within 
the jurisdiction of this subcommittee is the Fish and Wildlife 
Service's programs. In restoring habitat for endangered salmon, 
I understand there are proposals to concentrate funding on 
projects that provide the greatest increases in fish 
populations per dollar expended.
    What I would like to ask is that you provide me with a list 
of the most potentially promising ecosystem restoration 
projects in California and how these projects will advance us 
toward the fish doubling goals of the CVPIA. I think those are 
good goals. When we put together the CALFED bill, again, we 
were very serious in the ecosystems restoration and fish 
restoration. So it would be helpful if I were to technically 
know which are the most promising restoration areas for fish.
    Secretary Norton. That seems like an excellent question, 
and we will try to answer that as well as we can.
    [The information follows:]

 California Ecosystem Restoration Projects Relating to Central Valley 
                        Anadromous Fish Doubling

    Much of the restoration to date, conducted by the Fish and Wildlife 
Service under the authority of the Central Valley Improvement Act 
(CVPIA) and CALFED Bay-Delta program, has been focused on physical 
restoration to improve habitat conditions within the system. While 
these efforts have made significant progress towards the doubling goal, 
the Service believes increasing instream flow for fish passage, 
spawning and rearing is critical if the doubling objective is to be 
achieved. Habitat restoration remains a critical component, and coupled 
with instream flow for fish passage, can advance the goal of anadromous 
fish restoration. Three programs within the Service are focused on 
water acquisition for instream flow; the CVPIA 3406 b(3) Water 
Acquisition Program (WAP), the CALFED Environmental Water Program 
(EWP), and the CALFED Environmental Water Program. The CVPIA b(1) 
Anadromous Fish Restoration Program (AFRP) serves as the primary 
habitat restoration program. All of these programs undergo extensive, 
stakeholder processes that identify priority projects and streams 
targeted for funding.

                   CURRENT FISCAL YEAR 2005 PROJECTS

    The Service receives money annually through the Bureau of 
Reclamation to implement the Central Valley Project Improvement Act. 
The Bureau of Reclamation assesses a mitigation fee on water and power 
beneficiaries of the Central Valley Project. Fee collections comprise 
the Restoration Fund from which the Bureau of Reclamation allocates 
funds to the Service for restoration purposes. The programs and funding 
amounts described below will assist in advancing the anadromous fish 
doubling goal during fiscal year 2005:
    $5,181,000 was provided to the Service for the Anadromous Fish 
Restoration Program. Section 3406(b)(1) of the CVPIA directs the 
Secretary of the Interior to develop and implement a program that makes 
all reasonable efforts to at least double natural production of 
anadromous fish in California's Central Valley streams on a long-term, 
sustainable basis. The major resulting program is known as the 
Anadromous Fish Restoration Program. Since 1995, the AFRP has helped 
implement over 195 projects to restore natural production of anadromous 
fish.
    $617,000 was provided to the Service for the Clear Creek 
Restoration Program. The Clear Creek Fish Restoration Program was 
established to implement restoration within the Clear Creek watershed 
as provided for under section 3406(b)(12) of the Central Valley project 
Improvement Act. The Service and Reclamation have worked closely with 
California Departments of Fish and Game and Water Resources, the 
National Park Service, Bureau of Land Management, county and local 
agencies and organizations, stakeholder groups, and the general public 
to provide planning and implementation of restoration actions in the 
Clear Creek watershed. The Clear Creek Coordinated Resource Management 
Planning group and the Clear Creek Technical Team work directly with 
local entities to achieve Clear Creek Fish Restoration Program 
objectives.
    $581,684 was provided to the Service for the Anadromous Fish Screen 
Program. The primary objective of the Anadromous Fish Screen Program is 
to protect juvenile Chinook salmon, steelhead trout, green and white 
sturgeon, striped bass and American shad from entrainment at priority 
diversions throughout the Central Valley. Section 3406(b)(21) of the 
Central Valley Project Improvement Act requires the Secretary of the 
Interior to assist the State of California to develop and implement 
measures to avoid losses of juvenile anadromous fish resulting from 
unscreened or inadequately screened diversions on the Sacramento and 
San Joaquin Rivers, their tributaries, the Delta and the Suisun Marsh.

                           LONG TERM PROJECTS

    The following projects are also high priorities, however they are 
projected to take a decade to complete.

           WATER ACQUISITION FOR INSTREAM FLOW TOP PRIORITIES

    Clear Creek.--Generate medium high flows to recreate basic 
geomorphic processes and improve habitat quality and quantity for 
spring-run Chinook salmon and steelhead. The ten year program includes 
monitoring.
    Deer Creek.--Combine water use efficiency and ground water exchange 
to provide 50 cfs at critical times to allow unimpaired passage of 
spring-run and steelhead. The ten year agreement includes monitoring.

                   HABITAT RESTORATION TOP PRIORITIES

    Habitat restoration projects are implemented through a competitive, 
public request for proposals that includes extensive program, 
scientific, and budget review. Public notification is required before 
projects are funded, and environmental compliance (consistent with the 
Natural Community Conservation Planning Act, National Environmental 
Policy Act; State and Federal endangered species acts, etc.) is also 
necessary. A single entity cannot double natural production of 
anadromous fish throughout the Central Valley, partnerships are needed. 
Voluntary collaboration to achieve mutual goals and objectives will 
accelerate accomplishments, increase available resources, reduce 
duplication of efforts, encourage innovative solutions, improve 
communication, and increase public involvement and support through 
shared authority and ownership of restoration actions.
    The habitat projects below have a high potential for contributing 
to the CVPIA anadromous fish doubling goal.
    Clear Creek.--Stream channel and flood plain restoration projects 
to restore ecosystem function and increase spawning and rearing habitat 
and thereby increase fish production.
    Sacramento River--Improve passage at Red Bluff Diversion Dam for 
salmon, steelhead, and sturgeon.

    Senator Feinstein. Thank you very much.

           HEADWATERS FOREST RESERVE RESOURCE MANAGEMENT PLAN

    If I may, just a couple more. The BLM's California office 
believes that about $1 million annually for the next 5 years is 
needed to implement the headwaters forest reserve resource 
management plan.
    What I would like to ask is, if you have a position with 
respect to full implementation of the headwaters plan, would 
you tell us? And how much is in the 2006 budget on this issue?
    Secretary Norton. It is my understanding that we are on 
track with the implementation of that program. We have $1.2 
million that is allocated for implementation for 2005 and 2006. 
We do view that as an important goal.
    Senator Feinstein. Thank you very much.

                   HAZARDOUS FUELS REDUCTION PROGRAM

    Let me just ask a question along the lines of the dialogue 
that you and Senator Burns had. The BLM hazardous fuels 
reduction program is also important for California. 
Particularly, we rely on the $2 million of annual grants for 
local fire safe councils to implement community protection 
measures. I attended a Tahoe summit, which I hope one day you 
will be able to attend, where all of the jurisdictions around 
Lake Tahoe got together to do their fire plans. The point I 
guess is that these grants I think are important. The planning 
is going on all throughout the State.
    Do you plan to continue these grants?
    Secretary Norton. Our overall program that this is funded 
from is the hazardous fuels program, and that has an increase 
of $9.8 million for this year.
    The California Fire Safe Council is a very good program and 
we support the work that they are doing. The allocation of 
financial support to particular States and local programs is 
something that is done as we weigh the needs and the merits of 
each of those programs later on in the year. But we do support 
the overall work of the program. I cannot give it a specific 
dollar amount, but it is the kind of collaborative effort that 
we think makes a lot of sense.
    Senator Feinstein. Terrific. Thank you very much.

                             LAKE BERRYESSA

    Now, I guess a few days ago, we were visited by supervisors 
from Napa County who are having problems with the recreational 
facilities at Lake Berryessa, which is currently managed by the 
Bureau of Reclamation. I guess what I would like to ask is if 
you will work closely with our office and the county 
supervisors in looking at the options, as you undertake the EIS 
process for a new visitor services plan. Particularly 
Supervisor Dillon of Napa County was back here, and there have 
been two extensions of public comment. My understanding is the 
plan has been recently released for more public comment.
    The county provides the police and public services at 
Berryessa, which amounts to about $800,000 a year, and 
currently there are about 1,300 privately owned trailers on the 
west shore of the lake, and there is limited public access. So 
the trailer owners want the no-action alternative. That is kind 
of where we are. I do not know what the bureau's position is on 
this, but we have got a conflict.
    Secretary Norton. We understand this is a situation with a 
long history. We are very committed to going through the NEPA 
process and would be happy to work with you as we continue on 
that process. Reclamation expects to have their final 
environmental impact statement and record of decision in the 
summer or fall of this year. You are correct that we have asked 
for additional public comment.
    Senator Feinstein. Terrific. Now, just one last one and 
then I am finished.

                            PARK OPERATIONS

    The $55.5 million increase in the President's request for 
park operations is almost entirely, we understand, for fixed 
costs, including pay and benefit costs to cover current Park 
Service employees. I think it is great that these costs are 
finally being budgeted for, but I understand there are no 
programmatic increases for operations. How are you going to 
manage?
    Secretary Norton. The way in which our park funds are 
usually allocated is to each park individually. Within that 
they allocate it to the kinds of programs that they think are 
most significant for that individual park. We have increased 
funding. There was a significant increase in funding for 2005, 
and we continue with increases for 2006.
    We are also trying to look at ways in which we can operate 
more effectively system-wide. Some of our regional directors 
have been looking at what I think are good ideas, trying to 
look at efficiencies, including those between parks. For 
example, if we have two neighboring parks that each want to 
have a new archaeologist on staff, they look to see whether we 
might be able to share an archaeologist between the two parks. 
I think there are some things like that that may be helpful as 
well.
    We want to be sure that we are continuing to tackle the 
maintenance backlog and our request provides the funding for 
that, as well as for enhancing our visitor services.

                MARIJUANA PROPAGATION IN NATIONAL PARKS

    Senator Feinstein. Finally, I just want to give you a 
challenge. There is a lot of marijuana being grown in national 
parks, and particularly the King's Canyon Sequoia National 
Park. I would like to bring that to your attention, if I might.
    Secretary Norton. I have heard about some of those 
situations. We do have some additional staffing to try and deal 
with that. Last year at Sequoia King's Canyon there were 15 
arrests of individuals who were cultivating marijuana gardens 
within the park's boundaries. It is obviously a situation where 
we need to work very closely with the DEA and with other law 
enforcement agencies, as well as use our increased staffing for 
this.
    Senator Feinstein. Thanks for being on top of it. I 
appreciate it. I very much appreciate your cooperation and your 
responses. Thank you so much.
    Secretary Norton. Thank you, Senator.
    Senator Feinstein. Thanks, Mr. Chairman.
    Senator Burns. Thank you, Senator Feinstein.
    I am going to send a whole bunch of questions down there 
for you. We will work our way through this thing one way or the 
other. Working with you is a delight anyway, and I appreciate 
your patience today and your appearance here.
    I do have an announcement just for the record. The 
Department of Energy hearing is canceled for next week, but our 
next hearing will be with the EPA folks, Senator Feinstein. 
That will be on April 14.
    Senator Feinstein. Thank you.
    Senator Burns. We will get those schedules out to the rest 
of the members of this panel.

                   ADDITIONAL SUBCOMMITTEE QUESTIONS

    Again, the record will be left open, and if you would 
respond to those questions for the record, I would certainly 
appreciate that.
    Secretary Norton. Thank you, Mr. Chairman.
    Senator Burns. Thank you and thank you to your good staff. 
You have wonderful staff. They have been very cooperative in 
working our way through this. I certainly appreciate that too. 
Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]

              Questions Submitted by Senator Conrad Burns

                STATE ASSISTANCE (``STATESIDE'') PROGRAM

    Question. Your budget request proposes to zero out the Stateside 
program, which provides grants to states for recreation development and 
land acquisition. The rationale seems to be that the program does not 
have adequate performance measures, and might be viewed as more of a 
state or local responsibility.
    Can you elaborate on the reasons for your proposing not to fund the 
program?
    Answer. As the Administration strives to reduce the Federal 
deficit, focusing on high-priority direct Federal responsibilities is 
imperative. The reduction in State Conservation grants will allow NPS 
to focus on park activities while helping to reduce the deficit.
    Question. Does your request represent a temporary reduction from 
the Administration's point of view, or are you proposing to terminate 
the program?
    Answer. Budgets are prepared on an annual basis. Funding 
availability changes, priorities are reevaluated, and other factors 
differ from year to year. The Administration proposes that the State 
Conservation grants program receive no new grant money in fiscal year 
2006. Funding in fiscal year 2007 and beyond will be determined as part 
of the regular budget formulation and review processes that precede 
those budgets.
    Question. In tight budget times I'm the first to admit that we need 
to focus on the primary responsibilities of the Federal government. I 
note, however, that other state grant programs escaped the budget 
knife. The State and Tribal Wildlife Grant program, for example, is 
increased from $69 million to $74 million. One could certainly argue 
that management of fish and game not listed under the ESA is a state 
responsibility.
    Can you explain the disparate treatment of these two programs?
    Answer. The U.S. Fish and Wildlife Service's State and Tribal 
Wildlife Grant program directly supports the Service's mission of 
working with others to conserve, protect and enhance fish, wildlife, 
and plants and their habitats; and is an important component of the 
Department's cooperative conservation initiative. The long-term goal of 
the State and Tribal Wildlife grant program is to stabilize, restore, 
enhance, and protect species and their habitat that are of concern--
this includes listed, at risk, and other species. A significant number 
of species currently protected under the Endangered Species Act (ESA) 
reside, for all or a portion of their lives, on private lands. 
Additionally, many more species living on private lands are either at 
risk or potentially at risk of being listed under the ESA. Through the 
State and Tribal Wildlife grant program, the species and their habitats 
that are in the most need of conservation benefit. These efforts help 
the nation avoid the costly and time consuming process that occurs when 
a species' population plummets and needs additional management 
protection through the Endangered Species Act and other regulatory 
protections. Since many issues related to wildlife conservation are not 
contained by jurisdictional or administrative borders, the program also 
helps to ensure that the Fish and Wildlife Service and the States 
coordinate efforts to conserve threatened and endangered species, 
manage migrating birds, and prevent other species from becoming listed 
on the Endangered Species list.
    All States are nearing completion of their Comprehensive Wildlife 
Conservation Plans. These plans will have prioritized lists of 
conservation actions that will help States stabilize or increase their 
wildlife populations in a strategic, cost-efficient manner that is 
based on sound science. In order to ensure that species are benefiting 
from the conservation actions, all States will have in place strong 
monitoring programs. Because of this focus on local input, 
prioritization of actions, and monitoring, the Department is confident 
that the funds requested for this program will generate significant on-
the-ground results.
    In contrast, the National Park Service's LWCF State grants program 
funds improvements to State and local parks that are more appropriately 
funded through State funding. Furthermore, a PART review in 2003 found 
that this program could not measure performance or demonstrate results.

                            PRESERVE AMERICA

    Question. Your budget once again includes funds ($12.5 million) for 
a new ``Preserve America'' program to provide grants to communities to 
develop heritage tourism.
    As you know, there is already intense competition for funds in the 
arena of historic preservation and heritage programs. States and 
tribes--charged by Congress with administration of the Historic 
Preservation Act--are seeking additional funds to maintain current 
operations and allow for new tribal programs. Congress last year 
authorized three new heritage areas, and has many more proposals 
pending. The Save America's Treasures program is highly competitive. 
And we now have targeted, authorized programs for Historically Black 
Colleges and California Missions, with other legislation pending.
    Why do we need to create another new program in this arena?
    Answer. Preserve America embodies the Administration's commitment 
to heritage tourism and historic preservation as economic engines 
capable of driving local and regional economies. The Administration's 
fiscal year 2006 budget request of $12.5 million for Preserve America 
grants, which is only one component of the Preserve America initiative, 
would offer a new type of Federal preservation funding that would 
support local, state, and tribal heritage tourism initiatives, 
promotion and marketing programs, and development of directly related 
interpretive and educational programs.
    Federal preservation funding needs to evolve to reflect the 
increasingly important role that historic preservation and heritage 
tourism will play in community economic revitalization in the 21st 
century. Since the 1980s, increasing numbers of communities have begun 
rehabilitating their historic downtowns, encouraging reinvestment in 
their communities. Communities are also using preservation to encourage 
heritage tourists to visit (and spend their money). These trends are 
creating new jobs and new revenue while preserving the historic 
properties that help give communities their unique sense of place and 
history.
    Despite the growing importance of preservation and heritage tourism 
to community revitalization throughout the country, no nationwide 
Federal assistance is focused specifically on this issue. Other 
programs are much broader in scope--such as the historic preservation 
grants-in-aid to States and Tribes--or much narrower--such as programs 
for Historically Black Colleges and Universities. The Save America's 
Treasures program funds critical ``bricks and mortar'' projects, but 
not creation of management strategies and partnerships for linking 
preservation with heritage tourism. Funding for National Heritage Areas 
does address such issues, but is restricted to a limited number of 
discrete geographic areas. Preserve America Grants will fill a void by 
directly assisting communities nationwide in using and promoting their 
historic assets in ways that will spur economic development. In 
addition, Preserve America grants would place special emphasis on 
significant and creative private-public partnerships that could serve 
as models to communities.
    Question. What is the Federal role that isn't currently being 
fulfilled?
    Answer. Tourism is a key ingredient in the national economy, and a 
significant component of many local economies. It is the third largest 
retail sales industry, amounting to about $528.5 billion in 2002. 
Tourism is also one the Nation's largest employers, with 7.2 million 
direct employees and nearly 10 million indirect employees. Heritage 
tourism, including visiting historic sites and museums, ranked third 
among tourism activities and destinations, following shopping and 
outdoor activities. Nationally, in 2005, annual revenues from cultural 
and heritage tourism are expected to reach $200 billion.
    While we readily recognize that historic preservation contributes 
to heritage tourism, which in turn contributes to the economy, it is 
also important to recognize that the effects are circular: heritage 
tourism is a very important contributor to the preservation of the 
nation's historic resources. In many cases, the anticipated revenues 
from heritage tourism become the economic engine that drives the 
initial investment in preservation and rehabilitation of those historic 
resources that will become tourism destinations. By focusing on this 
circular effect, Preserve America grants will strategically carry out 
the National Historic Preservation Act mandate that the Federal 
Government will ``use measures, including financial and technical 
assistance, to foster conditions under which our modern society and our 
prehistoric and historic resources can exist in productive harmony and 
fulfill the social, economic, and other requirements of present and 
future generations.''
    The Administration's Preserve America grants will assist local, 
State, and tribal jurisdictions to capitalize on this new economic 
reality. The Federal Government can play a critical role by providing 
seed money to support planning, development, implementation, or 
enhancement of innovative activities and programs in heritage tourism, 
adaptive reuse, and ``living history'' programs that can be replicated 
across the country. The Administration's proposed Preserve America 
grants would provide needed program incentives and the investment 
opportunities to produce such local models.
    At a time when State and local governments, including counties and 
municipalities, are bearing much of the State fiscal difficulties, 
local tourism in general and heritage tourism in particular can help 
local governments develop their own revenue streams through sales and 
bed tax revenues and other indirect income derived from the tourist 
service economy. This economic value also translates into more, 
improved historic preservation activity and appreciation for the 
Nation's history as well as its heritage resources. The grants would 
also help other levels of government with important program start-up 
funds and the related tools they need to improve their efforts.
    Question. Why are Preserve America grants proposed to be 
distributed through a new national grant-making structure, as opposed 
to being administered by the state historic preservation offices?
    Answer. It is appropriate to target Federal investment in this new 
program through a nationally-competitive approach, rather than through 
the State allocation formula. While the formula for allocating annual 
operating funds to State Historic Preservation Officers is an 
appropriate and effective method of assistance for those State 
functions set out in the National Historic Preservation Act, the 
Federal Government has often recognized that specifically targeted 
preservation efforts--such as grants to Historically Black Colleges and 
Universities, or the Save America's Treasures grants--are more 
effectively focused through a centralized program. Preserve America 
grants fall under the category of specifically targeted efforts that 
will benefit from a focused national competition.
    Both State Historic Preservation Offices and Tribal Historic 
Preservation Offices are proposed among eligible applicants for 
Preserve America grants, in addition to designated Preserve America 
Communities and Certified Local Governments seeking Preserve America 
Community designation.

            FINANCIAL AND BUSINESS MANAGEMENT SYSTEM (FBMS)

    Question. The Department is in the midst of a major acquisition for 
its Financial and Business Management System. While we haven't given 
you 100 percent of what you've requested for this project, our 
investment to date is very substantial.
    My fundamental question is what steps are you taking to ensure that 
this major system acquisition doesn't wind up like so many others in 
government, which is to say in the trash can?
    Answer. The Department has used a planning and implementation 
process that is guided by investment control processes, put in place a 
governance process and management structure to ensure adequate 
oversight, monitoring, risk management, and test and user acceptance.
    First, the Department undertook an extensive planning process that 
modeled the current business processes (as is) and sought bids for 
design and deployment of an off-the-shelf system that would provide the 
Department with a system that meets its needs. Selection of a 
contractor followed an exhaustive and thorough evaluation of 
alternatives and full review and acceptance of a business case.
    The Department's project lead managers evaluated the projects 
completed by the contractor and made site visits to the Commonwealth of 
Pennsylvania. The managers evaluated the deployment of software by 
other Federal agencies to gain knowledge about best practices and gain 
understanding of potential risks.
    Once a contractor was selected, the Department put in place a 
governance structure for project decisions based on evaluation of risk. 
A full-time project management office was put in place to maintain 
continued project management. Deployment to bureaus of modules would be 
subsequent to testing and user acceptance. The Department contracted 
with an independent verification and validation IV&V contractor to 
provide oversight for the project, put in place a change management 
process, and created operational environments in which to develop, 
test, and operate the system.
    The project has a strong governance structure including an 
Executive Steering Committee of senior bureau business leaders and the 
Department's Chief Information Officer. They oversee the project and 
take management actions necessary to ensure that the investment 
benefits will be realized.

                    ICON SECURITY--U.S. PARK POLICE

    Question. Madam Secretary, for several years now we have been 
working with the U.S. Park Police to ensure that the funds we provide 
them are properly managed, and that the organization itself has a clear 
mission. This is more important than ever given the role the Park 
Police plays in protecting some of our icon parks.
    Can you give us a status report on these efforts? What changes have 
been made and what changes are underway?
    Answer. In August 2003 the Department directed a comprehensive 
internal effort to complete the task of clearly defining the mission, 
priorities, and responsibilities of the Park Police. Shortly after this 
internal review began, the House Appropriations Subcommittee on 
Interior and Related Agencies requested NAPA to follow up on its 2001 
recommendations and again assess USPP's mission and functions, the 
priorities and resources assigned to them, and the feasibility of 
adjusting current functions. Because this essentially became a parallel 
effort, the Department closely coordinated with NAPA, realizing that it 
was critical to incorporate NAPA guidance in our final efforts. NAPA's 
new methodology for assessing USPP operations and establishing 
priorities for USPP functions was of immense help in providing answers 
to significant budget and management concerns.
    Working closely with the NPS Deputy Director, the Acting USPP 
Chief, and NAPA, the Department has completed a thorough mission 
review. Implementation of the principle recommendations concerning 
mission clarification, responsibilities, and priorities are well 
underway. Many of the other NAPA recommendations are also completed, 
while some have made significant progress, but remain ongoing. The 
Department is continuing to follow up on all NAPA recommendations that 
are not yet completed. The internal review, Report to the Secretary, 
U.S. Park Police Mission Review, dated December 17, 2004, was provided 
to the Subcommittee and includes a detailed report on each NAPA 
recommendation.
    Question. Have we made it to the point where we're less likely to 
be surprised by mid-year reprogramming requests, or by actual force 
levels that don't match budget forecasts?
    Answer. We have reached the point where the Park Police can manage 
its Force and its finances at a high level of expertise. This 
confidence is realized by the work of the Park Police during the 
Department's mission review and the selection of Dwight Pettiford as 
the permanent Chief of the U.S. Park Police. Chief Pettiford, who was 
the acting Chief for about a year, was instrumental in helping to bring 
the Park Police mission review and operational priorities of the Park 
Police to closure. We also hired an experienced Chief Financial Officer 
for USPP in October 2004 who will assist the Chief to better manage the 
budget. The Department will also continue a high level of commitment 
into the future, helping the Park Police to finalize the remaining NAPA 
recommendations; reviewing and implementing the draft USPP Strategic 
Plan, which is under review by the NPS; reviewing the USPP draft 
staffing model upon its completion; and providing specific guidance for 
the 2007 budget formulation cycle.

                         RECREATION FEE PROGRAM

    Question. Last year in the omnibus appropriations bill Congress 
extended the recreation fee program on a long-term basis. I fought this 
move along with other members of this subcommittee because I believed 
the authorizing committees of jurisdiction were the appropriate bodies 
to deal with this legislation. But we did not prevail.
    You are aware, Madam Secretary, that there is still some 
disagreement out in the land about whether fees are appropriate, on 
what activities they should be collected, and how the collections 
should be spent.
    Are there things in last year's authorization bill that will help 
address some of these concerns? How will the new program be different 
than the fee program as it has existed for the past several years?
    Answer. The new Act provides for a nationally consistent 
interagency program with clear criteria for determining appropriate 
sites eligible for applying recreation fees, additional on-the-ground 
improvements to visitor services at recreation sites across the nation, 
a new national pass for use across interagency Federal recreation sites 
and services, and more public involvement in the program. Unlike the 
Fee Demo Program, which provided broad authority to charge fees, the 
Act specifically limits fees to sites that have a certain level of 
development and meet specific criteria. The Act includes additional 
safeguards against unwarranted expansion of the program by creating 
Recreation Resource Advisory Committees in every state or region and 
providing other public participation opportunities.
    Implementation of a well-run and streamlined recreation fee program 
that maximizes benefits to the visiting public is a top priority for 
the Departments. On December 17, nine days after FLREA was signed into 
law, the interagency Recreation Fee Leadership Council (Fee Council) 
convened and approved an Implementation Plan. The Fee Council, whose 
members include officials of both Departments, was created in 2002 to 
facilitate coordination and consistency among agencies on recreation 
fee policies. Our Implementation Plan includes the creation of a 
Steering Committee to oversee day-to-day implementation, as well as 
several technical working groups for each of the key areas. The Fee 
Council created the following technical working groups:
  --National Pass Working Group
  --Fee Collection/Fee Expenditure Working Group
  --Public Participation/Recreation Resource Advisory Committees (RAC) 
        Working Group
  --Communications Working Group
    The Implementation Plan sets forth preliminary implementation 
timelines by identifying short-term, medium-term, and long-term tasks 
and designates staff with the lead responsibility to accomplish those 
tasks. The working groups are drafting guidance, developing detailed 
action plans, and discussing key issues to ensure compliance with the 
new law. One of the short-term tasks of the Fee Collection/Fee 
Expenditure Working Group is to ensure that all sites that charge 
recreation fees conform to the infrastructure and other requirements of 
the new law. Although this review continues, the following are examples 
of sites that have already made changes to their fees under FLREA:
  --Gavin's Point National Fish Hatchery (FWS) no longer charges an 
        entrance fee.
  --Arapaho National Recreation Area (Forest Service) no longer charges 
        an entrance fee for the entire area, but may charge a standard 
        amenity recreation fee at localized developed sites.
  --At Imperial Sand Dunes (BLM), recreation fees for two overlooks and 
        a trailhead were eliminated.
  --Quake Lake Visitor Center and Lewis and Clark Visitor Center 
        (Forest Service) no longer charge for children under 16 years 
        of age.
    Implementation efforts that will require longer timeframes to 
implement include establishment of RACs and the implementation of the 
America the Beautiful Pass. Successful implementation requires that we 
provide opportunity for public input. The RAC Working Group will need 
to closely coordinate on the nominations process with states, counties, 
and the numerous recreational, tourism, and other groups interested in 
serving on the RACs.
    A number of factors have led us to set a target date of 2007 for 
the America the Beautiful Pass, such as an interest in conducting 
``listening sessions'' to provide public input on the pass, conducting 
marketing surveys, and developing a process for fulfillment and 
marketing proposals. We also are taking into consideration the long 
lead time needed for certain aspects of the pass, such as the image 
competition. We believe the America the Beautiful Pass has tremendous 
potential to provide visitors with a seamless visitor experience, allow 
interesting and creative partnerships with communities on visitor 
facilities and services, and educate visitors about the tremendous 
recreational opportunities on our Federal lands.
    We look forward to working with any interested parties and Congress 
as we move forward to implement this very important program.
    Question. Beyond the requirements of the law, what other steps are 
you taking to ensure that the Department doesn't overreach in charging 
fees, and that the fee money itself is spent in the most beneficial and 
appropriate way?
    Answer. The Departments view the passage of FLREA as the beginning 
of an important opportunity to create a sensible, visitor friendly, 
efficient recreation fee program. FLREA creates a dynamic program that 
we intend to implement in a way which will respond to lessons learned 
and build on success stories.
    We want to ensure that fees only are charged where enhanced visitor 
facilities or services are provided and that a majority of the fees are 
reinvested into visitor facilities and services at the site. Toward 
this end, we not only are implementing the explicit safeguards against 
unwarranted expansion found in FLREA, but also are developing guidance 
and processes that take into account specific agency and site 
differences. The agencies are working together to draft specific 
guidance, develop detailed action plans, including timelines, and 
discuss key issues.
    One of the short-term tasks of the Fee Collection/Fee Expenditure 
Working Group is to develop guidance on where fees may be charged and 
spent to enhance the visitor experience. Such guidance should work in 
concert with existing systems in the agencies that identify priorities 
and needs. For example, NPS has put in place a facility management 
system that ``grades'' facilities and other assets based on a facility 
condition index (FCI). Similarly, BLM is implementing the Facility 
Asset Management System (FAMS) to plan and track facility-specific 
maintenance needs and costs, to prioritize and monitor maintenance 
activities, and to prevent a recurrence of maintenance backlogs.
    We also understand that the public participation provisions in 
FLREA are a key component to creating a visitor-friendly recreation fee 
program. The Public Participation/RAC working group is developing 
detailed guidance to ensure the public is provided with opportunities 
to participate. In developing the RACs, we will closely coordinate on 
the nominations process with states, counties, and the numerous 
recreational, tourism, and other groups interested in serving on the 
RACs.
    We have begun providing opportunities to participate during the 
implementation phase of FLREA. In addition to responding to a number of 
specific inquiries on implementation, the National Pass Working group 
has hosted two ``listening sessions'' to provide the public and members 
of the recreation community with an opportunity to share ideas about 
the implementation of the America the Beautiful Pass. We anticipate 
keeping the public informed and seeking input on the implementation 
process through additional stakeholder meetings, Congressional 
briefings, and web postings.

                            RELOCATION COSTS

    Question. I note from the budget justifications that you are more 
tightly managing various ``contingency accounts''. The National Park 
Service notes that relocation costs accounted for 25 percent of its 
contingency account expenditures in fiscal year 2004, for a total of 
close to $5 million. This is a significant amount.
    Has the Service or the Department recently reviewed its policies 
and procedures with an eye toward reducing relocation costs?
    Answer. Each year the National Park Service's Accounting Operations 
Center prepares an Agency Relocation Cost and Management Data analysis 
that is submitted through the Department to the Office of Management 
and Budget (OMB).
    The Department has undertaken a review of current relocation 
policies and practices with an eye to improving effectiveness and 
efficiency. Thus far we have examined the current practices, policies 
and costs, and are considering policy changes to the relocation service 
contract: the time allowed employees to conduct house hunting, the 
duration of temporary quarters, and the duration allowed for household 
goods storage.
    Question. If not, why not? If so, what changes have been made and 
what results have those changes had?
    Answer. The National Park Service complies with the relocation 
policies in Chapter 302 of GSA's Federal Travel Regulations. The costs 
of relocation have been rising in recent years, especially with respect 
to the ``homesale program'' and ``temporary quarters''. Home values in 
major metropolitan areas have appreciated by as much as 300 to 400 
percent in the last few years, increasing NPS costs for the homesale 
program. Large portions of the relocation program are fixed as a 
percentage of the value of the house.
    NPS managers pay the relocation costs of employees when they 
successfully compete for a park position in another location. In many 
cases, parks are limited in being able to fill positions in cases when 
the best (or only) candidate is too expensive to relocate.
    The NPS, in conjunction with GSA policy, offers an incentive to 
employees to sell their own home, thus decreasing the expense to the 
agency. Employees who sell their own home receive an incentive that is 
the lesser of 5 percent of the value of their home or the difference 
between the appraised and amended value of the home. This typically 
results in expenses to NPS that are between 4 and 9 percent less than 
if a contractor sells the home. With regard to covering temporary 
quarters and subsistence expenses, the NPS encourages employees to make 
advance house-hunting trips, enabling the NPS to limit the length of 
time employees reside in temporary quarters to 30 days. The Department 
plans to pursue its examination of options to reduce costs through the 
changes to relocation policies and practices.

                    SAFECOM AND DISASTER MANAGEMENT

    Question. Last year this subcommittee prohibited the Department 
from transferring funds to implement the government-wide SAFECOM and 
Disaster Management programs, though we did not prohibit you from 
participating in these initiatives.
    What has been your involvement to date in these initiatives? Has 
your inability to contribute funding hampered your participation from a 
Departmental point of view?
    Answer. The Department has significant involvement in SAFECOM. This 
includes participation in the subcommittees, drafting and recommending 
standards and participation in the advisory committee. Several 
headquarters and field staff have also attended SAFECOM sponsored event 
such as the Federal Partnership for Interoperable Communications. The 
inability to provide funding to SAFECOM has not hampered Departmental 
participation in SAFECOM.
    For Disaster Management, the Department has initiated actions to 
provide emergency alert and notification messages in the Common 
Alerting Protocol (CAP) format, an open, non-proprietary standard data 
interchange format adopted by Disaster Management. Information to the 
public will be made available via the internet, and messages intended 
for other governmental users will be provided via the Disaster 
Management Interoperability Services (DMIS) system. The United States 
Geological Survey will implement CAP messaging during 2005 for 
earthquake notifications and for landslide and volcano advisories. 
Working with the Bureau of Land Management and the wildland fire 
community, CAP messages will be generated for a limited geographic area 
during 2005, with the intent of expanding coverage in 2006 as business 
rules for such warnings are addressed. Coordination will also begin 
with the Forest Service. The inability to provide funding to Disaster 
Management has not hampered Departmental participation in Disaster 
Management.
    Question. Please provide for the record a summary of all SAFECOM 
and Disaster Management funding requested in the fiscal year 2006 
budget for the Department, as well as a summary of total expenditures 
government-wide, by agency.
    Answer. The Department's 2006 request includes a total of $1.55 
million for SAFECOM and $680,000 for Disaster Management. Government-
wide 2006 spending as reported in OMB's report for Information 
Technology spending for SAFECOM totals $22.8 million and for Disaster 
Management totals $12.3 million.

                           FLEET EXPENDITURES

    Question. The Department spends some $160 million to maintain a 
fleet of more than 31,000 vehicles. Last year you proposed to achieve 
significant savings from improved fleet management, with projected 
savings of $11 million in fiscal year 2005 and $3.7 million in fiscal 
year 2006.
    What progress have you made toward these goals to date? Is it going 
better or worse than expected?
    Answer. In 2004 the Department began a collaborative initiative to 
improve fleet management, developed a strategic plan, and began to 
implement recommendations from a review of the program conducted by the 
Office of Inspector General. The initiative focuses on economic-based 
strategies, including implementation of life-cycle replacement 
schedules, disposal of underutilized vehicles, disposal of vehicles 
that have surpassed their lifecycle, use of fleet performance measures, 
energy-saving practices including an expanded use of alternate-fueled 
vehicles, and expanded leasing. The Department-wide strategy for 
improved fleet management includes migrating fleet management programs 
to a more standardized operational model that promotes energy-saving 
technologies, the development of fleet composition baselines and multi-
year plans, improved performance metrics that address efficiency and 
effectiveness, vehicle and motor pool sharing, and purchase and lease 
arrangements that consider seasonal workforces. The Department's 
improvement plan will realize cost savings of 2-5 percent of the total 
budget.
    Question. What obstacles have you encountered?
    Answer. The dispersed nature of the Department's programs and 
offices and the variability in the needs for vehicles make it a 
challenge to implement more consistent and cost-effective vehicle 
operations. For example, many of the Department's fleet need to be able 
to cover rough terrain and as a result are equipped with features such 
as four-wheel drive. These vehicles cannot regularly consume the most 
efficient fuels available, nor are they the most fuel efficient 
themselves. However, fleet managers are optimistic that further 
reductions in fuel consumption can be attained with the availability of 
hybrid sport utility vehicles and the expanded markets of ethanol and 
bio-diesel. In addition, because half of the USGS fleet is at least ten 
years old, efforts to reach certain fuel efficiency targets by that 
bureau have been prevented and it will take several years to implement 
a life cycle replacement program. There are also challenges related to 
getting favorable leasing arrangements that would allow parks and other 
field locations to maintain vehicles on a seasonal basis in lieu of 
more costly annual contracts.

                  COOPERATIVE ECOSYSTEM STUDIES UNITS

    Question. Cooperative Ecosystem Studies Units were developed as a 
cost-effective means of engaging university science and training 
capabilities regionally to achieve Federal agency goals.
    What has been the Department's experience with CESUs? Have they 
lived up to their promise?
    Answer. The Department's Cooperative Ecosystem Studies Unit (CESU) 
Network is organized into 17 regional CESUs. Five DOI bureaus are 
partners in the network: NPS and USGS are partners in all 17 CESUs; the 
Bureau of Land Management has joined 16 CESUs; and the Fish and 
Wildlife Service and Bureau of Reclamation have begun to participate 
actively, joining 6 and 5 CESU's respectively. The Department has over 
2,000 research, technical assistance, and education projects completed 
or underway with the over 180 CESU-affiliated universities and other 
partners. Many projects involve several Federal agencies working 
together. The reduced overhead rate, common cooperative agreement, and 
efficient administrative procedures have made the program cost-
effective. The first 8 CESUs have gone through a careful review 
process, involving self-assessment, Federal managers review, and an 
independent review. CESUs have exceeded their initial promise, with all 
8 receiving very positive evaluations. There are now 13 Federal bureaus 
engaged as partners with the CESU network, evidence that the CESUs are 
considered useful and effective by a wide range of Federal bureaus both 
within and external to the Department of the Interior.
    Question. Concern has been expressed to me about universities 
bearing a disproportionate share of the costs of this partnership.
    Are any funds available to universities for the basic cost of 
hosting activities, providing technical assistance, providing training, 
etc.? Is there merit to providing some amount for each CESU for such 
purposes?
    Answer. When CESUs were established, each partner Federal bureau 
provided $10,000 toward a one-time start-up fund for the host 
university. With the reduced overhead rate of 17.5 percent agreed to by 
all universities, funds for hosting activities, technical assistance 
and training are very limited. While there may be merit in providing 
funds for universities that host CESUs for these purposes, such funding 
should remain directly linked to the individual research, technical 
assistance, or education projects entered into between the Federal 
bureaus and universities. Such funding provides substantial return on 
the investment for Federal agencies--providing for increased 
coordination, technical assistance, training, and other necessary CESU 
activities.

                         PRESIDENTIAL INAUGURAL

    Question. As is customary, the fiscal year 2005 budget for the 
National Park Service and the U.S. Park Police included funding for 
additional costs associated with the presidential inaugural.
    Can you provide for the record a breakdown of these costs? Has a 
full accounting of the NPS/USPP costs for the 2005 inaugural been 
completed? How did NPS/USPP incremental expenditures for the inaugural 
compare to the increases provided?
    Answer. The National Capital Region received an appropriation of 
$986,000 for the inaugural. Costs incurred by the region include 
planning, preparation and support of the celebration. Reported costs 
for the inaugural and the most recent estimates of post inaugural 
maintenance total $980,000:

------------------------------------------------------------------------
                            Item                                Amount
------------------------------------------------------------------------
Personnel Compensation.....................................     $524,759
Communications.............................................        4,708
Supplies/Materials.........................................      154,898
Equipment..................................................       52,705
Equipment Rentals..........................................       12,086
Services...................................................      230,844
------------------------------------------------------------------------

    Services of $230,844 includes $42,000 for turf restoration on the 
Mall, $27,329 for fencing, $8,390 for telephone and IT services, $3,125 
for removal of decorations from the National Christmas Tree, and 
$150,000 for lighting along Pennsylvania Avenue NHP. Costs include 
post-inaugural maintenance activities, including $50,000 for 
replacement and repair of press risers, $98,114 for gravel on the 
National Mall walkways, and $30,000 for paving along the sidewalks of 
Pennsylvania Avenue NHP. Expenditures and related estimates are 
consistent with the funds requested and provided in the fiscal year 
2005 appropriation.
    The U.S. Park Police received an appropriation of $986,000 for the 
fiscal year 2005 Presidential Inaugural celebration. To date, reported 
expenditures from this fund total $420,054:

------------------------------------------------------------------------
                            Item                                Amount
------------------------------------------------------------------------
USPP Payroll...............................................     $223,325
Travel.....................................................       16,853
Equipment..................................................       33,702
Other Services.............................................      146,174
------------------------------------------------------------------------

    Other Services consist primarily of funds paid to law enforcement 
from neighboring counties. The final costs to the USPP are not expected 
to exceed the $986,000 appropriation. The USPP also received $165,000 
from the 55th Presidential Inaugural Committee specifically earmarked 
for the ``Celebration of Freedom'', and expended $144,283 for this 
event. The remainder of the $165,000 was returned to the Committee.

                       FACILITY CONDITION INDICES

    Question. As part of your effort to implement the President's 
Management Agenda, I note that the Department is using facility 
condition indices in several of its bureaus as a tool to help 
prioritize capital projects.
    What bureaus are currently using or developing facility condition 
indices?
    Answer. The Bureau of Land Management, the Bureau of Reclamation, 
U.S. Geological Survey, the Fish and Wildlife Service, the National 
Park Service, and the Bureau of Indian Affairs are currently using 
facility condition indices (FCI) to varying degrees. Currently, all 
bureaus are conducting condition assessments in which constructed 
assets have been or will be assigned an FCI. FCIs for constructed 
assets will be reported to the Federal Real Property Profile required 
by Public Law 13327 Real Property Asset Management starting in the 
first quarter of fiscal year 2006.
    Question. To what degree are FCIs for individual facilities 
comparable across bureau lines?
    Answer. Constructed assets can be compared across bureau lines when 
that constructed asset has the similar function such as housing and 
visitor centers. Currently, FCIs for individual facilities are not 
compared across bureau lines. However, the Department of the Interior's 
Asset Management Partnership, as outlined in the DOI Asset Management 
Plan (AMP), will be exploring the use across different types of assets 
within the various bureaus. The FCI will be used with a fully developed 
DOI-wide asset priority index (API) that rates each existing or 
proposed owned and leased asset in the inventory at a specific field 
unit/site based on its importance in carrying out the DOI and bureau 
missions and achieving strategic goals. In the second quarter of fiscal 
year 2006, the Asset Management Partnership will provide Departmental 
policy on improving the condition of the asset portfolio and properly 
sustaining it over asset life cycle or component life cycle.
    Question. Would a BIA school with an FCI of .5 be in much the same 
condition as a National Park Service historic building with an FCI of 
.5?
    Answer. The various types of constructed assets will have their own 
numerical scales of what is good, fair, and poor. The Asset Management 
Partnership will be reviewing FCI use across different types of assets 
across the Department.
    Question. Are these measures currently useful in judging the 
condition of one bureau's assets against another, or primarily useful 
only for comparing assets within individual bureaus?
    Answer. Currently, these measures are only useful in comparing like 
assets within an individual bureau. As noted in the response to the 
previous question, the Asset Management Partnership will be reviewing 
FCI use across different types of assets across the Department.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    Question. Based on what you know from past and current legislative 
proposals, if mineral development within the Arctic National Wildlife 
Refuge were to be authorized this year as proposed in your budget:
    What would be required of the Department during fiscal year 2006? 
What would be the cost of those activities and what bureaus would 
likely perform them?
    Answer. In answering this question, the following assumptions are 
made:
  --The Bureau of Land Management (BLM) is the lead agency for the 
        leasing program (e.g., BLM will be responsible for preparation 
        of the Environmental Impact Statement during the pre-lease 
        phase);
  --Authorizing legislation would cover seismic exploration during the 
        pre-lease phase; and
  --Authorizing legislation addresses compatibility with Refuge 
        purposes.
    The following major functional tasks would be carried out prior to 
the first lease sale should Congress authorize energy development 
within the Arctic National Wildlife Refuge.
    1. Development of preliminary leasing regulations.--After passage 
of authorizing legislation, and because there are currently no 
regulations in place for leasing in ANWR, the Department, through the 
BLM, would need to promulgate leasing regulations for the program. The 
specific content of the regulations would be contingent on the terms of 
the authorizing legislation. BLM has indicated that the regulations in 
place for leasing in the National Petroleum Reserve-Alaska (NPR-A) 
could serve as a template.
    The process of drafting regulations would probably run concurrently 
with the process of drafting an Environmental Impact Statement. BLM 
estimates that, assuming no unforeseen delays, the final regulations 
would be issued prior to the lease sale.
    2. Development of Environmental Impact Statement.--At the same time 
that the process of writing regulations begins, the BLM would begin the 
process of drafting the Environmental Impact Statement (EIS) for 
leasing activities. It is during the EIS process that any stipulations 
applicable to the leasing program would be developed. Like the leasing 
regulations, a template for stipulations exists from the NPR-A process, 
though BLM would also take into account any specific requirements of 
the ANWR authorizing legislation.
    The minimum timeline for an EIS, from initiation to Record of 
Decision (ROD), is estimated at 18 months. Lawsuits related to the EIS 
could further delay implementation of a leasing program in ANWR.
    3. Seismic Exploration.--Pre-lease seismic exploration, if carried 
out, would likely be done concurrently with development of the EIS.
    4. Post-ROD Final Preparations for Lease Sale.--Again, using the 
NPR-A experience as a template, the final preparations for the lease 
sale would likely include the preparation by BLM of a Coastal Zone 
Management Consistency Determination; State of Alaska DNR review and 
response to that determination; then publication in the Federal 
Register of the Notice of Sale 30 days prior to the actual lease sale. 
Note that the State's response to the consistency determination must be 
received prior to publication of the Notice of Sale.
    The minimum period of time estimated by BLM for this process, from 
the signing of the Record of Decision to the lease sale, is 120 days, 
broken down as follows:

------------------------------------------------------------------------
                                                                  Days
------------------------------------------------------------------------
BLM Preparation of draft CZM--Consistency Determination......         30
BLM Internal Review of draft.................................         10
State DNR review and response to draft.......................         50
Publish Notice of Sale in Federal Register...................    \1\ 30
------------------------------------------------------------------------
\1\ The Federal Register Notice requires a 45-60 day review period in
  the BLM Alaska State Office and the Washington Office prior to
  publication; this review would run concurrently with the first 90 days
  of these final preparations.

    The lease sale would take place 30 days after publication of the 
Notice of Sale.
    There are several places in this process where delays could result 
in a longer time period. For example, the State's review process for 
the consistency determination is actually 90 days, but the State 
normally agrees to shorten the review period to 50 days. Also, as noted 
above, the State's response to the consistency determination must be 
received prior to publication of the Notice of Sale.
    The Department has not yet estimated the specific cost of 
performing these activities but expects that funding would be 
reallocated from other program activities as necessary.

                          BLACKFOOT CHALLENGE

    Question. The Blackfoot River watershed is an extraordinary place, 
and if you haven't been there, I invite you or Ms. Scarlett to join me 
there this summer. A great strength of the valley is its community of 
citizen stewards--led by the Blackfoot Challenge. The Blackfoot 
Challenge exemplifies the spirit of cooperative conservation that you, 
the President and I are working to encourage and support.
    I've been working hard to help the Blackfoot Challenge achieve its 
goal of conserving this remarkable place and the community that lives 
there. I've been pleased that the President requested funding to 
support this community-led initiative in both the fiscal year 2005 and 
2006 Forest Service budgets. I am concerned, however, that your 
Department has not been supporting this project, despite the 
participation of local BLM and FWS officials from the get go.
    Can you explain why your Department has not yet recognized the 
conservation opportunities that the local community, the Forest Service 
and the Congress have so clearly recognized? I am particularly 
concerned that the BLM, an agency whose mission I strongly support, has 
not been acting to support this project.
    Can you help me understand the gap between BLM's local support and 
the lack of support by the Washington office?
    Answer. The Blackfoot River Watershed Land and Water Conservation 
Fund LWCF project is part of a multi-phase land acquisition project. In 
order to implement the project, BLM is conducting appraisals, land use 
planning, and environmental clearances for the project. During fiscal 
year 2004, the Bureau carried over $2.9 million in funding appropriated 
for the project. The Phase I Acquisition was completed in February 2005 
with the acquisition of 2,500 acres. During fiscal year 2005, an 
additional $4.9 million was appropriated for the purchase of 
approximately 4,000 acres. The BLM will complete the appraisal on the 
Phase II Acquisition by the end of fiscal year 2005, and has completed 
the appraisal on the Phase III Acquisition.
    Question. Last fall FWS Director Steve Williams announced the start 
of planning for a conservation easement program to protect the working 
landscapes and natural resources of the Rocky Mountain Front. I hope 
this program will be a fine example of cooperative conservation by 
ranchers, conservationists and the Service.
    When do you expect this long delayed planning effort to be 
completed?
    Answer. The Front is a high-priority conservation area for the 
Service and its partners in the conservation community, including the 
State of Montana, the Boone and Crockett Club, and The Nature 
Conservancy, because it is the only remaining landscape in the 
Continental United States with a complete, intact and functional 
assemblage of large mammalian carnivores, including the grizzly bear, 
gray wolf, wolverine, and lynx.
    The Preliminary Project Proposal for the Program was approved by 
the Service's Mountain-Prairie Regional Office in April, 2002 and 
forwarded to Service Director Williams for approval. The Director 
approved the PPP in October, 2004. This approval provided the Service's 
Regional Office with the authority to proceed with detailed planning to 
consider the establishment of the easement program. Since October, the 
regional planning team has met with the Montana Congressional 
delegation, conservation and sportsmen's groups, Federal agencies, 
state, and local governments, tribes, and various local business 
interests. The team has also held three public scoping meetings at 
various locations near the project area.
    The Service has developed an Environmental Assessment, pursuant to 
the National Environmental Policy Act, to analyze the effects of 
establishing an easement program on the Front, and plans to issue a 
Finding of No Significant Impact as a result of the Environmental 
Assessment. These documents are currently under review for final 
approval by the leadership of the Service.

                   ENERGY DEVELOPMENT--FLAG GUIDANCE

    Question. Your Department has been tasked with implementing a lot 
of President's Energy Plan. I applaud your aggressive efforts to 
encourage domestic energy production. At the same time, under your 
watch a Clinton-era guidance document--the so-called FLAG guidance--has 
continued to be used as a tool to frustrate the state permitting of 
critically important energy projects nationwide. In fact, Federal land 
managers with jurisdiction in my state tried to stop a much-needed 
facility using these guidelines.
    How do you justify having these internal guidelines--which were 
neither reviewed nor approved by the Congress--continue to frustrate 
energy development in the Nation?
    Answer. Under the Clean Air Act, the Congress gave the Federal Land 
Managers (FLMs) an affirmative responsibility to protect the visibility 
and other air quality related values of parks and wilderness areas 
(i.e., Class I areas) from the adverse impacts of air pollution. One 
process used to meet this responsibility is reviewing permit 
applications for new and modified sources that may impact Class I areas 
under our responsibility. Under the statute, FLMs have an important 
role in the permit review process. It consists of reviewing permit 
applications in order to gauge the impact of proposed construction of 
major new sources (or major modifications) on Class I areas that are 
under the jurisdiction of FLMs, and providing comments and 
recommendations to the permitting authority (usually the State) on 
whether or not the applicant's facility could cause or contribute to an 
adverse impact on an air quality related value in the affected Class I 
area. The Federal Land Managers Air Quality Related Values Workgroup 
(or FLAG guidance) was designed to provide guidance to permit 
applicants and permitting authorities in the form of recommendations, 
specific prescriptions, and interpretation of results for assessing 
visibility impacts of new sources near Class I areas.
    Both permit applicants and permitting authorities requested that 
the FLMs develop a consistent approach to reviewing permit applications 
and evaluating air pollution effects on sensitive resources. That is 
the primary reason why the National Park Service, the U.S. Fish and 
Wildlife Service, and the U.S. Forest Service, as the three Federal 
land managing agencies that administer the nation's Federal Class I 
areas, embarked on the FLAG initiative. Prior to FLAG, the different 
FLMs, or even administrative units within a single agency, requested 
different types of information and analyses from permittees. That 
frustrated both permit applicants and permitting authorities. However, 
we recognize that a review of FLAG implementation and possible changes 
to ensure consistency, timely decisions, and conformance with statutory 
authorities is warranted. By providing consistent guidance among the 
FLMs regarding what type of information is needed, the FLAG guidelines 
were intended to provide more certainty to the permit review process, 
and help avoid unnecessary delays in obtaining a permit to construct 
such facilities.
    Question. Don't you think that these guidelines ought to be taken 
down, and that we should start this process over again the right way--
with a notice-and-comment rulemaking?
    Answer. In its current form, FLAG is a guidance document that is 
not legally binding on permit applicants or permitting authorities. 
Nevertheless, although the FLMs followed public notice and comment 
procedures for FLAG that were similar to a rulemaking,\1\ the FLAG did 
not go through all the procedures necessary for an entity within the 
Department of the Interior to adopt a rule. Therefore, it does not 
constitute a rule. Accordingly, we are planning to initiate a process 
to determine whether FLAG or other guidance on this matter ought to be 
adopted formally in accordance with the DOI's rulemaking process and, 
if so, we would undertake such a process.
---------------------------------------------------------------------------
    \1\ For example, prior to releasing the FLAG, the FLMs announced 
their FLAG intentions in the Federal Register, provided a 90-day public 
comment period on the draft FLAG report, conducted a public meeting to 
hear oral comments, considered all comments and prepared a response to 
comments document, and made appropriate changes to the draft FLAG 
guidance based on public comments received.
---------------------------------------------------------------------------
    In the absence of FLAG, the FLMs would still need to review permit 
applications using the same Clean Air Act provisions and Environmental 
Protection Agency regulations and polices that FLAG relies on. By 
making the FLAG guidance available to permit applicants (including 
those from the energy sector) and permitting authorities, it was hoped 
that it would be possible to avoid delays that might result from lack 
of understanding of the FLM role and information needs. Because we now 
have more than four years of experience with draft FLAG guidance, we 
believe that it is appropriate to review and improve on the processes 
by which the FLMs review and comment on new source permits.

                   NATIONAL PARK SERVICE PARTNERSHIPS

    Question. This Committee has been working extensively with the 
Department to tighten management of NPS partnerships at all levels of 
the Service. We absolutely want to encourage partnerships where 
appropriate, but want to be certain that those partnerships fit with 
the Service's mission and are prioritized appropriately against non-
partnership projects.
    One of the focal points of these discussions has been the proposed 
National Center for the American Revolution at Valley Forge NHP. I 
think we share a concern that the scope of this project be carefully 
considered in light of other NPS needs and future operational demands.
    Can you bring me up to date as to the status of this project within 
the Department? Can you describe the concerns you have about this 
project?
    Answer. The NPS continues to work extensively with the partner to 
develop a full understanding and compile the remaining analysis to 
determine when it is appropriate to request approval of this project by 
the House and Senate Congressional Appropriations Committees, as 
required. Issues to resolve include the size of the building, 
operational sustainability of the project, viability of the partnership 
and the amount of Federal investment, both capital and operations 
funding envisioned by the partner as necessary to help the project 
reach its operational revenue projections.
    Within the last year, the Service commissioned a ``Peer Review'' of 
the building design and operational plans for the new ARC. This study 
reviewed all of the development and operational assumptions used by the 
partner in scoping this facility. Specific review was done of expected 
attendance, physical planning guidelines, financial performance 
outlook, transportation analysis, visitor experience, visual assessment 
and operating and staffing recommendations. The Peer Review recommended 
a building scope that would achieve all project objectives, could still 
be considered sustainable and was ten percent smaller than the original 
project being recommended by the partner. As the result of this Peer 
Review, the project was reduced in size to meet the Peer Review 
recommendations.
    After this work was completed, the NPS, in partnership with ARC, 
agreed to complete the following analyses to fulfill the requirements 
under Director's Order 21 (DO21) and the new Partnership Construction 
Development Process:
  --A fundraising feasibility study to determine the readiness of the 
        partner to raise the required funds, probable sources of 
        contributions and length of time required to achieve stated 
        fundraising goals. The feasibility study is due to begin on 
        April 14, 2005. The standard timeframe for this process is 3-6 
        months. If the study indicates that the funding target cannot 
        be reached, the partners would be required to adjust the size 
        of the project, as well as assumptions about operations of the 
        building.
  --A fundraising plan that addresses roles and responsibilities, 
        including goals; timetable; scope; potential donors; 
        fundraising strategies and techniques to be used; promotional 
        or marketing strategies; donor recognition guidelines; and 
        fundraising experience of personnel assigned to carry out the 
        plan. An earlier version of a fundraising plan submitted to the 
        NPS was not based on a feasibility study and failed to comply 
        with DO21.
  --An updated outline of an Operations Plan which will describe the 
        general operations of the museum facility/collections center, 
        including the nature and type of activities to be conducted, 
        the respective roles of the parties, NPS rights for the use of 
        the facilities, and the source and use of operating revenue. 
        Operation of the facilities shall be in accordance with 
        applicable Federal, State, and local regulations, public NPS 
        standards generally applicable to such facilities, and other 
        criteria described.
  --An Expected Budget that will explain the budget commitments of ARC 
        and the expected budget implications for NPS. The budget 
        presentation will be activity based and will be designed to 
        clearly show the involvement of both partners and their 
        respective areas of emphasis. The budget will address the 
        financial impact the project could have on the park in best and 
        worst case scenarios with respect to projected park visitation, 
        staffing, maintenance, and other factors. The budget also 
        communicates NPS's commitment that the project not diminish 
        existing service levels at the park. The budget will be 
        developed to ensure that the partners themselves can make 
        future modifications and the model will remain useful in years 
        to come. The budget will be presented in a format suitable for 
        communication amongst the diverse government and private 
        stakeholders in this project.
    The National Park Service will consider presenting the project to 
the House and Senate Congressional Appropriation Committees once this 
work is completed and reviewed by the Service and the Department.
    Question. Have the project partners made adjustments in their 
proposal in response to the concerns expressed by the Department, or in 
response to concerns expressed by Congress?
    Answer. In response to concerns and questions raised by the 
Service, Department, and Congress, adjustments have been made to the 
proposal and to the partnership. These adjustments include:
  --Reducing the size of the facility from 131,000 square feet to the 
        current target of 90,000 square feet.
  --Compliance with the approved models for collections storage 
        facilities and visitor centers (the museum will comprise a 
        small orientation area, restrooms, book store, and food service 
        area that fulfill visitor center functions).
  --Participation by the partner in a Fundraising Feasibility Study 
        which will determine the likelihood of such a fundraising 
        venture being successful.
  --Agreement by the partner not to seek funding from Congress for the 
        project.
  --Compliance with the Service's Director's Order 21 and the 
        Appropriation Committee's requirement that the NPS seek 
        approval from Congress.
    The Service and the Department fully expect that the partner will 
comply with any recommendations resulting from the Fundraising 
Feasibility Study once completed or the project will not be moved 
forward.
    u.s. geological survey (usgs)--landsat satellite mission/funding
    Question. The fiscal year 2006 budget includes a $12 million 
request to support the current Landsat 7 satellite mission and $7.5 
million to begin system development for the follow-on mission scheduled 
for 2009.
    Give us a brief update on the status of Landsat 7. Has a solution 
been found to correct the degraded data that is sent from the 
satellite? If not, how valuable is the data now being archived? How 
significantly has demand for these products diminished?
    Answer. Although the imaging equipment onboard the spacecraft 
cannot be repaired and is still impacting the images being acquired, 
the Landsat 7 images collected after May of 2003 are still very useful, 
as demonstrated by the uses of the data to map the devastation that 
resulted from the recent Indian Ocean tsunami. The USGS has developed 
several new products since the anomaly. Users can currently order (1) 
pre-anomaly scenes (prior to the equipment failure), (2) post-anomaly 
scenes, those containing scan line gaps (non-gap filled), and (3) three 
variations of gap-filled products where the gaps are filled by 
interpolation using data from the edges of the gap, data previously 
collected (1 to 1\1/2\ years old) or, data from a scene collected 16 
days previously. In October 2003, the USGS began selling the non-gap 
filled scenes and in May 2004 introduced the first of the gap-filled 
products. Based on input from the user community, the USGS expects 
these new products to appeal to users that have heretofore not 
purchased the post-anomaly products. Although it is taking time for the 
community to realize that Landsat 7 continues to collect seasonal, 
global data sets that can still provide accurate land-cover and land-
use records, currently post anomaly and gap-filled products account for 
40 percent of Landsat 7 data sales. In fiscal year 2005 the USGS 
expects to distribute over 6,000 Landsat 7 scenes, which is less than 
half of the scenes that were distributed per year prior to the anomaly. 
From fiscal year 2005 and forward the USGS expects income from data 
sales to stabilize at approximately $3.3 million per year and fees from 
International Cooperators at approximately $1.5 million.
    Question. Describe in greater detail the Landsat Data Continuity 
Mission. What is the full cost of developing systems and other 
requirements that will be needed to accommodate data from the 2009 
satellite launch?
    Answer. In December 2003, a White House-chartered interagency 
working group concluded that the best solution for Landsat data 
continuity was to host a Landsat instrument on two of the planned 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) weather satellites. The mission, renamed from the Landsat Data 
Continuity Mission to Landsat on NPOESS, will be the follow-on to the 
Landsat 7 mission. Landsat on NPOESS is intended to ensure the 
continued acquisition and availability of Landsat-quality data in order 
to provide policymakers, researchers and the public with long-term 
global monitoring of the terrestrial environment.
    NPOESS will converge existing military and civilian polar-orbiting 
weather satellite systems under a single national program. Polar-
orbiting satellites are able to monitor almost the entire landmass of 
the planet. NPOESS is managed by a tri-agency Integrated Program Office 
(IPO) using personnel from the Department of Commerce, Department of 
Defense, and NASA.
    NPOESS requires remote sensing data from three orbital planes to 
accomplish its mission. Each plane is identified by its longitude of 
ascending node (LTAN), or 13:30, 17:30, and 21:30. The NPOESS program 
will launch 6 (two in each LTAN) satellites over a 10-15 year period. 
Both of the 17:30 spacecraft will host an Operational Land Imager (OLI) 
that will employ a solid-state sensor and collect data in one 
panchromatic and eight multispectral bands (see Table 1) over the 
entire Earth's land surface (85 North latitude to 85  South 
latitude).
    The USGS expects this successor to the Landsat 7 Enhanced Thematic 
Mapper Plus (ETM+) sensor to be operational on board NOAA's NPOESS by 
early calendar year 2010. While the OLI uses different sensor 
technology than the previous Landsat satellites, its spectral bands, 
combined with a rigorous calibration, will ensure continuity with 
millions of Landsat scenes collected and archived by the USGS over the 
past 34+ years.

                             TABLE 1.--SPECTRAL BANDS TO BE ACQUIRED BY THE OLI SENSOR ONBOARD TWO OF THE NPOESS SATELLITES
--------------------------------------------------------------------------------------------------------------------------------------------------------
               Band                       Band type                     Scientific applications                        Heritage            Resolution m
--------------------------------------------------------------------------------------------------------------------------------------------------------
1.................................  Coastal Aerosol......  Useful in water studies..........................  ALI/MODIS................  30
2.................................  Blue.................  Useful for water body penetration (bathymetric     ETM+ Band 1..............  30
                                                            mapping), distinguishing soil from vegetation,
                                                            and forest type mapping.
3.................................  Green................  Useful to measure green reflectance peak in        ETM+ Band 2..............  30
                                                            vegetation.
4.................................  Red..................  Useful to help discriminate vegetation types.....  ETM+ Band 3..............  30
5.................................  Near IR..............  Useful for differentiating vegetation types,       ETM+ Band 4/ALI..........  30
                                                            biomass content and water/land interfaces.
6.................................  Shortwave IR 1.......  Useful for looking at moisture content of soil     ETM+ Band 5..............  30
                                                            and vegetation.
7.................................  Shortwave IR 2.......  Useful for discriminating mineral and rock types.  ETM+ Band 7..............  30
8.................................  Panchromatic.........  Useful as a sharpening band......................  ETM+ Pan Band/ALI........  15
9.................................  Cirrus...............  Useful for cirrus clouds and aerosols............  MODIS....................  30
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The USGS costs for participating in the Landsat on NPOESS mission 
are provided in the table below. The costs are shown from fiscal year 
2005 to fiscal year 2023 and include both development and operations 
costs.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year
                                           ------------------------------------------------------------
                                              2005      2006                                             BTC \2\
                                             enacted   budget   2007 \1\    2008      2009      2010
----------------------------------------------------------------------------------------------------------------
USGS......................................      0.75      8.20     24.15     20.24     19.14  \3\ 22.8    299.00
                                                                                                  5
----------------------------------------------------------------------------------------------------------------
\1\ Outyear numbers are based on current program estimates and subject to change.
\2\ BTC=Budget to Complete--includes estimates through the lifetime of the second Landsat on NPOESS mission.
  (fiscal year 2023)
\3\ Fiscal year 2009 through BTC for USGS are total cost estimates only. It is expected that fees from data
  sales will offset a part of this cost.

       U.S. GEOLOGICAL SURVEY (USGS)--TSUNAMI-RELATED ACTIVITIES

    Question. In the aftermath of the 9.0 earthquake and resulting 
tsunami this past December, Congress is now considering a supplemental 
appropriations bill that includes a request of $8.1 million for USGS. 
These funds will enable the Survey to procure and install additional 
seismic monitoring stations and also enhance the existing seismic 
monitoring network. The fiscal year 2006 budget request includes a 
proposal for an additional $5.4 million to continue work initiated with 
supplemental funding, as well as to provide maintenance and staffing of 
new and enhanced systems.
    To what extent will the Survey's earthquake detection and warning 
systems be improved by these investments?
    Answer. The funding requested by the Administration for fiscal year 
2005 and fiscal year 2006 will permit the USGS to accelerate and 
complete several key improvements and upgrades to its National 
Earthquake Information Center (NEIC), to the Global Seismographic 
Network (GSN), and to key earthquake response products. Prior to 
December's tsunami, USGS had begun a slow process of upgrading its 20-
year-old legacy system for real-time earthquake detection and 
notification. The additional support will allow the NEIC to complete 
development and deployment of its new software system, Hydra, which 
enables more rapid earthquake detection and notification in 
tsunamagenic source areas that border the United States and its 
territories. Moreover, these enhancements are necessary to ensure 
reliable operations, performance, and long-term operational cost 
efficiencies.
    The USGS' new Prompt Assessment of Global Earthquakes for Response 
(PAGER) system uses information about an earthquake's source (e.g., 
ground shaking, rupture length, depth), combined with information 
regarding population and infrastructure in the affected region, to 
estimate potential impact (both damage and loss of life) of a major 
ground shaking event. PAGER is ideal for both domestic and 
international earthquakes in areas where a dense seismic network is not 
available, but where a rapid assessment is critical for estimating 
impact. Funding for PAGER will provide for additional research 
scientists, technical support, and computer programmers needed to fully 
implement the PAGER program. The outcome of this investment will be 
improved algorithms for Global ShakeMaps, finite fault modeling, rapid 
aftershock identification and association, and loss estimation. PAGER 
will also allow for integration and evaluation of impact of secondary 
hazards such as liquefaction, landslides, and tsunamis.
    The NEIC requires a full-time, 24x7 staff of seismologists to 
quickly respond to potentially damaging events and ensure data 
throughput to the National Oceanic and Atmospheric Administration 
(NOAA) tsunami warning centers. NEIC also requires a commensurate level 
of commitment to oversee the computer and network operations to ensure 
continuity of operations 24x7 (currently a small group of research 
scientists volunteer on an ad hoc basis to respond when computer 
systems fail in the off hours). With the requested support, NEIC will 
decrease reporting time for global earthquakes (currently over one 
hour) and reliably deliver a complete suite of earthquake products, 
including PAGER, within 20 minutes or less.
    The Global Seismographic Network (GSN) is a critical source of 
seismic data for earthquake detection and tsunami warnings. The GSN is 
jointly supported by USGS and the National Science Foundation, with 
USGS responsible for operations and maintenance of approximately two-
thirds of the network. Improved telemetry connections are needed so 
that all GSN stations provide data in real time. Other noted 
improvements include more frequent maintenance for enhanced uptime and 
expanded field recording. With the enhanced funding, telemetry upgrades 
will be made system-wide to improve the timeliness and accuracy of 
earthquake analyses for rapid response. In the Caribbean, where there 
is an earthquake and tsunami threat to U.S. territories, additional 
GSN-quality stations will be installed to adequately monitor the 
earthquake activity and provide rapid reports to response officials. 
The outcome of this investment will be a state of the art, real time 
earthquake detection and notification system that is both timely and 
robust and enables delivery of a suite of value-added earthquake 
information products that emergency managers want.
    Software developed through the California Integrated Seismic 
Network (a USGS, university, and State partnership) to speed USGS-
generated earthquake information directly to local emergency managers 
has a dual-use capability to also provide NOAA tsunami warnings. This 
system, designed to provide a mechanism for instantaneous transmission 
of seismic information, complements existing NOAA delivery mechanisms. 
Investment in this area will allow emergency managers to respond to 
earthquakes as well as tsunamis.
    Question. How much of an additional investment would be required to 
optimize the system?
    Answer. With the funding requested in the 2005 Emergency 
Supplemental Appropriations Act and the 2006 President's budget 
request, we are on our way to having an optimized tsunami warning 
system. The requested funding will provide software development with 
the National Earthquake Information Center, enhanced operations and 
maintenance of the NEIC including it's continuous operation 24 hours a 
day, 7 days a week, full implementation of the Prompt Assessment of 
Global Earthquakes for Response system to estimate potential impact of 
major ground shaking event, improved tsunami warning distribution, and 
improved global seismic monitoring and rapid information delivery. The 
increased funding will also allow for the collection and assessment of 
the geological and geospatial information necessary to improve regional 
assessments of coastal areas for potential damage from a tsunami 
hazard. The supplemental incluedes $8.1 million for these activities 
and the 2006 budget request includes an additional $5.4 million for 
these activities. Funding in the outyears is expected to be level with 
the 2006 request.
    Question. How is GS contributing to the global effort to improve 
coordination of early warning systems and the communication of critical 
data?
    Answer. The USGS Director is providing leadership toward the 
development of the Global Earth Observations System of Systems (GEOSS), 
an international effort to develop a comprehensive, sustained, and 
integrated Earth observation system. The implementation plan for GEOSS 
was adopted at the Third Earth Observation Summit held in Brussels, 
February 2005. In parallel, the United States has developed a Strategic 
Plan for the U.S. Integrated Earth Observation System, which, like the 
GEOSS plan, focuses around nine societal benefit areas, including 
``Reduce loss of life and property from disasters'' and ``Protect and 
monitor our ocean resources.'' The USGS will work with its GEOSS 
partners and other international bodies (such as the UNESCO 
International Oceans Committee) to develop a global tsunami warning 
system.
    As part of the President's ``Disaster Management'' e-Government 
Initiative, one of 24 initiatives established by the President's 
Management Council, the initiative's Web site is linked to USGS 
disaster information Web sites to ensure that the most current USGS 
research results and data are available to organizations and citizens 
as part of the initiative's effort to make better use of information 
technology (IT) investments and to reduce government response time to 
citizens.
    In addition, the USGS is exploring the feasibility of earthquake 
early warning, in which rapid computer analysis and communication links 
are used to provide seconds of warning before earthquake waves arrive 
(much as is done for tsunami waves on a much longer time scale). Such 
warning systems are in place in Japan, Mexico, and Taiwan. The 2000 
reauthorization of the National Earthquake Hazards Reduction Program 
(NEHRP) called for development of a U.S. early warning system for 
earthquakes. The USGS would implement early warning as part of a fully 
implemented Advanced National Seismic System (ANSS). The USGS sponsors 
modest research and development in this area. The largest unmet need 
for early warning is station density. In addition, prototype software 
requires significant effort to become fully operational.
    Question. What lessons has GS learned that might be applied in our 
own country to better protect our citizens living in potentially 
hazardous areas?
    Answer. The tsunami disaster of December 26, 2004, has resulted in 
increased awareness of tsunami and earthquake risk in Alaska, Hawaii, 
California, the Pacific Northwest, the Caribbean, and even the eastern 
U.S. seaboard. Seismic monitoring systems need to be upgraded in these 
areas if they are to serve as sentinels for tsunami warning. USGS is 
strengthening regional seismic networks in California, Alaska, Oregon 
and Washington through the Advanced National Seismic System (ANSS) 
modernization. In addition, USGS partners with National Oceanic and 
Atmospheric Administration (NOAA) through the National Tsunami Hazard 
Mitigation Program to strengthen coastal seismic networks in those 
states and Hawaii. Moreover, it is clear that education and training 
are critical, both for public officials and emergency responders, and 
for the public at-large. In the Pacific Northwest, USGS scientists work 
together with state and local emergency managers in presentations to 
coastal communities on tsunami hazards. USGS has also developed 
publications for public awareness and maintains a popular Web site with 
information on tsunami and earthquake hazards. USGS recently partnered 
with the Cascadia Regional Earthquake Working Group to produce a 
scenario examining the impacts of a magnitude-9 earthquake off the 
coast of the Pacific Northwest. This document will help policymakers 
and the public understand and address the hazard. Even with networks 
and warning systems in place, if people do not know how best to respond 
to a warning (or a felt shaking of the ground), its value is greatly 
diminished.

          U.S. GEOLOGICAL SURVEY--MINERALS RESOURCES REDUCTION

    Question. A $28.5 million reduction is proposed for minerals 
research and assessment activities. Programs to be discontinued include 
the collection of comprehensive basic geologic, geochemical, 
geophysical and mineral deposit data for the nation; the USGS-led 
internationally coordinated global mineral resource assessment to 
provide predictions of worldwide distribution of undiscovered deposits 
of critical metallic and nonmetallic mineral commodities; and the 
elimination of 20 mineral commodity reports a year.
    Does any other government entity have responsibility for the 
functions now being performed by the Minerals Resources program? If GS 
discontinues much of its work in this area, will there be a central 
organization to collect, interpret and disseminate this information to 
the public?
    Answer. This reduction was a difficult decision based on funding 
priorities and budget constraints. The Administration chose the 
Minerals Resources Program for reduction because the research is lower 
priority as compared to other USGS programs and because the expertise 
to continue this work exists with State geological surveys, and in 
universities. The Administration believes that if the work being 
eliminated is of high importance to private industry or States, they 
could pick up the work, in partnership agreements.
    Question. Why wouldn't the collection and distribution of this data 
be considered an inherently governmental function?
    Answer. Inherently governmental functions are usually classified as 
functions that are so intimately related to the public interest as to 
mandate performance by Government employees. These functions include 
those activities that require either the exercise of discretion in 
applying Government authority or the making of value judgments in 
making decisions for the Government. Governmental functions normally 
fall into two categories: (1) the act of governing, i.e., the 
discretionary exercise of Government authority, and (2) monetary 
transactions and entitlements. An inherently governmental function also 
involves, among other things, the interpretation and execution of the 
laws of the United States.
    In the case of the minerals resources program, the USGS is 
providing a service of collecting and distributing minerals assessment 
data. The Administration does not believe that this activity classifies 
as being inherently governmental and that this service can be performed 
by non-Federal entities.
    Question. Given the fact that competition for the importation of 
mineral resources is expected to increase significantly as emerging 
industrial nations such as China enter the world market, why wouldn't 
it be considered in our national interest to develop and maintain this 
data?
    Answer. There are many worthy programs that the Administration 
would like to support, but cannot support in the current budget 
climate. We believe that the expertise and interest exist outside the 
Federal government to develop and maintain this data.
    Question. The proposed program reduction in minerals resources 
would result in a reduction-in-force of approximately 240 currently 
occupied positions at an estimated cost of $30,000 per person--in other 
words, $7.2 million total. There is no provision for the payment of 
these costs, while at the same time a reduction of $1.7 million in 
savings resulting from office closures in locations throughout the 
country is assumed.
    How does the Department propose to cover the costs that GS will 
incur with this RIF? Some of the employees within the minerals 
resources program are under union contract; what impact would this have 
on the cost and implementation of a RIF?
    Answer. Reduction in Force costs will be covered within the USGS. 
Using a cost estimate of $30,000 per position abolished and a 
separation date of October 1, 2005, costs are estimated to be at least 
$7 million. USGS is revising this estimate and will provide a firmer 
estimate as soon as possible. USGS and the Department are looking at 
Voluntary Separation Incentive Program/Voluntary Early Retirement 
Authority (VSIP/VERA) options and the ability to place affected 
employees in other positions when possible to soften the impact of the 
RIF.

          MINERALS MANAGEMENT SERVICE--ROYALTY IN KIND PROGRAM

    Question. In the last several years, the Minerals Management 
Service (MMS) has greatly expanded its use of the Royalty-In-Kind (RIK) 
authority. Currently, over 80 percent of the oil production from the 
Gulf of Mexico is taken ``in kind'' in order to fill up the Strategic 
Petroleum Reserve (SPR).
    When do you expect SPR to be filled up this year?
    Answer. As of January 2005, DOE anticipated the SPR reaching its 
700 million barrel capacity in July/August 2005. DOE will provide an 
update to MMS on the anticipated fill date in mid-May 2005.
    Question. After SPR is filled, does the agency plan to continue to 
take the bulk of its Gulf of Mexico royalty production ``in kind'' 
rather than ``in value?''
    Answer. We anticipate that the royalty production committed to the 
current SPR program will convert to an RIK commercial program this 
fall, assuming continuation of favorable economic conditions and 
receipt of fair market value in the MMS RIK crude oil program.
    Question. In the fiscal year 2005 Interior appropriations bill, the 
Committee expanded the agency's RIK authority to allow the MMS to 
recover the direct costs for running the program from the proceeds of 
oil and gas taken in kind. This was designed to enhance your ability to 
use the RIK authority.
    Why has this authority been proposed for elimination in the fiscal 
year 2006 budget?
    Answer. Appropriations language as proposed in the fiscal year 2006 
President's Request is not inconsistent with the goals and objectives 
as outlined in the Five Year Royalty In Kind Business Plan that was 
issued in May 2004.
    Question. Would continuing this authority be useful in running the 
program at full capacity?
    Answer. No, this authority is unnecessary. The fiscal year 2006 
President's Request includes $9.8 million in funding for the Royalty In 
Kind Program. This level of funding provides the resources necessary to 
carry out the goals and objectives of the Program. In addition, 
discretionary funding for these activities will better ensure proper 
oversight and accountability in the program.

            OFFICE OF SURFACE MINING--SMCRA REAUTHORIZATION

    Question. As it did last year, the Office of Surface Mining budget 
includes a $58 million increase which is tied to the Administration's 
proposal to reauthorize the Surface Mining Control and Reclamation Act 
(SMCRA). SMCRA expires on June 30, 2005, and with it the ability to 
collect additional fees.
    How would the administration's proposal on SMCRA alter the way the 
program is run currently?
    Answer. The Administration has not at this point submitted a 
reauthorization proposal to Congress. However, our budget request for 
fiscal year 2006 includes a grant increase of $58 million to support 
legislation that would accomplish the primary goals of the legislation 
from last year. These goals were:
  --A fee extension for a period sufficient to collect funds to address 
        the current inventory of health and safety coal related 
        problems.
  --Expedited payment of the current unappropriated balances to 
        certified states and tribes.
  --Change in the allocation of future collections to focus more 
        resources on reclamation of high priority coal related health 
        and safety problems.
  --An overall request that fits within the mandatory and discretionary 
        spending limits assumed in the President's budget.
    Question. Do you expect the authorizing committees to have acted on 
a bill by the time SMCRA expires?
    Answer. It is important to note that only the fee collection 
authority in SMCRA expires on June 30, 2005. All other aspects of the 
Act remain in force. We are working very closely with Congress to 
develop a mutually acceptable bill that does not polarize individual 
stakeholders. We have seen some progress in our efforts and are hopeful 
that we will see such a bill before June 30, 2005.
    Question. If there is a period of time during which SMCRA lapses, 
what will be the impacts on carrying out the AML program?
    Answer. Only the fee collection authority would expire on June 20, 
2005. In the short term, there would be no immediate impact, since we 
have an appropriation for fiscal year 2005, and there is an 
unappropriated balance in the AML fund ($1.668 billion as of September 
30, 2004). However, over the longer term, we estimate that at least $2 
billion worth of high priority coal-related health and safety problems 
will remain with no identified funding source to address them. This 
means that at least 2 million people living within one mile of such a 
hazard will remain at risk.
    Assuming approximately the same level of appropriations as in 
recent years:
  --Within two years, funds dedicated to states based upon need (i.e., 
        funds allocated under Section 402(g)(5)) would be exhausted.
  --Also within two years, funds in the Federal operating account 
        described in Section 402(g)(3) will be exhausted. This 
        allocation is used to fund federally managed reclamation in 
        non-primacy states and tribes, state managed emergency 
        reclamation, federally managed emergencies in non-primacy 
        states and in those states that do not manage the emergency 
        program, minimum program supplements, the Small Operator 
        Assistance Program (SOAP), The Clean Streams Program Watershed 
        Cooperative Agreements, and Federal operations.
  --Beginning in fiscal year 2008, funds would be distributed based on 
        unappropriated state and tribal share balances, without 
        consideration of need. Approximately 50 percent of these funds 
        are for certified states and tribes that have certified that 
        they have no remaining coal problems.
  --An unappropriated balance of $330 million will remain in the Rural 
        Abandoned Mineland Program (RAMP) account, a program that has 
        not been funded for nearly a decade.
    Should the fee expire on June 30, 2005, OSM will take immediate 
steps to protect the health and safety of citizens. While the Clean 
Streams Program, SOAP, and Watershed Cooperative agreements are all 
valuable programs, we consider them to be lower priority than the 
emergencies that are funded from the same allocation. Thus, we will 
provide no further funds for these programs after June 30. The funds 
saved will be redirected instead to partially fund another year of 
emergency work.
    It should be noted that the administration has proposed a rule 
pursuant to Section 402(b). This rule will allow us to collect a fee 
sufficient to make a deposit to the Combined Benefit Fund equal to the 
interest earned on the AML fund.

    MINERALS MANAGEMENT SERVICE--HURRICANE IMPACTS ON OIL PRODUCTION

    Question. The 2004 hurricane season was an unusually active one. 
Hurricanes Charley, Ivan and Frances caused extensive damage in Florida 
and in the Gulf of Mexico where most of the nation's offshore oil and 
gas production is located.
    What were the impacts from these storms on production output?
    Answer.
Hurricane Ivan (9/11/2004-2/14/2005)
  --Of the approximately 4,000 structures and approximately 33,000 
        miles of pipelines in the GOM, 150 platforms and 10,000 miles 
        of pipelines were in the direct path of Hurricane Ivan.
  --Destroyed 7 platforms and caused significant damage to 24 other 
        platforms.
  --Numerous pipelines were damaged, mostly by mudslides at the mouth 
        of the Mississippi River.
  --Initially, industry evacuated over 545 platforms and shut-in 
        approximately 1.4 million barrels of oil and approximately 
        6,515 MMCF of gas production per day. The shut-in oil 
        production was equivalent to approximately 83 percent of the 
        approximately 1.7 million BOPD in the GOM production. The shut-
        in gas production was equivalent to approximately 53 percent of 
        the approximately 12.3 BCFPD in the GOM.
  --Within 2 weeks on September 27, 2004, industry had only 31 
        platforms evacuated and shut-in approximately 490,000 barrels 
        of oil and approximately 2,350 MMCF of gas production per day.
  --On November 1, 2004, industry had only 9 platforms still evacuated 
        (not counting 7 destroyed structures) and shut-in approximately 
        224,000 barrels of oil and approximately 905 MMCF of gas 
        production per day.
  --As of February 14, 2005, industry still had 9 platforms evacuated 
        (not counting 7 destroyed structures) and shut-in approximately 
        126,000 barrels of oil and approximately 147 MMCF of gas 
        production per day.
  --Cumulative shut-in oil production for the period of 9/11/04-2/14/05 
        was 43,841,245 bbls, the equivalent of 7.246 percent of the 
        yearly production of oil in the GOM, which is approximately 605 
        million barrels.
  --Cumulative shut-in gas production for the period of 9/11/04-2/14/05 
        was 172.259 BCF, the equivalent of 3.871 percent of the yearly 
        production of gas in the GOM, which is approximately 4.45 TCF.
Hurricane Frances (9/3/2004-9/7/2004):
  --Cumulative shut-in oil production was approximately 62,000 barrels, 
        the equivalent of 0.015 percent of the yearly production in the 
        GOM which is approximately 605 million barrels.
  --Cumulative shut-in gas production was approximately 118 MMCF, the 
        equivalent of 0.003 percent of the yearly production of gas in 
        the GOM which is approximately 4.45 TCF.
Tropical Storm Bonnie and Hurricane Charley (8/10/2004-8/13/2004):
  --Cumulative shut-in oil production was approximately 1.3 million 
        barrels, the equivalent of 0.21 percent of the yearly 
        production of oil in the GOM which is approximately 605 million 
        barrels.
  --Cumulative shut-in gas production was approximately 4,100 MMCF, the 
        equivalent of 0.0922 percent of the yearly production of gas in 
        the GOM which is approximately 4.45 TCF.
    Question. Are we back at 100 percent capability?
    Answer. While technically not back at 100 percent, the production 
level has virtually returned to normal, and additional new platforms 
have added capacity and are now producing.
    Question. Have you included any necessary funding in the fiscal 
year 2006 budget request to ensure that MMS has the necessary resources 
to make sure we get back to full production capacity and maintain it in 
the Gulf?
    Answer. Yes. MMS is conducting engineering studies to examine the 
precise structural forces that were experienced by the platforms during 
Hurricane Ivan. MMS received $500,000 from Congress in fiscal year 2005 
to contract technical studies of the impacts of Hurricane Ivan. 
Competitive award proposals for these studies are being prepared and 
are close to being awarded. MMS has met on several occasions with 
industry to discuss the impacts of Hurricane Ivan on the platforms, 
pipelines and drilling rigs. Various committees have been established 
to review specific standards and technical issues. On July 26-28, 2005, 
MMS and industry will co-sponsor a workshop to further review the 
committee reports and review possible modification to industry and MMS 
standards and identify further research needs.

            FISH AND WILDLIFE SERVICE--COURT ORDER ON WOLVES

    Question. A recent court order by the Federal district court in 
Portland, Oregon reversed the Fish and Wildlife Service's decision to 
``downlist'' the gray wolf from ``endangered'' to ``threatened'' in the 
Western and Eastern United States. As you know, in Montana the state 
has worked hard on a plan for wolf management that will allow for 
landowners to deal with wolves that prey on livestock. The FWS approved 
that plan.
    Will the court's decision to classify wolves as endangered affect 
the ability to deal with wolves who are harassing and killing livestock 
in Montana?
    Answer. No. The Oregon ruling did vacate both the 2003 
reclassification to threatened status and the accompanying new 
regulations under section 4(d), which allowed for management of problem 
wolves due to its threatened status. However, section 10 of the ESA 
does provide other avenues for the management of listed species, 
including the ``take'' of individuals of endangered wildlife species. 
In Montana, we will use two different mechanisms, one for wolves in the 
northern part of the state, and one in the south. Wolves in southern 
Montana are part of a ``nonessential experimental population,'' a 
classification that allows for more active management than is usual for 
endangered species. In 2004, we promulgated a special rule (under 
section 10(j) of the ESA) for the experimental population area; this 
rule provides for management of depredating wolves, and was not 
affected by the Oregon court's ruling. Experimental populations under 
section 10(j) afford more regulatory flexibility for population 
reintroductions. In northern Montana, previous to the 2003 final rule, 
the Service implemented a 1999 interim wolf control plan through the 
Regional Director's section 10(a)(1)(a) permit. This permit provides 
for the control of depredating wolves, and will be used to manage 
wolves in northern Montana.
    Question. Is the Department of the Interior planning to appeal this 
ruling?
    Answer. The Department has asked the court to clarify the ruling. 
Until the court responds, the Department is considering all options, 
including appealing.

            FISH AND WILDLIFE SERVICE--STATE WILDLIFE GRANTS

    Question. I see that the proposed budget request for fiscal year 
2006 includes an increase of $5 million for the state wildlife grant 
program. This program funds the development and implementation of state 
conservation plans. The deadline for each state to have its plan 
completed is October 1, 2005.
    Do you expect all the states to meet this deadline?
    Answer. Yes. The Service expects all 50 States and 6 territories to 
have plans completed by October 1, 2005. The Service has in place 
technical assistance teams to provide guidance and assistance to our 
State cooperators for their plans. The purpose of these teams is to 
ensure that the Service has provided all of the possible resources to 
our cooperators to allow them to successfully prepare their plans.
    Question. In working with the states are you pleased with the 
quality of the plans that they are developing?
    Answer. Yes. Judging from early drafts of the plans and from our 
interaction with the States in meetings and conferences, we are pleased 
with the quality of many of the plans. Good examples are North Carolina 
and Alaska that have both put out for public comment draft Plans that 
appear to be of very high quality.
    Question. One of the major reasons the sage grouse was not listed 
was that many states that had populations of sage grouse had 
conservation plans in place to manage for the protection of the grouse. 
Do you feel that having the conservation plans developed under the 
state wildlife grant program can prevent future listings by putting in 
place conservation strategies for other species?
    Answer. We hope that conservation efforts resulting from the State 
Comprehensive Wildlife Conservation Plans will make listing unnecessary 
for many species. We recognize, however, that some of the State plans 
may not address all of the taxa that can be listed under the Endangered 
Species Act (ESA) (e.g. insects and plants) due to differences in their 
various legislative authorities. We strongly support the development of 
the State Plans, as they are a crucial starting point for planning and 
implementing individual conservation efforts that can reduce or remove 
threats to species to the point that listing will not be necessary. It 
is important to note that the nature and timing of conservation efforts 
implemented under the State plans, rather than the plans themselves, 
will be a key factor in whether listing is unnecessary for a given 
species.

                 MINERALS MANAGEMENT SERVICE--USER FEES

    Question. The budget request for MMS includes a number of new fees 
for services for which the agency currently does not charge. The fiscal 
year 2006 budget estimates that the agency will collect $13.5 million 
of these new fees. I understand that with oil at over $50 per barrel 
the big companies can probably afford a few new fees, but my concern is 
the small producer.
    Has the Department considered the impact of these new fees on 
smaller producers?
    Answer. The rulemaking process requires MMS to assess the impact of 
any proposals on small business. In addition, comments received through 
the Advanced Notice of Proposed Rulemaking (ANPR) and proposed rule 
process will be considered. Through the commenting process, MMS is 
expecting companies of all sizes to provide us information on how 
proposed fees will impact their business operations.
    Question. Could these new fees have an impact on the incentive for 
some operators to develop additional production capacity?
    Answer. These fees are too low to have a measurable impact on 
operator incentives. The proposed fees would be a tiny percentage of 
the estimated gross revenue realized by the operators on the OCS. The 
Department has published an ANPR in order to provide stakeholders an 
opportunity to comment on the fiscal year 2006 cost recovery proposal. 
Any comments regarding the impact of fees on small producers will be 
taken into consideration during the rulemaking process.
    Question. Would you consider waiving these new fees for smaller 
operators?
    Answer. The MMS will carefully consider public input during the 
rulemaking process and may reduce fees for small operators if 
warranted.

                MINERALS MANAGEMENT SERVICE--5-YEAR PLAN

    Question. I understand that you will soon begin work on the next 5 
year plan as required by the OCS Lands Act. The 5 year plan specifies 
the size, timing, and location of areas to be leased for Federal 
offshore oil and natural gas. Currently, most of the offshore areas in 
the United States are under moratoria which prevent exploration and 
development.
    With oil at over $50 a barrel and the reliability of foreign 
sources more in question, does it make sense to continue to keep such 
vast areas off limits to oil and gas development?
    Answer. The Administration continues to support executive 
withdrawals through 2012.
    Question. During the development of the next 5 year plan will the 
Department have the legal authority to at least analyze the oil/gas 
potential of areas that are covered by the moratoria so that we know 
the extent of the production capacity that we are forgoing?
    Answer. The Department has the legal authority to assess resources 
anywhere on the OCS. In fact, it is done on a periodic cycle. The 
current information is from the 2000 National Assessment. The 2005 
National Assessment is being prepared with projected publication in 
2006.

        BUREAU OF LAND MANAGEMENT--WILD HORSE AND BURRO PROGRAM

    Question. Secretary, as you know, we have grappled with the Wild 
Horse and Burro program for a number of years. Rapidly increasing costs 
and the inability of the adoption program to keep pace with the number 
of animals being taken off of Federal lands was crippling the Bureau. 
Last year as a result, I worked with my colleagues on both sides of the 
aisle to enact Sec. 142, which sets parameters to sell some of the 
animals.
    Some have argued that these horses will go to slaughter, but it has 
always been my belief that a very small percentage of animals sold, if 
any, would face this fate. It is my understanding that these sales have 
begun moving forward and the bulk of the animals have been sold to 
``white-hat'' buyers looking to offer an alternative to the adoption 
program.
    Could you update us on the sale program and illustrate how the 
Department has attempted to ensure the horses are sold into acceptable 
circumstances.
    Answer. In carrying out sales, the BLM has focused its outreach 
efforts on horse advocacy groups, Tribes, humane organizations, and 
other groups and individuals that have shown a demonstrated interest in 
providing for the welfare of the animals. This approach is consistent 
with the 1971 Wild Free-Roaming Horses and Burros Act, which declared 
these animals to be living symbols of the Western spirit. The Bureau 
has been highly successful in finding good homes for the horses and 
burros it has been selling; the agency, however, temporarily suspended 
sales and deliveries on April 25 in response to two incidents involving 
the commercial processing of horses that had been re-sold or traded 
after being bought from the BLM.
    The BLM has examined options for reinstating the sales program, 
while reducing the risk that recently purchased ``excess'' animals 
would be sold for commercial processing. BLM recognizes that any 
assurances for humane treatment and care must be obtained from 
purchasers prior to sale. After sale, animals are no longer afforded 
the protections of the Wild Free-Roaming Horses and Burros Act.
    The BLM will strengthen the language in the Bill of Sale, as 
follows:
    The Bill of Sale will be revised to create enforceable conditions. 
These additional provisions are intended to reduce both the potential 
and incentive for purchasers or subsequent owners to sell the animals 
for slaughter.
    Specifically, a notice and citation to 18 U.S.C. Section 1001 will 
be added to the Bill of Sale. Section 1001 provides that it is a crime 
to make a false representation in any statement in any matter within 
the jurisdiction of a Federal agency. This provision will read as 
follows: ``Purchaser may be subject to criminal penalties, if in this 
Bill of Sale he/she knowingly and willfully falsifies, conceals, or 
covers up a material fact; makes any materially false, fictitious, or 
fraudulent statement or representation; or otherwise violates 18 U.S.C. 
 1001.'' This provision could support a prosecution of the purchaser 
if it could be proven that at the time of sale the purchaser intended 
to send the animals to slaughter or made other false statements.
    The Bill of Sale will also be modified to include language that 
reads as follows: ``Purchaser agrees to provide humane care to the 
listed wild horses(s) and/or burro(s).'' This provision will replace 
the statement of intent in the existing Bill of Sale. This provision 
will be further strengthened by stating: ``Purchaser agrees not to 
knowingly sell or transfer ownership of any listed wild horse(s) and/or 
burro(s) to any person or organization with an intention to resell, 
trade, or give away the animals(s) for processing into commercial 
products. Prior to selling or transferring ownership, Purchaser agrees 
to verify that the subsequent purchaser does not intend to make these 
horses or burros available for commercial processing.''
    BLM is committed to ensuring that wild horses sold will be placed 
into appropriate homes. Individuals wanting to purchase horses are 
screened using the following qualifications to help determine their 
suitability for providing a good home for the adopted horse.
    Qualifications reviewed are:
  --Status or affiliation with group or organization or buying as an 
        individual.
  --Number of animals requested.
  --Number of acres available for these animals, including the type of 
        forage and kind of facility.
  --Individuals' experience with horses or livestock.
  --Experience with wild horses, including knowing their behavior.
  --Individual responsible for the care of the animals, buyer or 
        another person.
  --Ownership of the land where the animals will be kept.
  --Financial ability to care for the animals.
  --Intended use for the animals.
  --BLM checks records for past compliance problems.
  --Also, all buyers are asked to promise not to sell to anyone who 
        would sell the animals to a commercial processing plant.
    Question. What other reforms to the program is the Bureau 
examining?
    Answer. BLM is assessing the current program to determine if 
reforms need to be made. BLM is also working with other partners to 
ensure proper treatment of wildhorses and exploring methods of better 
managing the horses. Included are the following:
  --Assessment of the sale process to ensure BLM is in compliance with 
        the direction of Congress to sell certain excess wild horses 
        and burros.
  --Enhancing exposure of the wild horse and burro adoption program 
        through national, regional, and local advertising campaigns.
  --Partnering with organization and groups to establish education 
        opportunities about wild horse and burro habitat and the 
        adoption program.
  --Testing a pilot project at adoptions by offering individuals that 
        have adopted one animal a ``buddy'' animal at a reduced fee.
  --Closing one long-term holding contract.
  --Continuing to work with the National Wild Horse and Burro 
        Foundation to increase efficiency in the adoption program. 
        Examples include the California Volunteer Pilot Project and 
        looking at the overall marketing of the wild horse.
  --Continuing to research and apply population level fertility 
        control.
  --Continuing to research on population census techniques.
  --Exploring methods to increase adoption success by examining ways to 
        gentle additional animals.

 BUREAU OF LAND MANAGEMENT--SOUTHERN NEVADA PUBLIC LAND MANAGEMENT ACT

    Question. The Administration's proposal to take 70 percent of the 
proceeds from Southern Nevada Land sales is raising some eyebrows in 
this subcommittee, and my colleagues from Nevada have been fairly open 
with their opinions of the idea.
    Could you explain the Administration's rationale for reallocating 
70 percent of the funding from this program to the general treasury, as 
opposed to continuing to implement the program as currently enacted in 
law?
    Answer. The receipts generated from SNPLMA land sales have far 
exceeded what was anticipated when SNPLMA was enacted. As a result, the 
available funding has outpaced land acquisition needs, and many more 
projects than originally anticipated are being formulated without the 
accountability of further consideration by the Congress. The 
Administration's 2006 Program Assessment Rating Tool review of BLM's 
implementation of SNPLMA determined that these funds are increasingly 
being dedicated to local projects rather than Federal priorities only.
    The budget proposal would not change the amount of revenue 
currently provided to the State of Nevada General Education Program or 
to the Southern Nevada Water Authority, only the portion dedicated to 
Federal spending in Nevada. The sale revenues deposited in the special 
SNPLMA account, and thus available for Federal projects in Nevada, 
would be reduced from 85 percent to 15 percent. This proposal serves 
the general taxpaying public while still providing about four times the 
level of spending in Nevada as originally anticipated in 1998. With 
projected 2006 collections of $917 million approximately $292 million 
will be spent in Nevada, including $160 million for Federal projects 
and $132 million for State share. The remainder would be deposited in 
the General Fund of the Treasury to assist with deficit reduction and 
to ensure that Federal taxpayers benefit from the sale of these Federal 
assets.
    Question. In your deliberations on this issue, did you consider 
retaining a portion of these revenues for beneficial purposes beyond 
Nevada's borders, as opposed to simply shipping it to the Treasury?
    Answer. The Department of the Interior budget is but one piece of a 
much larger consolidated Federal Budget, in which anticipated revenues 
offset proposed spending. As such, the SNPLMA land sale receipts that 
will now be deposited in the General Fund of the Treasury do support 
the programs and projects of a multitude of Federal departments and 
agencies that will provide benefits both within and beyond Nevada, even 
though the nexus between these programs and the SNPLMA revenues is not 
readily transparent in the President's Budget documents.

      BUREAU OF LAND MANAGEMENT--SAGE BRUSH/SAGE GRASS INITIATIVE

    Question. In your fiscal year 2006 budget request, you once again 
ask for a large increase in the BLM, in this case $3.6 million, for 
sage brush and sage grouse activities.
    Could you outline how the sage brush initiative is being 
implemented, and the success the Department has had, or expects to see 
in spending these sums of money?
    Answer. During 2006, the BLM will continue to focus on implementing 
actions outlined in both National and State-level BLM Sage-grouse 
Habitat Conservation Strategies. These strategies were developed in 
close cooperation with State-led sage-grouse conservation planning 
efforts and are designed to complement these conservation plans.
    The BLM is requesting additional funding for implementation of 
BLM's National Sage-grouse Habitat Conservation Strategy, which has 
been developed and is being implemented in cooperation with State-led 
sage-grouse conservation plans.
    The National Sage-grouse Strategy is the framework to address the 
conservation of sage-grouse and risk to sagebrush habitats on lands and 
activities administered by the BLM. The document identifies the 
resources and specific actions to be included in individual BLM State 
Office strategies and/or plans and outlines methods to address the risk 
to sage-grouse and sagebrush habitats at various scales. The Strategy 
provides for a comprehensive national approach, while providing for 
local solutions to address the range-wide variability and complexity of 
managing sage-grouse and sagebrush habitat. BLM's National Sage-grouse 
Strategy is designed to deliver a substantial Federal contribution to 
cooperative conservation efforts that are being led by state wildlife 
agencies throughout the range of greater sage-grouse in the West.
    BLM designed this National Sage-grouse Strategy around four main 
goals. Included with these four main goal areas are a series of 
specific strategies and actions that will support implementation of 
each goal. Each action identifies responsible offices and time-frames 
for completion. The four goals are:
    (1) Improve the effectiveness of the management framework for 
addressing conservation needs of sage-grouse on lands administered by 
the BLM.
    (2) Increase understanding of resource conditions in order to 
prioritize habitat maintenance and restoration.
    (3) Expand partnerships, available research and information that 
support effective management of sage-grouse habitat.
    (4) Ensure leadership and resources are adequate to continue 
ongoing conservation efforts and implement national and state-level 
sage-grouse habitat conservation strategies and/or plans.
    In 2006, the additional funding will be used to accelerate habitat 
inventory for sage-grouse and other sagebrush dependent species such as 
pygmy rabbits, another species of conservation concern in the sagebrush 
biome. To help identify and prioritize restoration needs, BLM plans on 
expanding inventories for noxious weeds, treating additional noxious 
weeds, completing additional vegetation treatments to benefit sage-
grouse habitat quality, reduce degradation from expanding juniper 
woodlands into sage-grouse habitat, and increasing the acres of habitat 
monitored by approximately two million acres.
    Question. Do you feel the Department is making headway in saving 
habitat and this will result in preventing an endangered species 
listing?
    Answer. BLM's commitment to conserving sage-grouse and sagebrush 
habitat predates petitions to list the grouse, and accomplishing this 
through partnerships would be our approach regardless of the listing 
decision. The announcement in January by the Fish & Wildlife Service 
that the greater sage-grouse does not warrant listing under the 
Endangered Species Act specifically mentions the crucial role of 
cooperative efforts and local working groups. In commending cooperative 
efforts to maintain and improve sagebrush habitat, the FWS noted the 
importance of continuing to develop and implement conservation plans 
and strategies across the sage-grouse's range. The decision not to list 
the sage-grouse was never seen as the end to cooperation but seen as a 
new beginning.
    By identifying resources, management actions, and methods for 
assessing various risks to sage-grouse and sagebrush habitats, the 
Strategy brings together sound science, the BLM's three decades of 
experience in sagebrush management, and the successes we've already 
achieved with our partners. Through continued cooperation during the 
coming year and beyond, BLM hopes ensure conservation and recovery of 
sagebrush ecosystems resulting in healthy and productive landscapes 
across the West.
    Between 2000 and 2004 BLM treated almost 1 million acres of 
sagebrush to the benefit of sage-grouse. Surveys and monitoring are 
completed in coordination with State agencies and other partners to 
understand the health and trends of sage-grouse populations and 
habitat. BLM continues to work on regional-scale analyses throughout 
the range of sage-grouse.
    Question. Can you assure us that your outreach to states, 
communities and affected parties remains a top priority?
    Answer. BLM believes that the best solution for conserving sage-
grouse is to continue cooperative efforts among Federal, state and 
local partners to preserve sagebrush habitat.
    Throughout the process of developing the National Strategy for 
Sage-Grouse Habitat Conservation, BLM felt that the key to success was 
not prescriptive policies or top-down edicts--but rather, partnerships 
at the local level, where there is on-the-ground, up-to-the-minute 
knowledge, as well as a remarkable commitment to restoring and 
conserving sage-grouse.
    Cooperation with local partners is the platform for applying 
science, experience, and commitment to making a difference for sage-
grouse and their habitat.
    The BLM is committed to this approach of working with partners at 
all levels to restore and conserve sagebrush habitats on the public 
lands and sees a no more effective way to bring about the sustained, 
broad-scale, multi-state, multi-jurisdictional action that is required 
to ensure habitat and species conservation now and long into the 
future.

           BUREAU OF LAND MANAGEMENT--RANGE IMPROVEMENT FUND

    Question. I noticed with concern the Administration's request to 
eliminate the Range Improvements Fund. As you know, this funding source 
is used for grassland management, riparian area repair and preventative 
maintenance and noxious weed control. The budget proposes shoe horning 
the $10 million in activity into already tight budget categories.
    In light of the Department's claims of addressing ongoing range 
degradation issues, and its call to spend additional money on range 
habitat for endangered species, could you explain the rationale behind 
eliminating the Range Improvement Fund?
    Answer. Part of the Administration's strategy for reducing the 
Federal deficit is to rein in mandatory spending, such as the Range 
Improvement Fund, and where possible and merited, to continue to 
perform this work with discretionary funding that can be adjusted from 
year to year based on changing needs and priorities.
    Question. Can you assure the subcommittee there would be no 
reduction in work performed if the account was eliminated?
    Answer. The BLM will continue to fund these range improvement 
projects in 2006, but will do so through its Deferred Maintenance 
program and Cooperative Conservation Initiative programs in the 
Management of Land and Resources account. Specifically, the budget 
estimates that $7 million in base Deferred Maintenance program funding 
and $3 million of the $6 million increase requested for CCI will be 
targeted to high priority range improvement projects.
    Other aspects of the 2006 BLM budget request also emphasize the 
importance of rangeland health and productivity. For the second year in 
a row, BLM is proposing a significant increase in funding to support an 
aggressive plan of sagebrush conservation and restoration. The 2006 
budget includes an increase of $7million, which builds on a $2.7 
million increase provided in 2005. Of the requested $7 million 
increase, $3.4 million will be matched by partner contributions under 
the Challenge Cost Share program. Maintaining and improving the health 
of the sagebrush habitat to ensure viable sage-grouse populations are 
critical to the continued multiple use management of these lands, 
including grazing.
    Invasive weeds also damage the health and productivity of 
rangelands. The 2006 BLM budget includes increases of at least $1.3 
million to address weed management on BLM-administered lands. Of this 
$1.3 million, $1 million is in the Challenge Cost Share program, and 
will therefore be leveraged with non-Interior funds to treat additional 
acres.

            BUREAU OF LAND MANAGEMENT--RURAL FIRE ASSISTANCE

    Question. I must express my displeasure that the Department has 
proposed eliminating the Rural Fire Assistance program administered by 
the BLM. The budget justifies this cut by arguing that the Forest 
Service and FEMA have similar programs. I must point out that the 
Forest Service account for State and Local fire assistance was cut by 
$22 million, and the FEMA assistance to fire fighter's grant fund was 
cut $100 million from the enacted level.
    Can you explain the rationale for eliminating this program in light 
of what appears to have the making of another horrific fire year?
    Answer. The Department of Interior reviews its programs to ensure 
they are meeting stated goals and objectives, and carefully evaluates 
results to determine whether the program addresses the stated goals. A 
recent national study by the National Association of State Foresters 
found that the almost 14,000 fire departments surveyed were almost as 
likely to rank basic wildland firefighting training as high in priority 
as basic structural firefighting. Recognizing the importance of 
training to departments that support DOI fire suppression activities, 
the 2006 budget proposal shifts emphasis from providing funds to local 
fire departments for equipment and basic training to developing and 
delivering training to RFDs to strengthen initial attack and develop 
the extended attack capabilities of RFDs. Under the 2006 ready reserve 
budget proposal, which is funded with a $1.9 million increase in 
Preparedness, DOI will train 1,000-2,000 firefighters each year and 
equip them with personal protective equipment. This ready reserve will 
enhance long-term recruitment of RFDs, supplement the volunteer roster, 
and reduce risk to local communities by creating a resident, highly-
trained wildland fire workforce. Communities will benefit by having 
skilled cadres of local firefighters available to reduce the loss of 
property and natural resources. More wildland fires will be contained 
at a smaller size, reducing the reliance on costly Federal and contract 
firefighters, thereby supporting fire suppression cost containment.
    The Department recognizes the risk of catastrophic fire to 
communities, particularly with record mountain snowpack lows in much of 
the West. The 2006 budget continues to emphasize the importance of 
hazardous fuels reduction with a $9.8 million increase over the 2005 
enacted level.
    Question. Can you explain the interaction the Department has had 
with FEMA and the Forest Service to ensure that the reductions in these 
programs will not hurt our preparedness for wildland fire place local 
firefighters at risk?
    Answer. The Department is currently in discussions with FEMA, the 
Forest Service and the National Association of State Foresters to 
rewrite an existing MOU to focus on providing information to FEMA on 
wildland firefighting needs and priorities, formalize DOI participation 
in peer review of FEMA awards, enhance website collaboration, and 
cooperate more closely conducting grant workshops. The various FEMA 
grant programs offer flexibility to meet both structural and wildland 
fire service needs. Through this collaboration, we expect small 
departments previously served by the RFA program to successfully 
compete for various FEMA grants. In addition, DOI is conducting grant-
writing sessions to further enhance small RFDs' chances of success.
    The Department recognizes the constraints on the various Federal 
grant programs and appreciates the level of collaboration offered by 
our colleagues at FEMA. We look forward to both finalizing the MOU and 
increasing the portion of fire grants going to wildland firefighting in 
the future.
    Question. Finally, can you outline for us the overlap in these 
programs and illustrate that ongoing needs will be met, and these local 
entities will receive training and equipment specific to wildland fire 
needs?
    Answer. The RFA program is administered by all the DOI Wildland 
Fire Management bureaus and targets small communities with populations 
less than 10,000 near DOI-managed lands. Funds are used for the 
purchase of wildland fire equipment and tools, communication devices, 
wildland fire training, and community prevention and education 
activities. Grants must be matched with a 10 percent cash or in-kind 
contribution. The program supports RFDs that protect not only 
communities but also natural resources on DOI-managed lands.
    The Forest Service Volunteer Fire Assistance (VFA) program also 
targets small communities with populations less than 10,000. Funds may 
be used for the purchase of equipment, training programs, and 
assistance in organizing fire departments, and must be matched dollar-
for-dollar. The program also supports protection of communities and 
resources from catastrophic wildland fire.
    The Forest Service State Fire Assistance (SFA) program benefits 
virtually all aspects of State Foresters' fire programs, from community 
wildfire planning and fire prevention to suppression and hazardous 
fuels treatments. State resources established and maintained with these 
funds are important resources that can be shared between States and 
with Federal land management agencies. Emphasis is currently on fire 
response planning and training in wildland fire suppression tactics and 
the Incident Command System used nationally for all emergency response 
actions, and will shift to a greater emphasis on community-based 
wildland fire mitigation. Funds must be matched dollar-for-dollar.
    The DHS-FEMA Office of State and Local Government Coordination and 
Preparedness (SLGCP) operates a one-stop shop for homeland security 
funding, which includes the Assistance to Firefighters Grant program 
(AFG) as well as other grant programs targeted to prepare the nation 
for acts of terrorism. The primary goal of AFG is to provide assistance 
to meet fire departments' and nonaffiliated EMS organizations' 
firefighting and emergency response needs. The program seeks to support 
organizations that lack the tools and resources necessary to protect 
the health and safety of the public and their emergency response 
personnel with respect to fire and all other hazards they face. Grants 
may be used for training, equipment, PPE, wellness and fitness, 
modifications to facilities, or acquiring firefighting vehicles and 
apparatus. Grants are matched on a sliding scale: 5 percent for 
populations served that are fewer than 20,000, 10 percent for 
populations between 20,000 and 50,000, and 20 percent for populations 
over 50,000.
    Departments that traditionally applied for RFA grants are eligible 
to apply for grants from both the Forest Service and FEMA. The grants 
may be used for the purchase of wildland fire training and PPE. DOI is 
conducting grant-writing sessions to further enhance RFDs' chances of 
success, as well as providing information about the other programs they 
may be eligible for. Finally, the 2006 budget recognizes the importance 
of our RFD partners with the $1.9 million ready reserve proposal that 
would offer both wildland firefighter training and personal protective 
equipment to 1,000-2,000 firefighters each year.

                BUREAU OF LAND MANAGEMENT--CONSTRUCTION

    Question. I notice that once again the administration has proposed 
reducing funding for BLM construction. We had increased the program to 
$11.5 million in last year's act, however, the proposal before us 
suggests $6.5 million meets the needs of the Bureau's 261 million 
acres. By my calculation, that is less than two and a half cents per 
acre for construction needs.
    Can you honestly testify before us that BLM's total construction 
need for 261 million acres is a total of $6.5 million?
    Answer. The BLM supports the President's budget and notes that the 
amount requested will continue to reduce the backlog of construction 
projects in the Five Year Plan. The funds will be used to construct 
those projects that are ranked the most critical for BLM's needs.
    Question. Can you provide a breakdown for the Committee of the 
construction accounts of all the Department's bureaus and agencies and 
compare the request level with the number of acres the agency oversees?
    Answer. The information follows:

                     [Dollars and acres in millions]
------------------------------------------------------------------------
                                          2006 requested
                 Agency                    construction    No. of acres
                                              funding       aministered
------------------------------------------------------------------------
BLM.....................................            $6.5           262.0
FWS.....................................            19.7            96.0
NPS.....................................           324.3            88.0
BIA.....................................           232.1        \1\ 56.0
BOR.....................................           337.2            8.4
------------------------------------------------------------------------
\1\ Trust lands.

    It should be noted that no direct correlation exists between 
construction needs and the number of acres administered by the Bureaus. 
Constructions needs encompass a wide range of projects to protect, 
enhance, and manage Interior's resources, such as, irrigation 
facilities, visitor centers, recreation facilities and trails, and BIA 
schools, to name just a few.

             BUREAU OF INDIAN AFFAIRS--BUDGET REORGANIZTION

    Question. Recently the BIA has proposed restructuring its budget 
structure to match program components that have been found in multiple 
areas. I have heard from tribes that are concerned that the new 
structure makes it harder to account for Tribal Priority Allocations 
(TPA)/and that it appears the line between regional offices and the 
headquarters office will blurred even further.
    Can you assure us that you will fully consult with the tribes prior 
to implementing any element of the new budget structure?
    Answer. The BIA has consulted with tribes regarding the Bureau's 
proposed restructured budget during regular meetings of the BIA/Tribal 
Budget Advisory Council. This consultation is expected to continue.
    Question. Can you report back to the subcommittee on the progress 
of these consultation sessions?
    Answer. The Tribes recognize that the restructured budget 
simplifies the justification of BIA programs and clearly ties programs 
to the Strategic Plan and performance measures.

         BUREAU OF INDIAN AFFAIRS--GAO AUDIT OF BIA IRRIGATION

    Question. In November I requested GAO work with the BIA Irrigation 
program to examine ongoing management concerns, specifically related to 
repair and maintenance schedules. Unfortunately, most of our Indian 
irrigation infrastructure is in serious disrepair. This is a top 
priority for Montana.
    Can you assure us that the Department will work in good faith with 
the GAO to ensure all information necessary to complete this audit is 
provided as quickly as possible?
    Answer. The BIA central office, regional offices and agency 
irrigation project staff are providing GAO any information it requests 
in a prompt manner. GAO has visited the Rocky Mountain Region 
(Billings, MT) and the Crow Irrigation Project (Crow Agency, MT) as 
part of GAO's design phase. A sample of the documents BIA has submitted 
to GAO include irrigation deferred maintenance cost estimates, general 
irrigation project information and statistics, listings of BIA 
personnel involved in irrigation projects, and water users names.
    Question. Has the Department implemented any internal reforms to 
address the ongoing communication problems between headquarters and the 
regional irrigation offices?
    Answer. The BIA Central office personnel have made concerted 
efforts to work closer with the regions and project offices. The BIA 
central office is also sharing information, providing training on 
annual budget preparation and annual deferred maintenance, and 
developing project operating instructions.

 BUREAU OF INDIAN AFFAIRS--TRIBALLY CONTROLLED COMMUNITY COLLEGES AND 
                      OTHER EDUCATIONAL FACILITIES

    Question. I have continually voiced my strong support for the 
Tribally Controlled Community Colleges, and I continue to believe they 
have been a resounding success in helping our native communities. 
Despite the headway we have made in prior years, your request reduces 
funding for TCCCs by almost $10 million. Additionally, your budget 
request slashes Johnson O'Malley grants which provide assistance to 
public schools with Indian students, and you cut Education Construction 
by almost $90 million.
    With well over $100 million in cuts to Indian Education programs, 
can you explain the Administration's commitment to helping Native 
American children receive the training and tools to better their 
communities?
    Answer. One of BIA's strategic goals is to provide quality 
educational opportunities from early childhood through adulthood. The 
2006 BIA education budget represents a continued commitment to the 
future of American Indian youth and supports the President's commitment 
to ``leave no child behind.'' The $521.6 million request for elementary 
and secondary school operations will support 184 schools and 
dormitories serving over 47,000 Indian children. The $232 million 
request for school education construction will continue to replace, 
repair and maintain schools in the BIA system to provide Indian 
students a safe and nurturing place to learn. The $43 million request 
for Tribal Colleges and Universities operating grants will provide 
$3,500 per Indian student. When BIA funding is combined with grant 
funding from the Department of Education, TCUs will receive over 40 
percent more in revenue from those two Federal sources than an average 
community college receives per student from all sources. BIA funding 
also provides scholarship funding for Indian students to attend Indian 
or non-Indian schools. The total BIA education request of almost $800 
milllion is geared toward improving student performance and furthering 
the education of Indian children to enrich their lives and the future 
of their communities.
    Question. Tribal colleges have shown time and time again their 
value in educating tribal community leaders and providing students the 
ability to expand their economic options. Do you believe these programs 
are a waste of money?
    Answer. The education provided by tribal colleges and universities 
is important in multiple ways. Curriculum is designed to meet the needs 
of the local economies, respect the culture and mores of the sponsoring 
Tribe, and provide students ways to maximize their potential and 
fulfill educational dreams. TCUs serve Tribal members in remote areas, 
offer educational opportunities to the community at large and open 
students to the larger realm of education.
    Question. Why do Indian Education accounts take the bulk of the 
cuts in the Department of the Interior's request before Congress?
    Answer. The 2006 BIA budget requests almost $800 million for 
education programs for pre-kindergarten through college. Funding 
reflects the capability of Education programs to effectively and 
efficiently use resources to meet the goal of leaving no child left 
behind.
    During the President's first term, over $1.1 billion was invested 
in Indian School construction. This funded 27 replacement school 
projects and 28 major facilities improvement and repair projects. We 
are comfortable with this year's education construction program level 
because there are currently 25 replacement schools in the planning and 
design process or under construction. Eleven of these schools will be 
completed in 2005 and 2006. Funding at higher levels than requested for 
2006 would exceed our ability to prudently manage the construction 
program.
    The President's budget eliminates $5.2 million in the BIA budget 
for UTTC and CIT. However, the President requests $7.5 million funding 
in the Department of Education budget under the Tribally Controlled 
Postsecondary Vocational and Technical Institutions Grant program. The 
UTTC and CIT are the only institutions eligible for grants under this 
program. The Department also worked with the Department of Labor to 
ensure that tribal colleges benefit from the new community college 
assistance program. We are also looking for opportunities where UTTC 
and CIT may have a role in training BIA and OST employees.
    The President's budget reduces funding for Johnson O'Malley grants 
because it is duplicative of funding available to public schools in the 
Department of Education budget. The Dept. of Education budget includes 
over $150 million in funding specifically targeted to Indian students 
attending public schools. Public schools with Indian students also 
receive over $500 million, or about 55 percent, of impact aid funding 
from the Dept. of Education.

           BUREAU OF INDIAN AFFAIRS--DETENTION CENTER FUNDING

    Question. I applaud the ongoing efforts of the Departments of 
Justice and Interior to increase their funding of Native American 
justice facilities. In my own state the detention facilities are in 
terrible disrepair.
    Your budget for Facilities Improvement and Repair includes the 
Blackfeet Detention Center as one of its 3 major projects for fiscal 
year 2006. I'm happy to see this, but must say the dedication to these 
types of facilities comes a bit late.
    Can you outline the Department's plan of action to address the sad 
state of our detention facilities?
    Answer. The BIA has developed a multi-level plan to address 
detention center issues in Indian Country. In an effort to improve 
oversight of detention centers, BIA has established the position of 
Associate Director of Corrections within the Office of Law Enforcement 
and Security, Supervisory Detention Specialists have been placed in 
each district, and a program analyst has been directed to monitor OLES 
funds. The 2006 BIA budget includes a $16.7 million increase in funding 
to: (1) staff, operate, and maintain detention facilities built with 
Department of Justice funding which will be certified for occupancy in 
2006, (2) outsource detention of inmates to local jurisdictions where 
BIA facilities do not comply with national standards, and (3) begin a 
comprehensive program to improve and repair detention facilities owned 
by the BIA.
    Question. Can we expect to see a cohesive plan from the Department 
that addresses the need to rebuild or repair these facilities 
throughout the West, and specifically in my state of Montana?
    Answer. The BIA has initiated a comprehensive plan to address the 
correction of deficiencies at all BIA owned or operated detention 
centers. The plan is being implemented under the Bureau's Public Safety 
and Justice Construction program.
    The action plan has been implemented in collaboration with Regional 
and Agency facilities staff and Office of Law Enforcement Services 
personnel. In fiscal year 2005, BIA initiated a validation of 
conditions reported in Facilities Management Information System (FMIS) 
at all detention centers. Using the updated information, the Bureau 
prioritized detention center Facilities Improvement and Repair (FI&R) 
projects under Public Safety and Justice Construction program based on 
reported health and safety needs.
    In fiscal year 2005, BIA FI&R projects at Havasupai Law Enforcement 
center (AZ) and Spokane Law Enforcement Center (WA) will address all 
life safety and building codes deficiencies to bring them in line with 
national detention center standards. BIA is currently evaluating the 
needs at Macy Law Enforcement Center (SD), Turtle Mountain Detention 
Center (ND), and Blackfeet Detention Center (MT) to determine the scope 
of projects necessary to bring these facilities up to national 
standards. Multiple smaller FI&R projects are currently underway at 
Bureau detention facilities to correct critical health and safety 
deficiencies. Projects include abating environmental hazards and 
remedying building code violations.
    At the proposed 2006 funding level, BIA expects to address and 
correct all deficiencies at BIA owned or operated detention center 
facilities by 2010.

           BUREAU OF INDIAN AFFAIRS--INDIAN CLAIMS SETTELMENT

    Question. I notice the Claim Settlement account sees another fairly 
drastic reduction from the prior year level. It is my understanding 
that the amount requested fulfills the government's responsibility in 
fiscal year 2006.
    Can you confirm the budget request level fully funds government's 
responsibility for claims in fiscal year 2006?
    Answer. Yes, the fiscal year 2006 President's budget request for 
Indian Land and Water Claim Settlements and Miscellaneous Payments to 
Indians account fulfills the Government's responsibility for fiscal 
year 2006.

         BUREAU OF INDIAN AFFAIRS--TRIBAL PRIORITY ALLOCATIONS

    Question. Recently the Supreme Court ruled that tribes have not 
been fully reimbursed for contract support on self-determination 
contracts they have entered into with the Indian Health Service and 
Bureau of Indian Affairs.
    Can you give us a short synopsis of the Supreme Court Decision and 
how it impacts the Department of the Interior?
    Answer. Because the Supreme Court emphasized that Indian Self-
Determination and Education Assistance Act agreements are, in affect, 
procurement contracts, the Leavitt case has the potential to 
significantly impact the manner in which the DOI articulates it 
obligation to pay contract support costs in such agreements. The 
Department is still assessing what specific changes may be required in 
BIA contract administration as a result of this case.
    Question. How will past shortfalls be accounted for?
    Answer. The Department has not yet arrived at an opinion of how the 
decision will retroactively impact contract support cost obligations. 
The issue is currently under consideration. The Department will keep 
the committee informed on any developments on this matter.
    Question. What does the Court Decision mean for fiscal year 2006? 
Will the Department be sending up an budget amendment to cover their 
obligation for fiscal years 2005 and 2006?
    Answer. The issue is currently under consideration. As yet, the 
Administration is not proposing an amendment. The Department will keep 
the committee informed on any developments on this matter.

    OFFICE OF THE SPECIAL TRUSTEE--HISTORICAL ACCOUNTING AND COBELL 
                               LITIGATION

    Question. It is my understanding that the bulk of the $76 million 
increase in the Office of the Special Trustee is for additional 
Historical Trust Accounting activities.
    Can you confirm that the entire increase is for Historical 
accounting activity, and can you update us on the progress of this 
exercise as it relates to the Cobell litigation?
    Answer. The OST budget for 2006 includes $135 million for 
historical accounting, an increase of $77.8 million over 2005. The 2006 
budget of $135 million for the Office of Historical Trust Accounting 
provides an estimated $95 million for IIM accounting, an increase of 
$50 million above the 2005 level, and $40 million for tribal 
accounting, an increase of $27.8 million above the 2005 level.
    The Department is currently involved in a major class action 
lawsuit, Cobell v. Norton, and 24 lawsuits associated with the 
management of Indian trust funds.
    The following is a summary of the progress made in historical 
accounting for individual accounts:
    Through December 31, 2004, the Office of Historical Trust 
Accounting had reconciled more than 36,700 judgment accounts with 
balances totaling more than $53 million and reconciled 7,360 per capita 
accounts with balances of over $21.7 million. OHTA also has resolved 
residual balances in 8,496 special deposit accounts, identifying the 
proper ownership of $40.8 million belonging to individual Indians, 
Tribes, and private entities. OHTA has also reconciled over 5,600 
transactions from land-based IIM accounts representing over $348 
million moving through IIM accounts. In addition, OHTA has mailed over 
9,500 historical statements of judgment and per capita accounts to 
individual Indian account holders and former account holders.

Summary Data on Accounting Results To Date
    High Dollar Transactions--$100,000 or More:
  --Ninety-three percent (or 865) of all 930 high dollar debit 
        transactions of $100,000 or more were reconciled.
  --Eight differences were found in the 865 reconciled high dollar 
        debit transactions. These differences all arose in the 
        settlement of three probates. Three of these eight differences 
        were to the disadvantage of the IIM accountholder, totaling 
        $1,807, and five were to the advantage of the IIM 
        accountholder, totaling $1,908.
  --Fifty-eight percent (536) of all 919 high dollar credit 
        transactions of $100,000 or more were reconciled.
  --Twenty-seven differences were found in the 536 reconciled credit 
        transactions, of which twenty were to the benefit of the IIM 
        accountholder (overpayments), totaling $21,468, and seven were 
        to the disadvantage of the IIM accountholder (underpayments), 
        totaling $2,071.
    Transactions Less than $100,000:
  --Ninety-two percent (1,887) of all 2,044 randomly sampled debit 
        transactions were reconciled. No differences between the posted 
        amount and the supporting documentation were found in the 
        reconciled transactions. While more needs to be done here, a 
        statistical inference can be made by using additional 
        assumptions.
  --If only sampling error is considered, these results make it 
        possible to infer with more than 99 percent assurance that the 
        difference rate is less than 0.5 percent for all 5.23 million 
        debit transactions under $100,000.
  --Fifty-nine percent (1,418) of all 2,401 randomly sampled, in-scope 
        credit transactions of less than $100,000 were reconciled. 
        Eleven differences were found, of which seven were overpayments 
        totaling $18 and four were underpayments totaling $505. While 
        well along, no statistical inferences can yet be drawn at this 
        time about the population of all 19.68 million.
    The percentage of dollars in error compared to dollars reconciled 
is less than eight-thousandths of one percent (0.007 percent).
    Question. For the past two years, we have included bill language 
that allows Self Governance tribes the ability to perform a number of 
trust duties.
    Can you update us on the implementation of the self determination 
demonstration as a model for tribal participation in trust management?
    Answer. Pursuant to the authorities provided in the Indian Self 
Determination and Education Assistance Act (Public Law 93-638, as 
amended) all tribes have been authorized to perform trust functions on 
behalf of the United States Government since passage of the Act in 
1975. The demonstration project did not provide any additional 
authorities for the demonstration tribes to perform any other trust 
duties than they were already authorized to perform.
    Sec. 131 of the General provisions of the Interior and Related 
Agencies title of the Consolidated Appropriations Act of 2005 provides 
the assurance that funds appropriated for fiscal years 2004 and 2005 
shall be available to the tribes within the California Tribal Trust 
Reform Consortium, and to the Salt River Pima Maricopa Indian 
Community, the Confederated Salish-Kootenai Tribes of the Flathead 
Reservation and the Chippewa Cree Tribe of the Rocky Boys Reservation 
on the same basis as funds were distributed in prior years. 
Furthermore, it allows these tribes to operate their programs separate 
and apart from the Department of the Interior's trust reform 
reorganization, and ensures that the Department will not impose its 
trust management infrastructure upon or alter the existing trust 
resource management systems of the above referenced tribes.
    The bill language has also required that the participating tribes 
agree to carry out their responsibilities under the same standards as 
those to which the Secretary of the Interior is held and further, that 
they demonstrate to the satisfaction of the Secretary that they have 
the capability to do so.
    In order to ensure that the demonstration tribes had the capability 
to perform in accordance with these standards, examinations of their 
trust programs were conducted. With only one exception, the 
participating tribes demonstrated that they were capable of performing 
the trust functions compacted under the same standards as those to 
which the Secretary is held. The one tribe deemed not capable has since 
prepared a corrective action plan that is successfully addressing the 
weaknesses identified. Communication with the participating tribes is 
ongoing and follow-up to last year's examinations is currently being 
done.
    The Department understands that the original intent of this 
language was to protect the participating tribes from any adverse 
impact, budgetary or otherwise, that was perceived might occur as a 
result of the implementation of the Department's trust reform 
initiatives. Many of these reforms have already been put in place with 
no negative impact on any of the tribes including those participating 
in the demonstration program. Furthermore, none is expected.
    Question. The Cobell litigation continues to concern the 
Subcommittee as we grapple with providing funds for basic Indian 
Affairs services.
    Can you update us on the latest progress in the Cobell case?
    Answer. In June 1996, the Department was named, as defendant in the 
Cobell v. Babbitt, now Cobell v. Norton litigation. This is a class 
action lawsuit for an accounting of funds held in trust by the Federal 
Government for individual Indians in Individual Monies Accounts. The 
district court in Cobell certified the class as consisting of all 
present and former beneficiaries in the IIM accounts.
    On December 10, 2004, the Court of Appeals addressed the district 
court's September 25, 2003 order. The ruling addressed the two main 
categories of the district court's decree: ``Historical Accounting'' 
and ``Fixing the System.'' The Court found that Historical Accounting 
was governed by Public Law 108-108 and thus vacated the district 
court's order with respect to that portion of the case. In so finding:
  --The Court pointed out that Congress passed Public Law 108-108 ``to 
        clarify Congress's determination that Interior should not be 
        obliged to perform the kind of historical accounting the 
        district court required.''
  --The Court stated ``The committee ``reject[ed] the notion that in 
        passing the American Indian Trust Management Act of 1994 
        Congress had any intention of ordering an accounting on the 
        scale of that which has been ordered by the Court. Such an 
        expansive and expensive undertaking would certainly have been 
        judged to be a poor use of Federal and trust resources.''
    The Court rejected the plaintiffs' argument that Public Law 108-108 
amounted to a legislative stay of a final judicial judgment and thus 
violated the separation of powers doctrine. The Court found a critical 
distinction between statutes that reverse final judgments for money 
damages and statutes that alter substantive obligations of parties 
subject to ongoing duties under an injunction.
    Plaintiffs also argued Public Law 108-108 violated the due process 
and takings clauses of the Fifth Amendment. The Court rejected this 
argument, noting that plaintiffs did not explicitly identify the 
property right being taken other than to reference the right to 
interest earned on trust accounts. The Court also pointed out that 
``Congress may provide a simpler scheme than the district court's, 
while nonetheless assuring that each individual receives his due or 
more.''
    While the second part of the Court's decision focuses on ``Fixing 
the System,'' elements of it are important to decisions relating to 
historical accounting. The Court confirmed an earlier district court 
observation that the establishment of a trust relationship does not 
mean that plaintiffs can automatically ``invoke all the rights that a 
common law trust entails.'' The Court reasserted that the government's 
duties must be ``rooted in and outlined by the relevant statutes and 
treaties . . .''
    The Court also focused on the government's argument that normally 
private trust expenses are met out of the trust itself, pointing out 
``[T]hus plaintiffs here are free of private beneficiaries' incentive 
not to urge judicial compulsion of wasteful expenditures.''
    In short, the Court's decision invites a discussion within both the 
Executive Branch and the Congress as to what is an appropriate 
historical accounting.
    On February 23, 2005 the Cobell court issued an order reinstating 
the structural injunction previously issued on September 23, 2003, 
directing the Department to conduct a far more expansive accounting and 
requiring that it be completed under even more constrained time lines. 
The current order requires extensive work beyond what is currently 
budgeted in 2005 or proposed in 2006 to be completed by January 6, 
2006. In addition to the planned completion of accounting for all 
judgment and per capita accounts, the court order directs that indexing 
of all trust-related records located at Federal facilities in 
Albuquerque, New Mexico, and Lee's Summit, Missouri, the systems tests 
related to electronic data gaps, and the systems conversion from the 
Integrated Records Management System (IRMS) to the Trust Funds 
Accounting System.
    The Department's fiscal year 2005 and fiscal year 2006 budget for 
historical accounting is based on continuing efforts as outlined in the 
January 6, 2003 Historical Accounting Plan. However, as a result of the 
district court reissuing the structural injunction on historical 
accounting on February 23, 2005 the Department is continuing 
discussions with the Department of Justice on the course of action 
available. The preliminary estimate developed by the Department is that 
it will cost between $12 and $13 billion to comply with the court 
order. The Department's budgets for 2005 and 2006 are not constructed 
to address these requirements.
    On March 9, 2005 the Department of Justice filed an Emergency 
Motion For Stay Pending Appeal of the structural injunction issued by 
the district court on historical accounting with the Court of Appeals. 
The Court of Appeals granted the Stay Pending Appeal on April 7, 2005.
    Question. I see that Judge Lamberth's recent decision re-imposes 
his structural injunction in the Cobell case.
    What would be the impact on the Department, and particularly its 
Indian programs, if the injunction remains in place given the 
limitations of the current fiscal environment?
    Answer. As noted above, the Department's fiscal year 2005 and 
fiscal year 2006 budget for historical accounting is based on 
continuing efforts as outlined in the January 6, 2003 Historical 
Accounting Plan. The preliminary estimate developed by the Department 
is that it will cost between $12 and $13 billion to comply with the 
court order structural injunction. The Department's budgets for 2005 
and 2006 are not constructed to address these requirements.
    If the Court of Appeals does not grant an appeal of the district 
court structural injunction, the Administration and the Congress will 
be forced to address how to comply with the district court order, which 
would have a severe impacts on the Federal budget.
    As this Committee noted in enacting Public Law 108-108, Congress 
observed that the reallocation of resources required by the initial 
2003 injunction ``would be devastating to Indian country and to the 
other programs in the Interior bill.'' As the committee report 
explained, the expenditure of billions of dollars on an accounting 
``would not provide a single dollar to the plaintiffs, and would 
without question displace funds available for education, health care 
and other services.'' H.R. Conf. Rep. 108-330, page 117.
    Question. What has been the nature of your discussions with the 
authorizing committees with regard to a long-term solution to the trust 
reform problem?
    Answer. Staff from both the Senate and House aauthorizing 
committees participated in the discussions held last year with the 
plaintiffs in the Cobell litigation. The Administrations position 
throughout these discussions has always been that any settlement must 
be fair and equitable to both the beneficiaries and the taxpayers. Any 
long-term trust reform effort must include a method to fully address 
fractionation of individual Indian lands.
    Question. Am I wrong to assume the mediation process started last 
year is faltering and will probably not result in the resolution of 
this case?
    Answer. Through the efforts of the authorizing committees, the 
plaintiffs and the Department participated in a mediation of the Cobell 
case last year. The mediators, selected by the parties, conducted 
numerous meetings, both jointly and separately with the parties. 
However, to date, no material progress can be reported by the 
Department. The Committee is encouraged to contact the mediators 
directly for a constructive discussion of the mediation process and 
results.
    The Department is committed to a resolution of this litigation that 
is both fair to all parties and is based on a supported basis for a 
settlement. Despite the efforts of this Administration and the previous 
Administration, mediation, and Congressional interests, the Department 
believes that only Congress can resolve this litigation, either through 
a legislative settlement or by clearly defining what is intended when 
it required an accounting of trust funds in the 1994 Trust Reform Act.

                      LANDOWNER INCENTIVE PROGRAM

    Question. According to the fiscal year 2006 budget justification, 
the Fish and Wildlife Service has yet to develop performance measures 
for the Landowner Incentive Program.
    What have been the major obstacles to establishing these measures?
    Answer. The Service expects to have quantifiable, meaningful 
baseline performance measures completed by the end of this fiscal year. 
In establishing these goals, the Service is working through several 
obstacles including determining achievable accomplishments in 
coordination with our State grant recipients, and a lack of 
standardized data and monitoring protocols.
    Question. When will these measures be fully implemented?
    Answer. The Service will have established baseline performance 
measures by the end of this fiscal year and will strive to get them 
incorporated into future budget justification documents. This timeframe 
allows our grant recipients to have implemented and reported on their 
grant accomplishments for 2-3 fiscal years, which will improve the 
accuracy of the data and allow us to validate our performance measures. 
The planned performance measures will be in effect for our fiscal year 
2007 budget process.
    Question. Given the lack of adequate performance measures and tight 
budget constraints, does it make sense to propose such a large increase 
for this program ($16 million)?
    Answer. Yes. The Service has strict grant selection criteria and 
reporting requirements that ensure all grant projects are of high 
quality and benefit many species in need of conservation. As a 
relatively new program, many States have recently set up the 
infrastructure and developed the critical partnerships with private 
landowners that are needed to achieve the program's goals. By 
increasing funding, the program will be able to carry out its mission 
in more States than currently possible and have in place a strong 
program that will build on its previous successes.

                 FISH AND WILDLIFE SERVICE CONSTRUCTION

    Question. The fiscal year 2006 request proposes to reduce the 
construction account by $33 million. There are no plans to construct 
any of the high priority visitor centers or to complete visitor centers 
that are currently in the design and/or construction phase.
    What are the agency's long term plans for meeting visitation needs 
on the refuge system?
    Answer. The National Wildlife Refuge System Improvement Act states 
that compatible wildlife dependent recreation uses (hunting, fishing, 
wildlife observation, photography, interpretation, and environmental 
education) are the priority general public uses of the System through 
which the American public can develop an appreciation for fish and 
wildlife. In order to meet growing visitor demands, the Service has 
initiated its visitor facility enhancements program. In contrast to 
large-scale projects such as visitor centers, the new program focuses 
on construction of small-scale visitor facilities such as kiosks, boat 
ramps, photo blinds, and fishing piers that allow Americans to 
experience wildlife up close. We believe this program is better suited 
to meet the future interests of our visitors.
    Question. What methods (such as the use of standardized nationwide 
designs) has the agency explored to reduce the cost of facilities?
    Answer. In 2002, the Service's Division of Engineering produced a 
comprehensive document titled, ``Site Adaptable Facility Designs--A 
Planning Guide for New Projects.'' This manual provides standard design 
guidelines for 5 categories of facilities: office buildings, 
maintenance buildings, housing, storage buildings, and comfort 
stations. This is evidence that the Service is very much committed to 
using standard designs--where it is proven to be cost effective. In 
addition, Region 5 recently completed standardized designs for a small, 
medium and large visitor center and plans to use them consistently 
throughout that region. The National Wildlife Refuge System program 
office and regional offices are currently evaluating these designs to 
determine whether they are appropriate for use elsewhere in the 
Service.
    Question. Has the agency considered greater use of outside 
engineering firms to lower the cost of designing and constructing 
needed facilities?
    Answer. In fiscal year 2004, the Service outsourced approximately 
$17 million of engineering work to Architectural/Engineering 
contractors, or 61 percent of the total planning, design, and 
construction management obligations associated with 503 projects. While 
we continue to look for other ways to engage contractors, the Service 
has found that this level of contract work with outside engineering 
firms seems to be very efficient. In fact, the Service believes that 
greater use of outside engineering firms would increase the cost of 
completing smaller deferred maintenance and rehabilitation projects--of 
which there were 360 such projects in fiscal year 2004, because smaller 
deferred maintenance projects are not cost effective to bid, and A/E 
firms are not typically interested in small projects that are 
geographically dispersed throughout the nation. However, the Service 
plans on conducting a comprehensive competitive outsourcing study of 
all engineering-related professional disciplines in fiscal year 2006 in 
order to make sure that all possible efficiencies are being utilized.

                FISH AND WILDLIFE MIGRATORY BIRD PROGRAM

    Question. The fiscal year 2006 request proposes an increase for 
existing joint ventures in addition to funds for six new joint 
ventures. Given tight budget constraints, the Committee may not be able 
to provide all of these requested funds.
    Is it a greater priority to provide additional funds for the 
current joint ventures, or is it more important to start up the new 
ventures?
    Answer. Due to rescissions and fixed cost increases, current joint 
ventures received slightly less funding in fiscal year 2005 than in 
fiscal year 2004. Therefore, it is a top priority for the existing 
joint ventures to receive the requested fiscal year 2006 increase. At 
the same time, bird conservation partners in areas of the country 
without joint ventures continue to organize and support new joint 
ventures to meet outstanding bird conservation needs and deserve some 
level of assistance from the Service.
    Question. Of the six new proposed joint ventures, which are of 
greatest importance to begin as early as possible?
    Answer. The Central Hardwoods Joint Venture has met all the 
Service-established criteria for receiving funding support, including 
the development of an approved Joint Venture Plan. The Northern Great 
Plains Joint Venture is expected to complete work on their Plan in the 
next few months. These should be the first of the new joint ventures to 
receive funding. All of the new joint ventures are making progress 
toward these same criteria.

              FISH AND WILDLIFE SERVICE SCIENCE INITIATIVE

    Question. The fiscal year 2006 budget request proposes $2 million 
for a science excellence initiative within the Fish and Wildlife 
Service budget.
    Are these funds to enhance the Service's scientific capability?
    Answer. No, the $2 million requested for the Science Excellence 
Initiative would not be used to manage the Service's existing 
scientific capability; it would be used to meet mission-critical needs 
that cannot be met within core capabilities. The funds would be used to 
develop additional partnerships and mechanisms to enable the Service's 
scientists to collaborate more effectively among themselves and with 
expert scientists in other organizations, especially the U.S. 
Geological Survey. For example, funds ($500,000) requested to establish 
one or more communities of practice would bring together expert 
scientists in the Service and USGS and provide them with a mechanism to 
share and exchange scientific information and work together on high-
priority fish and wildlife issues. These communities of practice would 
largely be virtual fora where experienced scientists and new scientists 
alike could go to accelerate their learning about emerging scientific 
techniques and scientific information, and to discuss specific 
situations where those techniques and that information were 
instrumental in resolving fish and wildlife issues or in preparing fish 
and wildlife management plans, such as recovery plans and refuge 
management plans. Similarly, about a quarter of the funds requested 
would be used by the Service to work directly with USGS's Cooperative 
Research Units, which have unique capability to provide the timely 
technical assistance, scientific expertise and scientific information 
Service scientists need to manage fish and wildlife on-the-ground, 
particularly on refuges, in National Fish Hatcheries, and in a variety 
of restoration programs, like those supported by the Partners for Fish 
and Wildlife program. Likewise, about a third of the funds requested 
would be used to work directly with USGS scientists in relationships 
that would resemble consultancies or limited scientific partnerships. 
These relationships would enable operational scientists in the Service 
to acquire special kinds of expertise, such as in ecological modeling 
and adaptive management, that they need to manage refuge lands, 
conserve threatened and endangered species, conserve migratory 
waterfowl, and restore interjurisdictional fisheries.
    Question. Why does the Service need to develop this science 
capability in-house rather than relying on USGS to meet these needs?
    Answer. The Service must have the operational scientific capability 
to apply cutting edge science and complex scientific methods to 
administer the programs for which our agency is responsible. While we 
rely upon USGS and other science organizations for many research needs, 
where information is needed to inform our management; the effective 
administration of our science-based management programs requires 
operational science capability at a high level. This increase request 
is to enhance this operational science capability within the Service.
    The Service needs to provide its front line scientists with the 
basic means they need to acquire the scientific information, scientific 
expertise and technical assistance they use daily to address complex 
resource management issues. Service scientists, many of whom work at 
isolated duty stations with only one or two peer scientists, must be 
linked to the broader scientific community and to world-class 
scientific institutions, where they can go for assistance and 
consultation. The $2 million requested for the science excellence 
initiative would link the Service's operational scientists with one 
another and with USGS's research scientists through: (1) communities of 
practice, which would enhance collaboration among scientists engaged in 
issues like structured decision support systems, conservation genetics 
and adaptive management; (2) consultancies and limited partnerships 
that would enable the Service's operational scientists to work hand-in-
hand with USGS expert scientists on particularly complex resource 
issues; and (3) collaborative ventures with Cooperative Research Units, 
which would enable Service scientists to augment their expertise by 
acquiring special expertise and information housed in CRUs.
    Question. How, if at all, is the USGS involved in this initiative?
    Answer. USGS is a willing and supportive partner in the Science 
Excellence Initiative and in the Service's $2 million request in fiscal 
year 2006. Directors Groat (USGS) and Williams (FWS) conferred 
extensively about their bureaus' priority budget needs in both fiscal 
year 2005 and fiscal year 2006. In fiscal year 2005, the bureaus built 
budget initiatives that were complementary and carefully integrated, 
and which were intended to provide both bureaus with much-needed 
capabilities to address local issues confronting our nation's fish and 
wildlife. However, funding to support these capabilities was not 
appropriated. Nonetheless, the Directors collaborated again in 
developing their fiscal year 2006 budget proposals. Director Groat 
(USGS) lent his full support to the Service's request for $2 million in 
fiscal year 2006 for its Science Excellence Initiative.
    In addition to being a supportive partner, USGS is also willing to 
work with the Service to help develop the infrastructure and 
collaborative relationships that would be supported by the Service's $2 
billion budget request. Director Groat and his senior managers in the 
biological discipline, as well as leaders at Cooperative Research Units 
and the Survey's research centers, await opportunities to work with the 
Service to establish communities of practice and science consultancies, 
and to work together on pressing resource issues at local levels.

                           FISHERIES PROGRAM

    Question. The fiscal year 2005 budget justification did not 
adequately describe the impacts that the proposed budget would have on 
the fisheries program. The Committee learned well after the submission 
of the budget that several important hatchery facilities would be put 
in caretaker status or be closed completely. The Committee provided 
additional funds to prevent these closures.
    At the levels proposed in the fiscal year 2006 request, will any 
hatcheries be closed or have significant staff reductions?
    Answer. No National Fish Hatcheries will close or have significant 
staff reductions in fiscal year 2006 at the proposed levels. The 
President's fiscal year 2006 Budget Request includes increases of 
$2.111 million for National Fish Hatchery System (NFHS) operations 
funding and a general program increase of $345,000 for maintenance 
funding. These increases will allow the NFHS to clearly focus on 
implementation of priority restoration, recovery, and science and 
technology projects to achieve goals outlined in the National Fisheries 
Program Strategic Plan.
    Question. Does the fiscal year 2006 request maintain the additional 
$885,000 that the Committee added to the base program for fiscal year 
2005?
    Answer. The fiscal year 2006 request does not include the 
additional $885,000 that the Committee added to the base program in 
fiscal year 2005.

                        ESA CONSULTATION BUDGET

    Question. The Committee frequently hears from various groups that 
it take too long for projects to receive their section 7 consultation 
approval from the Fish and Wildlife Service.
    What has been the level of staffing for this program for each of 
the last five years?
    Answer. The number of full time equivalents (FTE) working on 
consultations in the past five years has been as follows:

------------------------------------------------------------------------
                                                              Full time
                        Fiscal year                          equivalents
------------------------------------------------------------------------
2000.......................................................         380
2001.......................................................         430
2002.......................................................         480
2003.......................................................         480
2004.......................................................         480
2005.......................................................         480
------------------------------------------------------------------------

    Question. Is there a large backlog of proposed projects that need 
section 7 consultations?
    Answer. The Service attempts as much as possible to meet the 
consultation timeframes imposed by the Act. However, the Service 
acknowledges that its consultation workload is high and increasing and 
is taking steps to address it. We have recently promulgated two joint 
counterpart regulations that are intended to provide flexibility in the 
ways a Federal agency may meet its obligations under the ESA by 
creating alternative procedures to the section 7 consultation process. 
They reduce our workload by enhancing the efficiency and effectiveness 
of the section 7 consultation process by increasing interagency 
cooperation and providing two optional alternatives for completing 
section 7 consultation. We have promulgated a counterpart regulation 
for EPA pesticide consultations under the Federal Insecticide, 
Fungicide and Rodenticide Act. As part of the President's Healthy 
Forests Initiative, we developed counterpart regulations with the 
Bureau of Land Management, National Park Service, Bureau of Indian 
Affairs, USDA Forest Service, and the National Marine Fisheries Service 
to streamline consultations on proposed projects that support the 
National Fire Plan.
    Question. If so, would additional personnel reduce this backlog?
    Answer. Yes, additional personnel could help address the backlog in 
the short-term. However, we have a continued effort to streamline 
consultations to reduce the backlog in the long-term. Accordingly, 
additional personnel may not be the best use of resources in the long 
run.
    Question. How much funding does the Service receive from other 
Department of the Interior agencies and the Forest Service for 
consultation work on hazardous fuels reduction projects?
    Answer. Agreements were signed in 2001 within the Department of the 
Interior and with the Forest Service and BLM that allow the Service to 
be reimbursed by the fire management agencies for costs associated with 
the increased consultation workload related to the fire plan. Since 
fiscal year 2001, over $12.7 million appropriated to the Forest Service 
and BLM for the purposes of wildland fire management has been made 
available to the Service through these agreements and subsequent 
modifications.
    Question. Are these funds from other agencies certain enough that 
the Service can hire on additional staff to perform this work or does 
the amount of funds vary too much from year to year?
    Answer. The interagency agreement funding has supported 
approximately 43 full time equivalent employees to work on fire 
consultations to date. Agreements negotiated in 2001 provided funding 
through 2006 or until expended. In addition, in many Field Offices, the 
Service reassigned its most experienced section 7 staff to work on the 
National Fire Plan. These biologists are now available to assist the 
fire management agencies in early project planning.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

                       BUREAU OF LAND MANAGEMENT

    Questions. The 2004 fire season was the worst Alaska has ever seen. 
Alaska had 703 fires and over 6.6 million acres burned. Not only did 
these fires affect the land and wildlife in various regions of the 
state, but the health and safety of nearby residents. For more than 15 
days, the EPA rated the air quality in Fairbanks as ``hazardous,'' 
meaning that particulate matter in the air exceeded 350 micrograms per 
cubic meter. At several times during the summer, Fairbanks and the 
surrounding communities exceeded 995 particulates per cubic meter. A 
typical day in Fairbanks rates 10 micrograms per cubic meter. Residents 
had to avoid any outdoor exertion, and people with respiratory or heart 
disease, the elderly, and children had to remain indoors.
    I have received reports that the effects of these fires could have 
been diminished, but the federal agencies lacked the resources, 
manpower, and equipment necessary to adequately attack these fires at 
their inception. This led to relatively minor fires expanding until 
they burned out of control.
    Given the 2004 fire season in Alaska, has the Department 
reevaluated its procedures? What changes, if any, have been made to 
fire policy, particularly in areas with less population but where 
fires, if left to burn, could have devastating effects on the land and 
to wildlife? Do you feel that the Department's budget has adequate 
resources for this upcoming fire season?
    Answer. The Alaska Wildland Fire Coordinating Group (AWFCG) has 
been actively evaluating operations and procedures based on the 2004 
fire season. This group consists of the Department of the Interior's 
National Park Service, Fish and Wildlife Service, Bureau of Indian 
Affairs and the Bureau of Land Management, along with the Department of 
Agriculture's Forest Service, the State of Alaska, and representatives 
from Chugachmuit and Tanana Chiefs.
    As part of the evaluation process the AWFCG sponsored a series of 
13 public meetings in communities throughout Alaska's interior and in 
Anchorage. Additionally, AWFCG participated in and took comments at the 
fall meeting of the Forty-Mile Miners Association and the Bureau of 
Indian Affairs Providers Conference. A wide range of concerns and 
comments raised at those meetings are now being addressed.
    The AWFCG has developed a summary of the public comments, 
recommendations and actions based on the community meetings and written 
comments received since the 2004 fire season. This document can be 
found at the following web site: http://fire.ak.blm.gov. At this site, 
the document can be found by clicking on the fire planning section and 
referring to community meetings.

                                ACTIONS

Fire Planning Process
    The AWCG reviewed the Alaska Interagency Wildland Fire Management 
Plan (AIWFMP) and confirmed that the plan is a positive approach to 
overall statewide fire management and that the plan provides the 
flexibility to make any needed adjustments based on the 2004 season.
    The AIWFMP provides for an annual review of the management options 
for designated protection levels, e.g. critical, full, modified, and 
limited. The land management agencies have reviewed the boundary 
locations delineating these levels, and some boundaries have already 
been changed based on the concerns expressed by Alaska communities. 
Other boundary changes are being considered but are not yet final.
    There were many concerns raised about the level and duration of 
smoke in the communities affected by last year's fires. The AIWFMP 
currently provides flexibility for the land manager/owner or AWFCG to 
authorize an increased level of suppression as conditions require, 
regardless of management option designation. However, previously there 
were no criteria identified in the AIWFMP as to when this adjustment 
should be considered.
    AWCG has drafted proposed evaluation criteria, or trigger points, 
for when increased suppression should be considered in the interest of 
smoke mitigation. The draft is being reviewed by the interagency 
wildland fire community and will be implemented before the upcoming 
fire season. However, it is important to recognize that, in any given 
situation, there is no guarantee that increased suppression will 
successfully reduce fire impacts, including smoke. Moreover, one must 
be cognizant of the fact that, over time, successful suppression can 
actually increase fire risks by contributing to the buildup of 
hazardous fuels. Successful suppression strategies require a careful 
balancing of these short- and long-term risks.
    In 1958, the State of Alaska was granted over 103 million acres of 
land under the Alaska Statehood Act. In 1971, Native Alaskans were 
granted 44 million acres of land under the Alaska Native Claims 
Settlement Act. At present, approximately 89 million still await final 
transfer. To remedy this situation, Senator Lisa Murkowski and myself 
sponsored the Alaska Land Transfer Acceleration Act to accelerate 
conveyances to the State of Alaska and Native Corporations, finalize 
pending native allotments, and complete the University of Alaska's 
remaining land entitlement by 2009--it became law in December 2004. 
While these legislative changes are a necessary component, the goal of 
completing conveyances by 2009 requires increases in funding.
    Question. Given the importance of completing the Alaska conveyance 
process, why did BLM decrease funding for this program by over $9 
million?
    Answer. The BLM fully supports the Alaska Conveyance program. The 
significant increase provided by Congress in the 2005 appropriations 
process could not be maintained in a constrained fiscal environment. 
The 2006 budget funds the program at the same level as in the 2005 
request, with the addition of uncontrollables, which the Department 
believes at the present time is a more sustainable level. At the 2006 
request level, the BLM will continue to make significant progress in 
transferring Federal lands in Alaska to other ownerships. New 
provisions provided by the recently enacted Alaska Land Transfer 
Acceleration Act will allow the BLM to accelerate the completion of the 
program and reduce costs.

                       FISH AND WILDLIFE SERVICE

    Question. The Endangered Species Act provides broad protections for 
fish, wildlife and plants that are threatened or endangered. Every 
year, Congress appropriates hundreds of millions of dollars for that 
program. The spectacled eider and Steller's eider are two species in 
Alaska that have been listed as threatened. The Fish and Wildlife 
Service's budget proposes decreasing funding for their recovery by over 
$1 million.
    Given the importance of conserving endangered and threatened 
species and the ecosystems upon which they depend, what is the 
Department's justification for reducing funding for their recovery to 
less than $500,000?
    Answer. The requested changes in the recovery budget reduce the 
funding for the Alaska Sea Life Center to $494,000, which will likely 
be used for collaboration between the Service and the Alaska Sea Life 
Center to continue coordination of the eider recovery team and applied 
studies on eider biology, physiology, and ecology; and continue 
outreach and education efforts involving Alaska Natives and other rural 
residents in eider conservation efforts. The $1.9 million proposed 
increase in Recovery general program funding will actually increase the 
Service's ability to leverage existing funds with willing partners to 
implement the recovery programs for a wide variety of species. In this 
manner, we will still be able to complete our highest priority recovery 
planning and implementation actions.
    Question. One requirement of the Marine Mammal Act is that marine 
mammal populations and the marine ecosystems upon which they depend be 
maintained at, or returned to, healthy levels. This mandate is of 
particular importance to my state given the number and types of marine 
mammals in Alaska and the need to ensure sustainable use of marine 
mammals for subsistence purposes.
    What is the Department's justification for eliminating funding for 
Alaska Marine Mammals--over $2 million was appropriated for this 
program in fiscal year 2005?
    Answer. The earmark provided in fiscal year 2005 is targeted to two 
areas: (1) $1,183,000 for cooperative agreements with Alaska Native 
organizations, and (2) $986,000 for marine mammal surveys in Alaska. We 
anticipate that the tasks and projects funded with this earmark, and 
that are described below, will be completed in fiscal year 2005. The 
Service is committed to continuing to meet our responsibilities for 
marine mammal conservation and management under the Marine Mammal 
Protection Act, and recovery for those species listed under the 
Endangered Species Act. We anticipate that at the Administration's 
request level, we will be able to implement activities to conserve and 
manage marine mammals and meet our responsibilities.
    The fiscal year 2005 appropriation included $1,183,000 for grants 
to develop and implement cooperative agreements with Alaska Native 
organizations, under Section 119 of the Marine Mammal Protection Act of 
1972, as amended in 1994. These agreements enhance the management of 
polar bears, Pacific walrus, and northern sea otters in Alaska. In 
fiscal year 2005, funds are being provided to the Eskimo Walrus 
Commission, the Alaska Sea Otter and Steller Sea Lion Commission, and 
the Alaska Nanuuq (Polar Bear) Commission, where they continue to be 
used to develop the management capabilities of the Native community for 
locally directed subsistence harvest. The funds appropriated in fiscal 
year 2005 help bring together people from remote villages to develop 
and implement effective and consensus management strategies, which 
enhances communication within the Native community and between the 
Native community and the Service. Other cooperative projects increase 
local involvement in gathering environmental data and compiling 
traditional knowledge to support sustainable use of marine mammal 
subsistence resources. The Service establishes Cooperative agreements 
with the three Commissions on an annual basis and therefore, these 
grant-funded tasks will be completed in fiscal year 2005. The Service 
has committed $250,000 from our fiscal year 2006 budget for 
implementation of Section 119 Agreements.
    The fiscal year 2005 Appropriation also included $986,000 for the 
continued development of marine mammal population survey methods in 
Alaska. These funds provide the opportunity to obtain biological 
information to address high priority resource issues. They also help 
develop and test innovative survey techniques relating to walrus, sea 
otters and polar bears in Alaska. Survey activities undertaken with 
these funds will be used to refine remote sensing with thermal imaging 
to estimate walrus numbers, which dramatically increases the Service's 
ability to conduct critical abundance estimates for Pacific walrus. In 
addition, sea otter surveys funded with these dollars will be conducted 
to help evaluate regional trends for a declining population as well as 
questions regarding potential seasonal distribution changes within 
specific regions where numbers of sea otters have been depleted. 
Additional surveys conducted with these funds will improve information 
on the distribution of the southern Beaufort Sea polar bear 
populations. Successful completion of these preliminary projects also 
is expected during fiscal year 2005.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                        STANDING ROCK IRRIGATION

    Question. Low lake levels at Lake Oahe, which spans 231 miles from 
Pierre, the capital of South Dakota, to Bismarck, the capital of North 
Dakota, have been causing a number of problems for Standing Rock Sioux 
Tribe. From November 23-26, 2003, there was simply no drinking water at 
all in Fort Yates, ND. The Standing Rock Sioux Tribe purchased and 
distributed bottled drinking water and other supplies and the Bureau of 
Reclamation did what it could to restore the water supply to the 
community during that holiday weekend.
    More than a year later, however, the community is dealing with the 
effects of low lake levels. It has hit the Tribe's irrigation program 
particularly hard. Last year, construction was completed on the 
Cannonball irrigation project as a part of the Garrison project, but a 
temporary change in the intake was required to operate in 2004 due to 
low water levels on Lake Oahe. The original intake was never used 
because 11 feet of sediment had accumulated over the intake. In order 
for the irrigation project to operate this year, a new intake is 
needed. The North Dakota delegation sent a letter to the Commissioner 
of the Bureau of Reclamation, Mr. Keys, on March 1, asking for funds to 
address this problem. Could you please tell us the status of a response 
to our letter?
    Answer. A letter was signed by the Commissioner on April 5, 2005 in 
response to the North Dakota delegation. Attached is a copy of the 
letter for the record.
    Question. Similar problems are plaguing two irrigation intakes that 
were constructed with BIA irrigation funds--the Fort Yates intake in 
North Dakota and the Eagle intake in South Dakota. The Tribe has asked 
about the possibility of a reprogramming of fiscal year 2005 BIA funds 
or an appropriation of fiscal year 2006 funds to extend theses two 
intakes originally constructed with BIA funds. Could you give the 
Subcommittee an analysis of the status of the fiscal year 2005 funding 
in the BIA's irrigation program, and explain what authorization and 
funding level would be needed for the Subcommittee to appropriate funds 
in fiscal year 2006 to address these problems?
    Answer. As these are extensions of two existing intake structures, 
this would fall under the BIA Irrigation Construction program. In 
fiscal year 2005, all Irrigation Construction funding was directed to 
the Navajo Indian Irrigation Project (NIIP). In fiscal year 2006 the 
President's Budget request for Irrigation Construction is $12.8 million 
and consists solely of funding for NIIP.
    The BIA has authority to undertake the Standing Rock water intake 
projects. However, any funding for these projects should be identified 
separate and apart from funding for NIIP. A consultant of the Standing 
Rock Sioux Tribe has provided an estimate of $1.0 million for the Fort 
Yates intake extension project, which BIA has validated, and $500,000 
for the Eagle intake extension project which the BIA is in the process 
of assessing.

                    NATIONAL WILDLIFE REFUGE SYSTEM

    Question. The fiscal year 2006 budget for the Fish and Wildlife 
Service includes an increase of $12.9 million over the enacted level. 
With this increase the budget justification notes an associated 
increase of 10 FTEs. However, the Fish and Wildlife Service has 
indicated they may have to abolish as many as 200 positions under this 
budget request due to increased costs and assessments. Will any 
positions be eliminated or held open in fiscal year 2005 or fiscal year 
2006 that have previously been filled? If so, please provide a list by 
region and field station.
    Answer. The positions in question are located in the National 
Wildlife Refuge program. While they have been identified as a minimum 
staffing need, many of these positions have never been funded. The 
impact to the budget is in lost opportunities to address funding needs 
due to the absorption of fixed costs and across-the-board rescissions.
    Since 2001, the total number of Refuge FTEs has increased by 419 
positions, or roughly 16 percent. At the same time, however, the 
program has had to absorb roughly $22.1 million in fixed costs that 
could otherwise have been used to hire almost an additional 278 new 
staff. The $22.1 million amount is comprised of two factors. The first 
factor is the gap between the legislated pay increase level and the 
actual funding received for pay increases. Over multiple years, this 
gap has a cumulative impact. The second factor is the annual impact of 
across-the-board rescissions. In addition to preventing the program 
from hiring new staff, absorbing fixed costs reduces opportunities to 
leverage funds, support additional volunteers and partnerships, and 
provide additional services to the public.
    The Service continues to monitor the situation. Before leaving 
positions unfilled, programs look at numerous other ways to contain 
costs. For example, the Service extensively uses partnerships and 
volunteers to contain costs: in fiscal year 2005, there were over 
45,000 volunteers.

                          SCIENTIFIC INTEGRITY

    Question. Has the Department done anything to look into the results 
of a recently conducted Union of Concerned Scientists and Public 
Employees for Environmental Responsibility Survey of U.S. Fish and 
Wildlife Service employees? How are you addressing these concerns about 
political interference at the Department?
    Answer. The Fish and Wildlife Service has reviewed the information 
compiled by the Union of Concerned Scientists and by Public Employees 
for Environmental Responsibility. In addition, the Service has studied 
the survey techniques and survey instrument used by UCS and PEER. While 
the survey design, sample size, and response rate make it difficult to 
draw precise inferences from the data collected, we do not discount the 
fact that over 400 employees responded to this survey, expressing 
various forms of dissatisfaction or concern. The Service leadership 
will be considering these views and other more scientifically generated 
information in the coming months to determine appropriate steps to 
address such concerns. We believe that our requested $2 million Science 
Excellence budget initiative will provide important support in this 
effort. With regard to the UCS/PEER inferences about political 
interference in decision-making, the Service believes it would benefit 
from revising its training programs to focus more attention on the 
roles of scientists, supervisors and managers in decision-making and to 
place greater emphasis on decision-support tools and their roles in 
structured decision-making. This effort will be directly supported by 
our fiscal year 2006 Science Excellence funding request and will 
strengthen and sharpen the application and role of science in the 
decision making process.

                              LEAFY SPURGE

    Question. Please provide the funding levels by agency and 
management unit included in the fiscal year 2006 President's budget for 
leafy spurge eradication in North Dakota.
    Answer. The Department's 2006 President's budget includes an 
estimated $2.0 million in total for leafy spurge and yellow star 
thistle, broken out as follows, by bureau:

------------------------------------------------------------------------
                           Agency                               Amount
------------------------------------------------------------------------
BLM........................................................     $700,000
USGS.......................................................      300,000
FWS........................................................      646,000
NPS........................................................      250,000
BIA........................................................      200,000
------------------------------------------------------------------------

    Funds are distributed based on priority needs and at this point in 
time, information on leafy spurge funding by state is not available.

                      TRIBAL PRIORITY ALLOCATIONS

    Question. As you are aware, the Tribal Priority Allocations or 
``TPA'' account in the BIA budget makes up 40 percent of Operation of 
Indian Programs funding. TPA funds basic, rubber-meets-the-road tribal 
services, including programs for tribal courts, Indian child welfare, 
housing, welfare assistance, adult education and forestry. The fiscal 
year 2006 request proposes to ``evaluate'' the allocation of funding 
under TPA and consider if there are better ways to distribute TPA 
funds. What assurance can you provide this Subcommittee that tribes 
will be consulted before any redistribution plan is put in place? Given 
that tribal consultation sessions are already being held in the 
formulation of the fiscal year 2007 budget, how will any reallocation 
or redistribution proposal affect the development of the fiscal year 
2007 budget request?
    Answer. The Tribes will play a significant role in the analysis of 
the current TPA funding formula. The Tribal Budget Advisory Council has 
established a working group to evaluate this issue. If the evaluation 
indicates a need to revise the funding formula, proposals will be 
developed and considered in consultation with the Tribes. This 
evaluation is in a very preliminary stage; therefore, the impact to the 
fiscal year 2007 budget request cannot yet be determined.

                         MNI SOSE WATER RIGHTS

    Question. In December, 2004, the Bureau of Indian Affairs (BIA) 
notified the Mni Sose Intertribal Water Rights Coalition (Coalition) 
that its fiscal year 2005 funding had been eliminated. This Coalition 
consists of 28 tribes in the Missouri River Basin and has been 
operating for twelve years pursuant to a Memorandum of Agreement (MOA) 
with the BIA. The MOA was based on providing trust services and 
responsibilities to the Northern Plains Tribes due to a lack of BIA 
manpower, interagency relationships, and knowledge of trust issues. Can 
you tell the subcommittee why these funds were eliminated and whether 
or not the Department has identified unobligated funds that could be 
reprogrammed to the Coalition?
    Answer. In fiscal year 2005, the budget for the Water Resources 
Management, Planning, and Pre-development, program was reduced by 
$418,000. This restricted the program's ability to fund all initiatives 
that had been supported the previous year. In distribution of the 
fiscal year 2005 funds, BIA staff carefully monitored the provisions 
required under the MOA between the Coalition, and also reviewed the 
Coalitions's proposed projects an accordance with national criteria. 
The coalition did not rank high enough, when compared to other Tribal 
needs, to receive funding. If funding becomes available for 
reprogramming, funding for the Coalition will be considered among other 
priority funding needs.

                  BIA REPLACEMENT SCHOOL CONSTRUCTION

    Question. BIA is responsible for operating 184 schools in 23 states 
that serve roughly 48,000 children. The budget says that funding for 
the school construction program supports the President's commitment to 
``leave no child behind,'' and that the goal is to ``provide an 
environment conducive to quality educational achievement.'' Yet, the 
administration's budget proposes to reduce funding for replacement 
schools by $62 million. That's a cut of 58 percent from the current 
enacted level, and 69 percent from the 2004 level. Congress has 
provided a substantial amount of money to the construction program over 
the past 4 or 5 years, and these projects take some time to complete. 
But despite the increases, one-third of BIA schools are still listed as 
being in ``poor'' condition. According to the budget, BIA has had some 
carryover balances in the construction account, so the thinking here is 
that by cutting the funding, the planning and design people can ``catch 
up with construction awards.'' BIA will carry over $175 million in 
fiscal year 2006, approximately 55 percent of the $319 million 
appropriated in fiscal year 2005. The National Park Service will carry 
over $385 million, or 127 percent of the $302 million appropriated last 
year. Yet, despite having more than twice the carryover as BIA, the 
request for Park Service construction is actually up $22 million, a 7 
percent increase. Knowing that there are still 60 schools out there 
that are in drastic need of replacement, why is school construction 
funding being cut by 58 percent? And if this is really all about 
carryover balances, then why is the Park Service being spared a similar 
cut in its construction program?
    Answer. The table below summarizes carryover as a percent of total 
available funding for NPS BLM, FWS, and BIA. However, carryover 
balances were not the only factor considered. The funding level for 
each construction account was based on an evaluation of facts specific 
to each bureau. For BIA, funding for school construction was reduced to 
maximize our ability to complete schools already in the design process 
or under construction. The budget maintains the pace of the current 
program by including funding to begin planning and design for future 
projects

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                Fiscal year 2004                      Fiscal year       Percent
                                ----------------------------------------------------------------------   change
                                                                                                         fiscal
                                                                      Carryover                           year
                                  Enacterd      Total                    as a       2005       2006    2006  vs.
                                     BA     available \1\  Carryover   percent    enacted    request     fiscal
                                                                       of total      BA         BA        year
                                                                      available                           2005
----------------------------------------------------------------------------------------------------------------
NPS............................       $409         $723         $339         47       $355       $358          1
BLM............................         14           28           14         50         11          6        -45
FWS............................         72          143           68         48         96         22        -77
BIA \2\........................        347          610          216         35        319        232        -27
----------------------------------------------------------------------------------------------------------------
\1\ Total available includes carryover from prior years, recoveries, and new budget authority.
\2\ The numbers shown for BIA represent the total construction account, not just school construction.

                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

    Question. As you know, the National Center for Earth Resources 
Observation and Science (commonly known as ``EROS'') in Sioux Falls, 
South Dakota, is an extraordinarily important resource not only for my 
state, but for our nation and the international community. You have 
been extremely helpful in working with me and others to avert the 
potential crisis that could have resulted from the May 2003 malfunction 
of the Landsat 7 satellite's scan line corrector (SLC). Your 
cooperation in reprogramming funds for use at EROS helped to address 
funding shortfalls caused by the malfunction, and you were instrumental 
in assembling the President's fiscal year 2006 budget request, which 
seeks funding increases that will help to ensure the long-term 
continuity of the Landsat data record. I look forward to working with 
you and my colleagues in Congress to ensure that this essential funding 
is delivered. I remain concerned, however, about the possibility that 
another more serious Landsat malfunction between now and the launch of 
its successor in 2009, at the earliest, could cause a gap in the 
Landsat data record. Does the USGS expect a Landsat data gap to occur?
    Answer. A land imaging sensor is scheduled to launch on the first 
NPOESS (National Polar-orbiting Operational Environmental Satellite 
System) satellite (launch currently targeted for late CY 2009). The 
extent of a gap, if any, between Landsat 7 and NPOESS will depend on 
the continued health of Landsat 7 as well as NPOESS' ability to remain 
on schedule. Given the uncertainties involved, the USGS and NASA are 
developing plans to buy imagery to mitigate any negative impacts to 
users of the Landsat data (discussed below in greater detail).
    Question. Given that such a gap would diminish the value of the 
Landsat data record and potentially harm our data processing 
capabilities, it is in our interest to do all we can to prevent a gap 
from occurring. Could you outline the preventive steps being taken by 
USGS?
    Answer. USGS flight engineers continually monitor telemetry from 
Landsat 7 to maintain the health and safety of the spacecraft and the 
sensor on board. For several months in 2004, the engineers tracked 
anomalies in the performance of one of Landsat 7's three gyroscopes, 
which are used to maintain and control the position and orientation of 
the spacecraft. After extensive analysis, the USGS decided to shut off 
one ``gyro''. During the same period, the USGS worked closely with NASA 
experts to perform a risk assessment, as the Landsat 7 satellite design 
requires two gyros for successful operation. The USGS continues to 
monitor the remaining gyros. So far, however, the remaining gyros are 
functioning with no problems, and they could last for the duration of 
the mission. The USGS is taking preventive steps, though, by conducting 
a study that would allow for operation of the satellite using a single 
gyro. This approach has worked successfully on other satellites 
designed for two-gyro performance, and a hardware/software test of 
single-gyro flight procedures is planned for the summer of 2005.
    Question. Further, should these preventive steps fail, how would 
USGS minimize the negative consequences of a gap?
    Answer. In case these preventive steps fail, the USGS, with NASA 
and with input from the user community, is investigating alternatives 
for partial mitigation of a data gap. That is, while no single 
satellite or combination of satellites can duplicate the spectral 
content and geographic coverage of Landsat 7, one or more foreign land-
observing satellite systems may be able to provide, at reasonable cost, 
twice-annual global coverage of imagery with spectral characteristics 
that are somewhat similar to Landsat 7. The USGS is currently 
evaluating data from such systems and holding preliminary discussions 
with the data providers.
    Question. Finally, could you explain the extent to which the 
President's fiscal year 2006 budget request for Landsat 7 operations 
and the Landsat Data Continuity Mission would help to prevent and 
respond to a potential gap?
    Answer. Baseline funding for the USGS Land Remote Sensing Program 
supports ongoing, routine efforts to obtain and characterize sample 
data sets from commercial land-observing satellites and from 
international government systems. In cooperation with NASA scientists, 
sample data sets from systems capable of providing global land coverage 
are currently being evaluated. Program funding for fiscal year 2006 is 
projected to continue supporting this effort. Should Landsat 7 fail 
during fiscal year 2006, it is presumed that flight-operations funding 
for Landsat 7 could be shifted toward obtaining alternative data once 
the decommissioning effort is completed. LDCM is the longer-term 
solution to the status of Landsat 7. Timely launch of a new land sensor 
by 2009 will provide a full replacement for Landsat 7.

                         CONCLUSION OF HEARINGS

    Senator Burns. Thank you very much. The subcommittee will 
stand in recess subject to the call of the Chair.
    [Whereupon, at 11:12 a.m., Wednesday, March 10, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

</pre></body></html>
